<html>
<title> - TESTIMONY ON WHETHER THE CHIEF, NATIONAL GUARD BUREAU, SHOULD BE A MEMBER OF THE JOINT CHIEFS OF STAFF</title>
<body><pre>[Senate Hearing 112-336]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-336
 
                    TESTIMONY ON WHETHER THE CHIEF,
                   NATIONAL GUARD BUREAU, SHOULD BE A
                  MEMBER OF THE JOINT CHIEFS OF STAFF

=======================================================================



                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 10, 2011

                               __________

         Printed for the use of the Committee on Armed Services






        Available via the World Wide Web: http://www.fdsys.gov/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
73-592                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
DANIEL K. AKAKA, Hawaii              JEFF SESSIONS, Alabama
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
KAY R. HAGAN, North Carolina         KELLY AYOTTE, New Hampshire
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
JOE MANCHIN III, West Virginia       LINDSEY GRAHAM, South Carolina
JEANNE SHAHEEN, New Hampshire        JOHN CORNYN, Texas
KIRSTEN E. GILLIBRAND, New York      DAVID VITTER, Louisiana
RICHARD BLUMENTHAL, Connecticut

                   Richard D. DeBobes, Staff Director

               David M. Morriss, Minority Staff Director

                                  (ii)



                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

  Testimony on Whether the Chief, National Guard Bureau, should be a 
                  Member of the Joint Chiefs of Staff

                           november 10, 2011

                                                                   Page

Johnson, Hon. Jeh C. Johnson, General Counsel, Department of 
  Defense........................................................     6
Dempsey, GEN Martin E., USA, Chairman of the Joint Chiefs of 
  Staff..........................................................    10
Winnefeld, ADM James A., Jr., USN, Vice Chairman of the Joint 
  Chiefs of Staff................................................    12
Odierno, GEN Raymond T., USA, Chief of Staff of the Army.........    14
Greenert, ADM Jonathan W., USN, Chief of Naval Operations........    16
Amos, Gen. James F., USMC, Commandant of the Marine Corps........    17
Schwartz, Gen. Norton A., USAF, Chief of Staff of the Air Force..    20
McKinley, Gen. Craig R., USAF, Chief, National Guard Bureau......    22

                                 (iii)


                    TESTIMONY ON WHETHER THE CHIEF,
                   NATIONAL GUARD BUREAU, SHOULD BE A
                  MEMBER OF THE JOINT CHIEFS OF STAFF

                              ----------                              


                      THURSDAY, NOVEMBER 10, 2011

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Nelson, Webb, McCaskill, Udall, Hagan, Begich, Manchin, 
Shaheen, Blumenthal, Inhofe, Wicker, Brown, Ayotte, and Graham.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Jessica L. Kingston, research assistant; Gerald J. Leeling, 
counsel; Peter K. Levine, general counsel; Michael J. Noblet, 
professional staff member; and William K. Sutey, professional 
staff member.
    Minority staff members present: David M. Morriss, minority 
staff director; Paul C. Hutton IV, professional staff member; 
and Richard F. Walsh, minority counsel.
    Staff assistants present: Jennifer R. Knowles, Hannah I. 
Lloyd, and Breon N. Wells.
    Committee members' assistants present: Bryon Manna, 
assistant to Senator Lieberman; Carolyn Chuhta, assistant to 
Senator Reed; Nick Ikeda, assistant to Senator Akaka; Ann 
Premer, assistant to Senator Nelson; Gordon Peterson, assistant 
to Senator Webb; Stephen Hedger, assistant to Senator 
McCaskill; Lindsay Kavanaugh, assistant to Senator Begich; 
Joanne McLaughlin, assistant to Senator Manchin; Chad 
Kreikemeier, assistant to Senator Shaheen; Anthony Lazarski, 
assistant to Senator Inhofe; Lenwood Landrum, assistant to 
Senator Sessions; Clyde Taylor IV, assistant to Senator 
Chambliss; Joseph Lai, assistant to Senator Wicker; Charles 
Prosch, assistant to Senator Brown; Brad Bowman, assistant to 
Senator Ayotte; and Andrew King and Sergio Sarkany, assistants 
to Senator Graham.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets today to receive testimony on whether the Chief of the 
National Guard Bureau (CNGB) should be a member of the Joint 
Chiefs of Staff (JCS).
    I believe that this hearing is a first, the first time that 
we have had every member of the JCS testify at a single 
hearing. Each of them has appeared before us individually and 
in different combinations, but never all together.
    In addition to all the members of the Joint Chiefs, we have 
the Department of Defense (DOD) General Counsel, and we have 
the CNGB with us today. We welcome each of you to this hearing. 
We look forward to your testimony on a very important issue.
    The role of the National Guard, as well as the role of the 
other Reserve components, has grown significantly since 
September 11, 2001. Substantial numbers of National Guardsmen 
and reservists have deployed to and continue to serve in combat 
operations in Iraq and Afghanistan.
    Large numbers have served multiple tours. Many have given 
their lives in service to our Nation, and many more have 
returned with wounds of war. Their service has been 
outstanding, and we commend them for their dedication, courage, 
and patriotism.
    The National Guard has also risen to the challenge by 
serving in diverse Homeland defense and civil support missions. 
The Reserve components have made a highly successful transition 
from a Strategic Reserve to an Operational Reserve.
    The question of whether to include the CNGB as a member of 
the JCS is a complex issue with significant policy 
implications. To properly address this issue requires an 
understanding of the role of the National Guard, the role of 
the JCS, and the role of the CNGB. I believe that we have the 
right witnesses before us today to help us understand all 
aspects of this issue.
    When individuals enlist or accept a commission in a State 
National Guard unit, they simultaneously enlist or are 
commissioned in the Army National Guard of the United States or 
the Air National Guard of the United States, which are 
components of the Army and the Air Force. These individuals 
retain their status as State Guard members unless and until 
they are ordered to active Federal service, and they revert to 
State status upon being relieved from Federal service.
    There is a third hybrid status, commonly referred to as 
``Title 32 status,'' where the members are in a federally 
funded State status. I understand that Mr. Johnson, the DOD 
General Counsel, will discuss some of the ramifications of 
these different statuses in which members of the National Guard 
serve.
    The composition of the JCS is defined by statute and 
consists of the Chairman, the Vice Chairman, and the Military 
Service Chiefs of the Army, Navy, Air Force, and Marine Corps. 
The Chairman of the JCS is the principal military adviser to 
the President, the National Security Council, the Homeland 
Security Council, and the Secretary of Defense.
    The other members of the Joint Chiefs may submit to the 
Chairman advice in disagreement with or in addition to the 
advice presented by the Chairman, and the Chairman must present 
that advice at the same time that he presents his own advice.
    Additionally, the other members of the Joint Chiefs provide 
military advice when requested by the President, the National 
Security Council, the Homeland Security Council, or the 
Secretary of Defense. A member of the Joint Chiefs may make 
recommendations to Congress relating to DOD after first 
informing the Secretary of Defense.
    I am looking forward to the testimony of the members of the 
JCS as they provide more information on the role that the Joint 
Chiefs play in our national security, how the interests of the 
Army and Air National Guard are addressed by the Joint Chiefs, 
and how the CNGB interfaces with the JCS.
    The National Guard Bureau is a joint activity of DOD. By 
statute, it is the channel of communications on all matters 
pertaining to the National Guard, the Army National Guard of 
the United States, and the Air National Guard of the United 
States between the Department of the Army and the Department of 
the Air Force and the several States.
    The CNGB is a principal adviser to the Secretary of Defense 
through the Chairman of the JCS on matters involving non-
federalized National Guard forces and on other matters as 
determined by the Secretary of Defense. He is also the 
principal adviser to the Secretary of the Army and the Chief of 
Staff of the Army and to the Secretary of the Air Force and the 
Chief of Staff of the Air Force on matters relating to the 
National Guard, the Army National Guard of the United States, 
and the Air National Guard of the United States.
    Beginning in 2009, when the position of the CNGB was 
increased to a four-star rank, the CNGB was given a standing 
invitation to attend meetings of the Joint Chiefs. I look 
forward to General McKinley's testimony to further elaborate on 
the role and function of the CNGB and how that relates to the 
role and function of the JCS.
    At Congress' direction, the Commission on the National 
Guard and Reserves addressed the issue that we are looking at 
today, and they did so in its second report to Congress, dated 
March 1, 2007. The commission recommended against making the 
CNGB a member of the Joint Chiefs.
    This is what that commission said, ``The commission does 
not recommend that the CNGB be a member of the JCS on the 
grounds that the duties of the members of the JCS are greater 
than those of the CNGB. For example--and this is a long quote 
from that commission report.
    ``For example,'' they said, ``the Chief of the National 
Guard Bureau is not responsible for organizing, manning, 
training, and equipping the National Guard to the same extent 
as are the Service Chiefs of Staff. The qualifications to be 
selected as a Service Chief of Staff,'' they said, ``also are 
materially different from and more rigorous than those for 
selection to be Chief of the National Guard Bureau.''
    Moreover, they said that ``making the Chief of the National 
Guard Bureau a member of the JCS would run counter to 
intraservice and interservice integration and would reverse 
progress toward jointness and interoperability. Making the 
Chief of the National Guard Bureau a member of the JCS would be 
fundamentally inconsistent with the status of the Army and Air 
National Guard as Reserve components of the Army and the Air 
Force.''
    Finally, the commission concludes that this proposal 
``would be counter to the carefully crafted organizational and 
advisory principles established in the Goldwater-Nichols 
legislation.''
    Now I note that Congress has implemented many of the 
recommendations of that commission, including the following: 
increasing the grade of the CNGB from lieutenant general to 
general and making him a principal adviser to the Secretary of 
Defense through the Chairman of the JCS on matters involving 
non-federalized National Guard forces.
    Another of their recommendations, which was implemented by 
Congress, was establishing the National Guard Bureau as a joint 
activity of DOD, enhancing the functions of the National Guard 
Bureau to include assisting the Secretary of Defense and 
coordinating with other Federal agencies, the adjutants general 
of the States, and the combatant command with responsibility 
for the U.S. Homeland, the U.S. Northern Command (NORTHCOM).
    We require that at least one deputy of NORTHCOM--again, the 
combatant command with responsibility for the United States--
that at least one deputy be a National Guard officer in the 
grade of lieutenant general, and we have increased the number 
of unified and specified combatant command positions for 
Reserve component officers.
    We all are grateful to the witnesses, to the men and women 
with whom they serve for service to our Nation. We thank the 
witnesses for being with us today.
    Before calling on Senator Inhofe, I will note that we have 
two votes today scheduled for 12:05 p.m., I believe.
    Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman.
    I believe that is right. I looked back in the 8 years I 
spent in the House and the 17 years in the Senate. This is the 
first time that all members of the Joint Chiefs are here. So 
this is kind of a neat deal.
    I think the greatest trust that is placed upon Congress by 
the American people is to provide for their security and 
maintain a strong national defense. Our Constitution gives 
Congress specific national security authorities--to declare 
war, raise and support armies, provide for the Navy, establish 
rules and regulations for our military forces, and organize and 
arm the militias in the States.
    Chairman Levin. I hate to interrupt you, Senator Inhofe, 
but we do have a quorum here now, and we have some business 
that we can attend to if we can interrupt your statement.
    Senator Inhofe. Sure. Let us do that.
    Chairman Levin. There is a quorum now present, and we were 
about to lose that quorum, by the way. So that is why I am 
interrupting our friend, Senator Inhofe.
    I ask the committee to consider a list of 4,022 pending 
military nominations. All of these nominations have been before 
the committee the required length of time. Is there a motion to 
favorably report these?
    Senator Inhofe. I so move.
    Chairman Levin. Is there a second?
    Senator Reed. Second.
    Chairman Levin. All in favor, say aye. [A chorus of ayes.]
    Opposed, nay. [No response.]
    Chairman Levin. The motion carries.
    Thank you, Senator Inhofe.
    Senator Inhofe. You bet. Well, anyway, let me just mention 
that I have had--we are all close to all the branches, the 
Active, the Reserve, the Guard--and I don't think there is a 
person up here on this committee who hasn't had very close 
relationships with Active Duty and have visited quite often in 
the areas where they are stationed, they are deployed.
    In my case, we have 3,000 members of the Oklahoma 45th 
Infantry Brigade Combat Team, our Oklahoma National Guard. I 
went down when they were deployed from Camp Shelby in 
Mississippi and talked to them and then left about 3 weeks 
later and talked to them over in Afghanistan. I know that it is 
one where you have probably a closer relationship because they 
are sitting there in your hometown, and you visit with them, 
General McKinley, and so, I know that that happens.
    I have very close friends in Oklahoma 45th, they weren't 
deployed until July, and yet we have lost 14 of our people over 
there. One was Chris Horton--his wife worked in my office.
    I remember so well during the August recess going into a 
small town in Oklahoma where she was there, and we were making 
arrangements; I was getting ready to go to Afghanistan so I 
could meet with Chris Horton, her husband, and 2 days before I 
left, he was killed in action. These are things that we are all 
very, very close to the people in all the Services.
    Earlier this week, our Oklahoma 45th helped in capturing 
Bari Ali, a mid-level insurgent leader in Afghanistan, and his 
brother, as well as weapons and hand grenades, tactical 
fighting gear, and cell phones that were there. They did it 
without firing a shot.
    They did great work over there. Their efforts will lead to 
a stable Afghanistan and prevent insurgents from gaining safe 
haven.
    Our National Guard has transitioned from a strategic to an 
Operational Reserve Force. This means that the National Guard 
has to be trained and equipped the same as our Active units and 
the Reserves. It also means that we must fully integrate our 
Active and Reserve components so they can seamlessly execute 
any mission this country asks them to do.
    I am proud of the contributions that have been made and the 
sacrifice that our military and their families have made and 
continue to make. We have made a lot of progress. I think 
General McKinley will probably have this--I read part of his 
statement--in terms of the relationship between the Guard and 
the Active units.
    I have to say, I think this might be the first time that I 
can remember ever coming to a committee hearing--I had dinner 
the other night with Bud Wyatt, the Air Guard Chief, and he 
started talking about this. I said, ``Bud, leave me alone here. 
We are going to have a hearing. Let me hear from everybody at 
the same time.''
    I was going to say, Mr. Chairman, this might be the only 
time I have ever come to a hearing where I am really open on 
this. I want to hear the answers, and we have specific 
questions.
    I think this is going to be a very helpful hearing, and I 
appreciate your holding it.
    Chairman Levin. Thank you very much, Senator Inhofe.
    We are hearing from members of our family. These witnesses 
are part of our family, our American family and this Senate 
committee's family. We are personally close to each of you, and 
we have a difficult policy decision to deal with. We do that as 
family members.
    While there may be differences, and there obviously are, 
that is what democracy is all about. We need to consider these 
as members of one unit with all having the same mission, which 
is the security of this country. You all have that mission, and 
we all have that mission.
    We are going to call on our witnesses today in the 
following order. First will be the General Counsel to DOD, Jeh 
Johnson. Then will be the Chairman of the JCS, General Dempsey. 
Then will be the Vice Chairman of the JCS, Admiral Winnefeld. 
Then will be the Chief of Staff of the Army, General Odierno; 
our Chief of Naval Operations, Admiral Greenert; the Commandant 
of the Marine Corps, General Amos; the Chief of Staff for the 
Air Force, General Schwartz; and the CNGB, General McKinley.
    So let us start with you, Mr. Johnson.

 STATEMENT OF HON. JEH C. JOHNSON, GENERAL COUNSEL, DEPARTMENT 
                           OF DEFENSE

    Mr. Johnson. Thank you, Mr. Chairman, Senator Inhofe, 
members of the committee. Thank you for the opportunity to 
testify here today.
    You have asked me to discuss a provision of the proposed 
legislation that would make the CNGB a member of the JCS.
    At the outset, I will tell you that there are no outright 
legal barriers to enacting this legislation. Nothing in the 
Constitution prohibits it, and the Joint Chiefs are a statutory 
creation. Congress can, therefore, change the membership of the 
Chiefs by statute if it so desires.
    I believe it is important, however, that the committee be 
aware of some of the legislation's legal implications and 
complexities. Before I get to those, here is some general legal 
background on the National Guard, the CNGB, and the JCS. Mr. 
Chairman, you alluded to some of this in your own remarks.
    The National Guard is a unique entity that operates at 
different times under Federal and State authorities. All 
members of the Guard are members of both the State National 
Guard and the Federal National Guard of the United States. The 
Army and Air National Guards of the United States are two of 
the six Reserve components of DOD. The Army, Navy, Air Force, 
and Marine Corps Reserves are the other four Reserve 
components.
    Members of the National Guard can serve in three distinct 
statuses, each of which has differing responsibilities and 
authorities. First, National Guard members may serve in what is 
known as State Active Duty. State law dictates when Guard 
members assume this status.
    Typical State Active Duty missions include first responder 
responsibilities after a natural disaster. The State pays for 
and the Governor of that State commands the National Guard when 
it is on State Active Duty. DOD plays no direct role in that 
status.
    Second, National Guard members may be ordered to duty under 
title 32 of the U.S. Code, which I will call title 32 duty. 
When the Guard performs title 32 duty, it is performing 
federally funded military training subject to Federal standards 
or domestic missions, both of which are under the command and 
control of the State Governor. Examples of Title 32 missions 
include post-September 11 airport security, southwest border 
security, and counterdrug support.
    Third, DOD may call the National Guard to Federal service, 
including in times of national emergency, as authorized by law. 
National Guard members ordered to Active Duty lose their status 
as members of the National Guard and become members of the 
Reserves of the Army or the Reserves of the Air Force. For 
example, this is the status of Guard members who have been 
called to serve in Iraq and Afghanistan.
    DOD both commands and funds the Guard when it is in Federal 
service. Thus, at different times, the National Guard may act 
as either a State or a Federal entity.
    Indeed, many of the functions the Guard performs are under 
neither the command nor the control of DOD. Rather, for much of 
what the Guard does, State Governors are in command. When the 
National Guard does act in Federal service, it does so as part 
of the Reserves of the Army or the Air Force.
    The CNGB does not command the National Guard acting in any 
of these three statuses. Rather, by Federal statute, the CNGB 
acts as a principal adviser to the Secretary of Defense on all 
matters involving federalized National Guard forces. He also 
has the statutory duty to advise the Secretaries and the Chiefs 
of Staff of the Army and the Air Force on all National Guard 
matters.
    A DOD directive further explains the CNGB's authorities and 
responsibilities, consistent with guidance provided by 
Congress.
    Now some legal background on the JCS. The JCS serve as the 
senior military advisers to the President, the National 
Security Council, the Homeland Security Council, and the 
Secretary of Defense. The Joint Chiefs are currently composed 
of six statutory members: the Chairman, the Vice Chairman, and 
the Chiefs of the four Services.
    The Service Chiefs have a broad range of leadership and 
command responsibilities that extend throughout their 
respective Services, encompassing both the Active and Reserve 
components of the Service. Each of the Service Chiefs is the 
senior military officer of their respective Service.
    Against this backdrop, I turn to the proposed legislation, 
which would make the CNGB a member of the JCS. As a matter of 
practice, the CNGB currently attends meetings of the Joint 
Chiefs, as does the Commandant of the Coast Guard.
    The purpose of the proposed legislation is, thus, to make 
the Chief of the Guard Bureau's attendance at Joint Chiefs 
meeting a statutory entitlement, with its attendant statutory 
authorities and responsibilities. In connection with the 
legislation, I make two points. First, the Goldwater-Nichols 
Department of Defense Reorganization Act of 1986 struck many 
carefully crafted balances of both intraservice and 
interservice equities.
    The CNGB represents only the Army and Air National Guards, 
and the proposed legislation would thus alter some of 
Goldwater-Nichols careful balances by: (a) for example, 
altering the fact that each Service is statutorily represented 
by one Service Chief in the Joint Chiefs, and (b) providing 
only two of DOD's six statutory Reserve components with 
additional Joint Chiefs representation.
    Second, elevating the CNGB to represent National Guard 
equities to the Joint Chiefs could create legal confusion as to 
whether the Army and the Air Force Chiefs of Staff continue to 
represent their total force. Current law requires the CNGB to 
advise the Army and Air Force Chiefs of Staff on all National 
Guard matters.
    Finally, I note that you have already received letters from 
the Chairman of the Joint Chiefs and the Service Chiefs that 
detail their concerns with the proposed legislation. The 
Chairman, the Vice Chairman, and the Service Chiefs are far 
more conversant than I with respect to the operational and 
administrative consequences of adding the CNGB to the Joint 
Chiefs.
    From my perspective, I hope that any legislation does not 
add ambiguities with respect to authorities in the place where 
we can tolerate such ambiguity the least--at the top of the 
Service hierarchies, especially in a time of war.
    Thank you again for the opportunity to appear here today, 
and I look forward to your questions.
    [The prepared statement of Mr. Johnson follows:]
             Prepared Statement by Hon. Jeh Charles Johnson
    Mr. Chairman and Senator McCain, thank you for the opportunity to 
testify here today.
    You have asked me to discuss a provision of the proposed ``National 
Guard Empowerment and State-National Defense Integration Act of 
2011''--specifically, the provision that would make the CNGB a member 
of the Joint Chiefs of Staff. Before I get to the specifics of the 
proposal, however, I thought it might be helpful to the committee if I 
provided some general legal background on the National Guard, the CNGB, 
and the Joint Chiefs of Staff.
    The National Guard is a unique entity that operates at different 
times under Federal and State authorities. All members of the Guard are 
members of both their State National Guard and the Federal National 
Guard of the United States. The Army and Air National Guards of the 
United States are two of the six Reserve components of the Department 
of Defense; the Army, Navy, Air Force, and Marine Corps Reserves are 
the other four Reserve components.
    Members of the National Guard can serve in three distinct statuses, 
each of which has differing responsibilities and authorities.
    First, National Guard members may serve in what is known as ``State 
Active Duty.'' State law dictates when Guard members assume this 
status; typical ``State Active Duty'' missions include first responder 
responsibilities after a natural disaster. The State pays for, and the 
State Governor commands, the National Guard when it is on ``State 
Active Duty.'' The Department of Defense plays no direct role.
    Second, National Guard members may be ordered to duty under title 
32 of the U.S.C., which I will call ``Title 32 Duty.'' When the Guard 
performs ``Title 32 Duty,'' it is performing federally-funded military 
training subject to Federal standards or domestic missions, both of 
which are under the command and control of the State Governor. Examples 
of ``title 32'' missions include post-September 11 airport security, 
southwest border security, and counter-drug support.
    Third, the Department of Defense may call the National Guard to 
``Federal service,'' including in times of national emergency, as 
authorized by law. National Guard members ordered to active duty lose 
their status as members of the National Guard and become members of the 
Reserves of the Army or the Reserves of the Air Force. For example, 
this is the status of Guard members who have been called to serve in 
Iraq and Afghanistan. The Department of Defense both commands and funds 
the Guard when it is in ``Federal service.''
    Thus, at different times, the National Guard may act as either a 
State or a Federal entity. Indeed, many of the functions the Guard 
performs are under neither the command nor the control of the 
Department of Defense; rather, for much of what the Guard does, State 
Governors are in command. When the National Guard does act in Federal 
service, it does so as part of the Reserves of the Army or Air Force.
    Thus, the Chief of the National Guard Bureau does not command the 
National Guard acting in any of its three statuses. Rather, by Federal 
statute, the Chief of the National Guard Bureau acts as a principal 
adviser to the Secretary of Defense on all matters involving non-
federalized National Guard forces, and he also has the statutory duty 
to advise the Secretaries and the Chiefs of Staff of the Army and Air 
Force on all National Guard matters. A Department of Defense Directive 
further explicates the Chief of the National Guard Bureau's authorities 
and responsibilities, consistent with guidance provided by Congress.
    Finally, I will briefly provide some legal background on the Joint 
Chiefs of Staff. The Joint Chiefs of Staff serve as the senior military 
advisers to the President, the National Security Council, the Homeland 
Security Council, and the Secretary of Defense. The Joint Chiefs are 
currently composed of six statutory members: the Chairman and Vice 
Chairman of the Joint Chiefs and the Chiefs of the four Services. The 
Service Chiefs have a broad range of leadership and command 
responsibilities that extend throughout their respective Services, 
encompassing both the Active and Reserve components of the Service. 
Each of the Service Chiefs is the senior military officer of his 
respective Service.
    Against this backdrop, I turn to the proposed legislation, which 
would make the Chief of the National Guard Bureau a member of the Joint 
Chiefs of Staff. I understand that the Chief of the National Guard 
Bureau currently attends meetings of the Joint Chiefs. The purpose of 
the proposed legislation is thus to make the Chief of the Guard 
Bureau's attendance at Joint Chiefs meetings a statutory entitlement, 
with its attendant statutory authorities and responsibilities.
    There are no outright legal barriers to enacting this legislation. 
Nothing in the Constitution prohibits it, and the Joint Chiefs are a 
statutory creation. Congress can therefore change the membership of the 
Chiefs by statute if it so desires.
    I think it is important, however, that the committee is aware of 
some of the legislation's legal implications and complexities. Here I 
make two points.
    First, I note that the Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 struck many carefully crafted balances of 
both intraservice and interservice equities. The Chief of the National 
Guard Bureau represents only the Army and Air National Guards, and the 
proposed legislation would thus seem to me to alter some of Goldwater-
Nichols's careful balances by, for example: (a) altering the fact that 
each Service is statutorily represented by one Service Chief in the 
Joint Chiefs; and (b) providing only two of the Department of Defense's 
six statutory Reserve components with additional Joint Chiefs 
representation.
    Second, elevating the Chief of the National Guard Bureau to 
represent National Guard equities to the Joint Chiefs could create 
legal confusion as to whether the Army and Air Force Chiefs of Staff 
continue to represent their total force. Current law already requires 
the Chief of the National Guard Bureau to advise the Army and Air Force 
Chiefs of Staff on all National Guard matters.
    In closing, I would note that you have already received letters 
from the Chairman of the Joint Chiefs of Staff and the Service Chiefs 
that detail their concerns with the proposed legislation. Although 
Congress legally could make the proposed change, the much more 
important question would seem to be whether it should. With respect to 
this latter question, the Chairman of the Joint Chiefs of Staff, the 
Vice Chairman, and the Service Chiefs are far more conversant than I 
with respect to the operational and administrative consequences of 
adding the Chief of the National Guard Bureau to the Joint Chiefs. From 
my perspective, I only hope that any legislation does not add 
ambiguities with respect to authorities in the place where we can 
tolerate such ambiguity the least: at the top of the Service 
hierarchies, especially in time of war.
    I thank you again for the opportunity to appear here today, and I 
look forward to your questions.

    Chairman Levin. Thank you very much, Mr. Johnson.
    General Dempsey?

STATEMENT OF GEN MARTIN E. DEMPSEY, USA, CHAIRMAN OF THE JOINT 
                        CHIEFS OF STAFF

    General Dempsey. Thank you, Chairman Levin and Senator 
Inhofe.
    I want to point out before we begin, I appreciate the 
spirit of the family metaphor you used for this. I do want to 
make a point that as we have talked about this, Craig McKinley 
has been in the room in every instance. So everything we have 
done to try to talk about this among ourselves has been done 
with the CNGB present. I thank you for the opportunity to 
continue that discussion here with you today.
    I would also like to thank my colleagues at the table. We 
share a bond of trust with each other and with the Nation that 
will be sustained regardless of how we answer the question 
before us today.
    Let me be clear, I am both an admirer and an advocate for 
the National Guard. Our entire Reserve component makes an 
indispensable contribution to our national security.
    Throughout our Nation's history and certainly in the decade 
since September 11, we have depended on our citizen soldiers 
and airmen to help defend us, our allies, and our interests. At 
home and abroad, the National Guard serves with courage, 
discipline, skill, and distinction.
    I am proud to be the chairman of our total Joint Force--
Active and Reserves, civilian and families. I take seriously my 
responsibility to give voice to their achievements and to their 
needs. I ensure their voice, including the voice of the CNGB, 
is heard.
    This said, I join the Secretary of Defense and the Service 
Chiefs in counseling against making the Chief of the National 
Guard a statutory member of the JCS. There is no compelling 
military need to support this historic change. Two primary 
concerns lead me to this conclusion--representation and 
accountability.
    First, our success as a Joint Force is due in large measure 
to our ability to integrate the Active and Reserve components 
so that they are indistinguishable on the battlefield. I 
believe we have accomplished this because the Service Chiefs of 
the Army and Air Force are the single voice for their 
respective Services.
    With the Service Secretaries, they bear sole responsibility 
for making the key resource decisions that produce an 
organized, trained, and equipped force, and this includes the 
National Guard and Reserve components. The proposed change 
could undermine this unity of effort.
    Each of our Services has a Reserve component, but only the 
Army and the Air Force have a National Guard. This proposal 
will also create a situation among our Reserve component forces 
whereby two of the six, as Mr. Johnson mentioned, would be 
represented differently, creating what could at least be the 
perception of inequity.
    My second and more important concern, though, is one of 
accountability. Each of the Joint Chiefs is subject to the 
civilian oversight of a single appointed and confirmed 
Secretary. The CNGB has no such oversight.
    Elevation to the JCS would make him equal to the Service 
Chiefs without commensurate accountability. This seems to me to 
run counter to the carefully crafted organizational and 
advisory principles established by Goldwater-Nichols.
    I don't find the argument to change the composition of the 
JCS compelling. It is unclear to me what problem we are trying 
to solve. Here is what I do know with certainty. The CNGB has 
and will continue to attend meetings of the Joint Chiefs that I 
chair. I want and I need him in the tank.
    The Chief provides valuable insights and experience for 
matters of importance to the National Guard and, therefore, the 
Nation. This advice is also carefully considered when the Army 
and Air Force Chiefs make decisions that affect their Service. 
The CNGB has a voice, and it is heard.
    Over the last 10 years, the relationship between our Active 
and Reserve components has grown into a well-integrated 
fighting force. You really can't spot the difference between 
Active and Reserve component soldiers or airmen. We are and we 
will remain one force.
    Again, I would like to thank the committee for its 
continued support to all of our men and women in uniform, as 
well as their families, and I look forward to answering your 
questions.
    [The prepared statement of General Dempsey follows:]
            Prepared Statement by GEN Martin E. Dempsey, USA
    Chairman Levin, Ranking Member McCain, members of the committee, 
thank you for the opportunity to discuss the proposal to make the Chief 
of National Guard Bureau a statutory member of the Joint Chiefs of 
Staff. I would also like to thank my colleagues at the table. We share 
a bond of trust with each other and the Nation that will be sustained 
regardless of how today's question is answered.
    Let me be clear, I am both an admirer and an advocate for the 
National Guard. Our entire Reserve component makes an indispensable 
contribution to our national security. Throughout our Nation's history, 
and certainly in the decade since the September 11 attacks, we have 
depended on our citizen soldiers and airmen to help defend us, our 
allies, and our interests. At home and abroad, the National Guard 
serves with courage, discipline, skill, and distinction.
    I am proud to be their Chairman--the Chairman of our total Joint 
Force--Active and Reserves, civilian and families. I take seriously my 
responsibility to give voice to their achievements and needs. I ensure 
their voice--including the voice of the Chief of the National Guard 
Bureau--is heard.
    This said, I join the Secretary of Defense and the Service Chiefs 
in counseling against making the Chief of the National Guard Bureau a 
statutory member of the Joint Chiefs of Staff. There is no compelling 
military justification to support this historic change. Two primary 
concerns lead me to this conclusion--representation and accountability.
    First, our success as a Joint Force is due in large measure to our 
ability to integrate the Active and Reserve components--they are 
indistinguishable on the battlefield. I believe this is because the 
Service Chiefs of the Army and Air Force are the single voice for their 
respective branches. With the Service Secretaries, they bear sole 
responsibility for making the resource decisions that produce an 
organized, trained, and equipped force. This includes the National 
Guard and Reserve components. The proposed change could undermine this 
unity of effort. Each of our Services has a Reserve component but only 
the Army and Air Force have a National Guard. This proposal will also 
create a situation among our Reserve Forces whereby two of the six 
Reserve components would be represented differently creating at least a 
perception of inequity.
    My second and more important concern is one of accountability. Each 
of the Joint Chiefs is subject to the civilian oversight of a single 
appointed and confirmed Secretary. The CNGB has no such oversight. 
Elevation to the JCS would make him equal to the Service Chiefs without 
commensurate accountability. This proposal runs counter to the 
carefully crafted organizational and advisory principals established in 
the Goldwater-Nichols legislation.
    The argument to change the composition of the JCS is simply not 
compelling. It's uncertain to me what problem we're trying to solve.
    Here is what I do know with certainty. The Chief of the National 
Guard Bureau has and will continue to attend meetings of the Joint 
Chiefs that I chair. I want and need him in the Tank. The Chief 
provides valuable insight and experience for matters of importance to 
the National Guard and the Nation. This advice is also carefully 
considered when the Army and Air Force Chiefs make decisions that 
affect their service. The CNGB has a voice and it is heard.
    Over the last 10-years, the relationship between our Active and 
Reserve components has grown into a well integrated fighting force. You 
can't spot the difference between Active and Reserve component soldiers 
or airmen--we are and will remain one force.
    Again, I would like to thank the committee for its continued 
support to ALL our men and women in uniform, as well as their families. 
I look forward to answering your questions.

    Chairman Levin. Thank you very much, General Dempsey.
    Admiral Winnefeld?

STATEMENT OF ADM JAMES A. WINNEFELD JR., USN, VICE CHAIRMAN OF 
                   THE JOINT CHIEFS OF STAFF

    Admiral Winnefeld. Good morning, Mr. Chairman, Senator 
Inhofe, distinguished members of the Armed Services Committee. 
Thank you for the opportunity to appear before you today.
    Let me start by saying how much I honor and have a deep 
appreciation for the men and women of our Nation's entire 
Reserve component, including the fine citizen soldiers and 
airmen of our National Guard for their incredible contributions 
to our Nation's defense and security, as well as their 
considerable sacrifices both at home and abroad.
    There should be no doubt that I am a huge supporter of and 
believer in America's National Guard, and I have a personal 
connection to the Guard. Indeed, when I was nominated to be the 
commander of NORTHCOM and North American Aerospace Defense 
Command (NORAD), my first call was to my friend and soon-to-be 
partner, General Craig McKinley.
    While there, I worked very closely with my Guard partners 
and the Council of Governors to bring to life the dual-status 
commander concept. We migrated more chemical, biological, 
radiological, and nuclear response to the Guard while I was at 
NORTHCOM. With the help of the National Guard Bureau, we 
brought more guardsmen into the NORTHCOM headquarters, 
including doubling the number of National Guard flag officers 
in the headquarters.
    When I walked around my NORTHCOM and NORAD headquarters, I 
could not have told you who was a guardsman and who was not. I 
wouldn't want it any other way.
    Along the way, I have come to count many of the States' 
adjutants generals as my personal friends. It was not by chance 
that my first speaking engagement as Vice Chairman was at the 
National Guard Association of the United States annual 
conference this past August.
    During my time as Vice Chairman thus far, we have been 
successful in bringing the CNGB into more senior-level DOD 
forums. I have personally advocated for the expansion of the 
State Partnership Program, which I think is so important to our 
country.
    I fully advocate elevating the position of the Deputy CNGB 
to three-star rank and would happily support a future NORTHCOM 
commander being a guardsman, as well as key component 
commanders being guardsmen, though I do not believe the law 
should go any further than it already does in specifying which 
components hold which billets. I have put my money where my 
mouth is in support of the Guard, and they can count on my 
continued support.
    Nonetheless, and despite my support for this great 
institution, I am concerned about the pending National Guard 
Empowerment Act legislation regarding full membership of the 
CNGB on the JCS.
    The spirit of jointness kindled by the Goldwater-Nichols 
reform legislation is truly alive and has served our Nation 
well and reflects the wisdom of Congress. I do not believe it 
needs to be fixed, and we don't need to take a step backward in 
the unity of effort that that legislation did so much to 
promote.
    As General Dempsey said, the Service Chiefs who serve on 
the JCS have great responsibility for manning, training, and 
equipping both the Active and Reserve components of their 
Services. The CNGB, despite being my great friend and for whom 
I have great respect, does not have the same level of 
responsibility or command authority, and we should not send the 
signal that we have two different U.S. Armies or U.S. Air 
Forces.
    Second, while this legislation may send a very positive 
message to the terrific men and women of the Guard, I am 
concerned that it will send a negative message to the remaining 
46 percent of our Nation's Reserve component that they are 
somehow of lesser importance and that future decisions could be 
taken at their expense. I hear that from some members of the 
Title 10 Reserve components whom I have asked.
    Third, some may believe that this legislation would provide 
a tangible benefit by empowering the Guard with a vote on the 
JCS. Mr. Chairman, I would tell you there is no voting process 
on the Joint Chiefs. Instead, we all provide our best military 
advice to the Chairman, who then formulates his advice to the 
Secretary of Defense and to the President.
    We already receive fantastic military advice from General 
McKinley, who, as General Dempsey said, is always invited to 
that table, just as we do from the Commandant of the Coast 
Guard, who is also always invited to that table, although the 
Coast Guard is not asking for similar legislation.
    In the end, I am not sure what is broken and what we are 
fixing. But I also would assure you, as General Dempsey did, 
Mr. Chairman, I would assure the members of this committee--
because we are, indeed, a family--that my colleagues and I will 
do everything to prevent this issue from driving a wedge 
between our fantastic, capable, and brave National Guard and 
the rest of the U.S. military's fantastic, capable, and brave 
Active and Reserve components.
    I thank you again for the opportunity to appear this 
morning. Thanks again for your continued support and that of 
your staff for our men and women in uniform, and I look forward 
to your questions.
    [The prepared statement of Admiral Winnefeld follows:]
         Prepared Statement by ADM James A. Winnefeld, Jr., USN
    Mr. Chairman, Senator McCain, distinguished members of the Armed 
Services Committee, thank you for the opportunity to appear before you 
today.
    Let me say at the outset, I honor the men and women of our National 
Guard for their incredible contributions to our Nation's defense and 
security, both abroad and at home, there should be no doubt that I am a 
huge supporter of and believer in America's National Guard.
    When I was nominated to be the Commander of U.S. Northern Command 
(NORTHCOM) and North American Aerospace Defense Command, my first call 
was to my friend and partner, General Craig McKinley.
    While there, I worked closely with my Guard partners on bringing to 
life the Dual Status Commander concept, and migrating more chemical, 
biological, radiological and nuclear response capability into the 
Guard. With the help of the National Guard Bureau, we brought more 
guardsmen into the NORTHCOM headquarters, including, two additional 
general officers. When I walked around my NORTHCOM headquarters, I 
could not have told you who was a guardsman and who was on active duty, 
and I liked it that way.
    It was not by chance that my first speaking engagement as Vice 
Chairman was at the National Guard Association of the United States 
annual conference this past August. During my time as Vice Chairman, 
we've been successful in bringing the Chief of the National Guard 
Bureau into more senior-level DOD forums. I have advocated for 
expansion of the State Partnership Program. I fully advocate elevating 
the position of the Deputy Chief of the National Guard Bureau to three 
star rank, and would happily support a future commander of NORTHCOM and 
key NORTHCOM component commanders being guardsmen, though I do not 
believe the law should go any further than it does in specifying which 
components hold which billets.
    I have put my money where my mouth is on support for the Guard, and 
they can count on my continued support. Nonetheless, and despite all my 
support for this great institution, I am concerned about the pending 
National Guard Empowerment Act legislation provision regarding full 
membership of the Chief of the National Guard Bureau on the Joint 
Chiefs of Staff.
    The spirit of Jointness kindled by the Goldwater Nichols reform 
legislation is alive, and has served our Nation well. I do not believe 
it needs to be fixed. The Service Chiefs who serve on the Joint Chiefs 
of Staff (JCS) have great responsibility for manning, training, and 
equipping both the Active and Reserve components of their services. 
They also provide Title 10 military advice on strategy and the use of 
force to the Chairman, the Secretary and the President. The Chief of 
the National Guard Bureau does not have commensurate responsibility, 
nor should we send the corrosive signal that we have two different U.S. 
Armies and two U.S. Air Forces.
    Second, while the legislation may send a positive message to the 
terrific men and women in the Guard, I'm concerned that it will send a 
very negative message to the remaining 40-plus percent of our Nation's 
Reserve component that they are somehow of lesser importance, and that 
future decisions could be taken at their expense.
    Third, some may believe this legislation would provide a tangible 
benefit by empowering the Guard with a vote on the JCS. Mr. Chairman, 
there is no voting process on the Joint Chiefs. Instead, we all provide 
our best military advice to the Chairman, who then formulates his 
advice to the Secretary of Defense and to the President. We already 
receive fantastic military advice from General McKinley, who is always 
invited to that table, just as we do from the Commandant of the Coast 
Guard, who also is at the table. Yes, statutorily we have the right of 
dissent through the Chairman and Secretary to the President, but that 
is very, very seldom used.
    In the end, however this is resolved Mr. Chairman, I can assure the 
members of the committee that my colleagues and I will do everything we 
can to prevent this issue--despite having been elevated to this level--
from driving a wedge between our fantastic, capable, and brave National 
Guard and the rest of the U.S. military.
    Thank you for the opportunity to appear this morning, and I look 
forward to your questions.

    Chairman Levin. Admiral, thank you so much.
    General Odierno.

STATEMENT OF GEN RAYMOND T. ODIERNO, USA, CHIEF OF STAFF OF THE 
                              ARMY

    General Odierno. Thank you, Mr. Chairman, Senator Inhofe, 
other members of the committee. It is an honor to be here in 
front of you, as always, today.
    I have had the opportunity both in my current position, and 
in my previous positions to see firsthand the power and 
capabilities of the total Army. The performance, selfless 
service, and dedication of our Active component, our Army 
National Guard, and our Army Reserves all have contributed 
directly to our successes. I am proud and humbled that I am 
currently the Chief of Staff of the U.S. Army, the total Army.
    The Reserve component connects the Army to the American 
people. The Guard and Reserve soldiers that live and work in 
over 3,000 communities have shared the burdens of war, with 
over 900 killed in action and more than 7,500 wounded. They are 
a critical component of the Joint Force and connect us to Main 
Street America.
    We have built a strong relationship between all of our Army 
components, and I would argue probably the strongest we have 
ever had. It is our goal to sustain and increase this momentum 
as we move forward. But with all due respect to the CNGB, my 
good friend Greg McKinley, with whom I have the utmost respect 
for and have worked closely with on numerous critical issues, I 
am bound to communicate my explicit opposition to this post as 
a member of the JCS.
    First, representing only two of the six Reserve components, 
the Army National Guard and the Air National Guard, at the JCS 
level will create confusion, imbalance, and potentially 
challenge interoperability. It would run counter to 
intraservice and interservice integration and negatively impact 
the progress we have made toward jointness.
    Second, the proposed legislation would complicate the 
central principle of civilian control of our Nation's military. 
This proposal risks creating a bifurcated force--one focused 
internally, another focused abroad. It is important that we 
have clear authorities and responsibilities to ensure effective 
employment of the total force.
    Third, this could lead to divided or redundant force 
management, funding, modernization, and training and doctrine, 
creating a high level of complication and friction.
    The Reserve component forces will continue to play a 
critical role in our national security strategy, and the advice 
of the CNGB will always be, as it has been, extremely valuable 
and essential within the context of our total Army in a 
balanced joint portfolio. The integration of the regular Army, 
the Army National Guard, and the Army Reserves has proven over 
the last decade to be unbeatable on the battlefield and 
irreplaceable at home and abroad. Now, more than ever, we are 
truly one Army, and we cannot sacrifice the fact that we are 
truly one Army as we face many critical challenges ahead.
    Mr. Chairman, members of the committee, I thank you again 
for allowing me the opportunity to appear before you and for 
your support, and I look forward to your questions.
    Thank you very much, Mr. Chairman.
    [The prepared statement of General Odierno follows:]
           Prepared Statement by GEN Raymond T. Odierno, USA
    Thank you, Mr. Chairman, Senator McCain, and members of the 
committee.
    I have seen first-hand the power and capabilities of the Total 
Army. The performance, selfless service, and dedication of both the 
Army National Guard and the Army Reserves have contributed directly to 
our successes.
    The Reserve component connects the Army to the American people. The 
Guard and Reserve soldiers that live and work in over 3,000 communities 
have shared the burdens of war, with over 900 killed in action and more 
than 7,500 wounded. They are a critical component of our Joint Force 
and connect us to ``Main Street America.''
    We have built a strong relationship between all of our Army 
components; probably the strongest we have ever had. It is our goal to 
sustain and increase this momentum as we move forward.
    With all due respect to the Chief of National Guard Bureau--with 
whom I have worked closely on a variety of critical issues--I am bound 
to communicate my explicit opposition to this post as a member of the 
Joint Chiefs of Staff for several reasons.
    First, representing only two of the seven Reserve components--the 
Army National Guard and the Air National Guard--at the Joint Chiefs of 
Staff level, will create confusion, imbalance, and challenge 
interoperability. It would run counter to intra-service and inter-
service integration and negatively impact the progress we've made 
toward jointness.
    Second, the proposed legislation will complicate the central 
principle of civilian control of our Nation's military. This proposal 
risks creating a bifurcated force--one focused internally and another 
focused abroad. It is important that we have clear authorities and 
responsibilities to ensure effective employment of the Total Force.
    Third, this could lead to divided or redundant force management, 
funding, modernization, training, and doctrine creating a high level of 
complication and friction.
    The Reserve component forces will continue to play a critical role 
in our National Security Strategy and the advice of the Chief of the 
National Guard Bureau will always be--as it has been--extremely 
valuable and essential within the context of our Total Army in a 
balanced Joint Portfolio.
    The integration of the Regular Army, Army National Guard, and Army 
Reserves has proven--over the last decade--to be unbeatable on the 
battlefield and irreplaceable at home and abroad. Now, more than ever, 
we are truly one Army.
    Mr. Chairman, members of the committee, I thank you again for 
allowing me the opportunity to appear before you and for your support. 
I look forward to your questions.

    Chairman Levin. Thank you very much, General Odierno.
    Admiral Greenert.

  STATEMENT OF ADM JONATHAN W. GREENERT, USN, CHIEF OF NAVAL 
                           OPERATIONS

    Admiral Greenert. Thank you, Mr. Chairman.
    Chairman Levin, Senator Inhofe, members of the committee, 
thank you for the opportunity to comment on and to testify in 
the matter of including the CNGB as a member of the JCS.
    I fully support continued participation by the CNGB in 
Joint Chiefs deliberations, particularly regarding the issues 
that deal with or affect the National Guard. Our National Guard 
Chief, General McKinley, who we really do consider a brother in 
the tank, has made notable input and provided valuable 
contributions to issues of importance to those of us serving in 
the tank and DOD. I think this relationship should continue.
    However, in my opinion, making the CNGB a member of the JCS 
adds unnecessary complexity to the principle of unity of 
command. Unlike the Service Chiefs, the CNGB does not represent 
a branch of Service, nor is he responsible for organizing, 
manning, training, and equipping the National Guard to the 
extent of the Service Chiefs and their respective Services.
    Making the CNGB a member of the Joint Chiefs may also 
insert an ambiguity regarding the status of the Army National 
Guard and the Air National Guard as Reserve components of the 
Army and Air Force, respectively. This could create a 
perception that the National Guard is a separate service, and 
that perception could instigate an inequality sense among the 
National Guard and its Army, Marine Corps, Navy, and Air Force 
Reserve counterparts.
    I appreciate the committee's longstanding support for the 
men and women of the Navy, and I look forward to continue 
working with this committee as we address the challenges we 
face, both for the Nation and for our Navy.
    Thank you very much.
    [The prepared statement of Admiral Greenert follows:]
            Prepared Statement by ADM Jonathan Greenert, USN
    Thank you for the opportunity to comment on the matter of including 
the Chief of the National Guard Bureau (CNGB) as a member of the Joint 
Chiefs of Staff (JCS).
    Making the CNGB a member of the JCS adds unnecessary complexity to 
the principle of ``unity of command'', and could confuse the intended 
clear and unambiguous source of best military advice to the Secretary 
of Defense and President.
    In my opinion, the Service Chiefs (Army, Air Force, Navy, and 
Marine Corps) should continue to be held singularly accountable to the 
executive and legislative branches of government for the readiness and 
combat effectiveness of all personnel in their respective Services, and 
for the welfare of all their respective servicemembers and families. I 
believe they are best positioned to report to the President and 
Congress on their Services' readiness and preparation for military 
missions that support our national interests.
    After 10 years of war, the Guard and Reserve are more fully 
integrated with our Active component than ever before. Today's synergy 
of effort is outstanding and unprecedented. Making the CNGB a member of 
the JCS could create ambiguity in the chain of command and erode this 
momentum.
    This assessment is consistent with the Commission on the National 
Guard and Reserves Second Report to Congress--which recommended the 
CNGB not be made a member of the JCS.
    Making the CNGB a member of the JCS may insert ambiguity regarding 
the status of the Army and Air National Guard as Reserve components of 
the Army and Air Force and create the appearance the National Guard is 
a separate Service. This could also introduce an inequity between the 
National Guard and its Army, Marine Corps, Navy, and Air Force Reserve 
counterparts.
    I concur with the Chairman of the Joint Chiefs of Staff that the 
CNGB's advisory roles under 10 U.S.C. 1050(c) are essential and 
sufficient. The CNGB should continue to advise the Secretary of 
Defense, through the Chairman of the Joint Chiefs of Staff, on matters 
involving non-federalized National Guard forces and on other matters as 
determined by the Secretary of Defense. Additionally, I fully support 
continued CNGB participation in JCS deliberations that deal with issues 
that affect the National Guard, and to provide insight on National 
Guard concerns.
    I appreciate the committee's longstanding support of the men and 
women of the Navy. I look forward to continue working with the 
committee as we address the challenges we face as a nation and as a 
service.

    Chairman Levin. Thank you so much, Admiral.
    Next, General Amos.

STATEMENT OF GEN. JAMES F. AMOS, USMC, COMMANDANT OF THE MARINE 
                             CORPS

    General Amos. Chairman Levin, Senator Inhofe, fellow 
committee members, thank you for the opportunity to provide my 
advice on whether the CNGB should become a voting member of the 
JCS.
    In my view, there should be no change to the status quo. 
Let me first acknowledge my colleague, General Craig McKinley, 
the current CNGB, and the many men and women who have 
faithfully served in our States' National Guard units.
    They have served our Nation and their States well for many 
decades, for this and much more, we owe them our great debt of 
gratitude.
    By virtue of its limited role in DOD and its supporting 
role in Army and Air Force affairs, the CNGB lacks the 
requisite broad insight into all levels of strategic planning 
for JCS membership. Additionally, the CNGB's dual mission and 
State focus creates an unavoidable conflict of interest 
inconsistent with voting membership.
    In this sense, voting membership would introduce 
irrevocable State interest into an inherently Federal activity 
and process. CNGB membership in the JCS could complicate unity 
of command for both the Army and the U.S. Air Force.
    Congress intended the current structure ensures that the 
Service Chiefs are singularly accountable to the executive and 
legislative branches of the Government for the combat readiness 
of their respective Services, to include their Reserve 
components. I think it is critical that we safeguard this unity 
of command.
    Lastly, the Chiefs of Staff of the Army and the Air Force 
are best suited to advise on the most effective employment of 
their supporting elements. Under law, the National Guard has a 
supporting relationship with the Army and Air Force when 
federalized as their Reserve component.
    Providing JCS membership to the CNGB creates unnecessary 
leadership duplication in the JCS, contrary to Congress' 
longstanding policy. This duplication could unfairly amplify 
Army and Air Force concerns and create a representational 
imbalance prejudicial to the Reserve components other than the 
National Guard. The CNGB's advisory voice in the JCS is 
appropriate and adequate as it currently stands.
    Thank you for the opportunity to offer this statement, and 
I look forward to your questions.
    [The prepared statement of General Amos follows:]
             Prepared Statement by Gen. James F. Amos, USMC
    Thank you for the opportunity to address with you the important 
question of whether the Chief, National Guard Bureau (CNGB), should be 
a member of the Joint Chiefs of Staff (JCS). I cannot overstate the 
dedication and bravery of our Reserve Forces in the current fight. 
Because of their contributions and sacrifices, there is an 
understandable desire to extend to our Reserve Forces an appropriate 
level of recognition. While I would support almost any effort to 
provide such well-deserved recognition, I do not think that changing 
the national command structure is a necessary or appropriate tribute. 
In my view, the CNGB's current, limited supporting role is an 
appropriate one inasmuch as the CNGB lacks the overarching strategic 
insight necessary for JCS membership. I also believe that CNGB 
membership would create unnecessary duplication within the Department 
of Defense (DOD) and the JCS, complicate unity of command within the 
Army and Air Force, fragment the Reserve community, and create 
uncertainty with regard to National Guard leadership.
    Although the National Guard is without doubt a key player in 
today's conflicts, I believe the CNGB lacks the requisite insight into 
all levels of strategic planning by virtue of his limited role in DOD, 
and more specifically, Army and Air Force affairs. The JCS provides 
direct military advice to the President, the National Security Council, 
the Homeland Security Council, and the Secretary of Defense. In order 
for the JCS to carry out this duty, its members must be able to address 
the strategic direction of the Armed Forces. They must be capable of 
preparing strategic plans, to include plans which conform with resource 
levels; preparing joint logistic and mobility plans to support those 
strategic plans; performing net assessments to determine the 
capabilities of the Armed Forces; preparing contingency plans 
conforming to the guidance of the President and the Secretary of 
Defense; advising the Secretary on critical deficiencies and strengths 
in force capabilities (including manpower, logistic, and mobility 
support); establishing and maintaining a uniform system of evaluating 
the preparedness of each command to carry out missions; and providing 
advice concerning the extent to which the program recommendations and 
budget proposals of DOD conform with the priorities established in 
strategic plans and with the priorities established for the 
requirements of the unified and specified combatant commands. 
Additionally, JCS members provide advice concerning doctrine, training, 
and the education of the Armed Forces. The JCS' responsibilities 
therefore require a leadership structure that is wholly dedicated to 
the national defense, and thoroughly knowledgeable of the processes 
that resource and develop our defense strategies and the programs and 
resources required to develop and maintain responsive capabilities. The 
staffs of each Service Chief gain this detailed understanding through 
multi-layered integration with the joint staff and key DOD staffs. The 
integration of the staffs is a key enabler of success. The preparation 
of strategic and other plans outlined above therefore requires much 
more than the ability to cast a vote; it requires participation at 
every level and an undivided focus. With its dual mission, supporting 
role, and state focus, the CNGB is not structured for full 
participation in the roles set for the Chiefs in Title 10. Accordingly, 
I do not believe the CNGB has the currency or capability to assume the 
necessary level of engagement requisite for JCS membership.
    Additionally, contrary to Congressional policy, including the CNGB 
into the JCS would create unnecessary duplication within the JCS 
because the federalized National Guard, as the Army and Air Force's 
Reserve component, serves a supporting role. This duplication could 
result in an unfairly amplified representation of Army and Air Force 
concerns. It will also create a representational imbalance with regard 
to Reserve affairs in favor of the federalized National Guard. The Army 
and Air Force Chiefs of Staff are best suited to equitably advise on 
the most effective employment of their supporting elements.
    Moreover, providing full voting membership to the National Guard 
Bureau--an organization not primarily responsible for the planning and 
execution of national strategy--would not only be unprecedented; it 
would be an extraordinary ``solution'' to an unclear problem. When 
Congress established DOD, it codified a policy that called for 
eliminating unnecessary duplication in the DOD. Congress designed this 
policy, which exists in Title 10 today, in effort to seek more 
effective, efficient, and economical administration not only in the DOD 
but in the National command structure.
    The role of the National Guard, when executing a Federal mission, 
is to fold in with and execute missions in support of the Army and Air 
Force Chiefs of Staff. In preparation for these missions, and in 
recognition of its supporting role, the Guard is permitted to train 
with these Services and at their schools.
    For title 32, non-federalized National Guard matters, the CNGB 
serves as the principal advisor to the Secretary of Defense through the 
CJCS. In this title 32 capacity, no unnecessary duplication exists 
because the CNGB is uniquely situated to channel communications between 
the several States and the Secretary of Defense. Where Congress 
federalizes the National Guard, however, the CNGB serves as the 
principle advisor to the Secretary of the Army, the Army Chief of 
Staff, the Secretary of the Air Force, and the Air Force Chief of 
Staff. Due to the importance of this supporting role, the CNGB 
appropriately maintains an advisory voice within the JCS. This 
structure is intuitive; it reflects the manner in which Congress 
intended to use the federalized National Guard and Air National Guard 
as the Army's and Air Force's Reserve component.
    As noted in the recent JCS letter to this committee, CNGB 
membership in the JCS would also complicate unity of command for both 
the Army and the Air Force and contribute to Service balkanization. The 
current organizational structure ensures that the Chiefs of Staff of 
the U.S. Army and the U.S. Air Force are held singularly accountable to 
the executive and legislative branches of Government for the readiness 
and combat effectiveness of their respective Services, including their 
Reserves. This is as it should be, and this is what Congress intended 
when it created the existing structure. Unity of purpose and of command 
is crucial in both the preparation and employment phases of the Armed 
Forces. When it comes to making decisions for the defense of the Nation 
and the preparations necessary for the achievement of its national 
objectives, success requires single-mindedness.
    Also as noted in the JCS letters to this committee, elevating the 
role of the CNGB would further segment one community of reservists--a 
community that is already challenged with executing its dual mission. 
When the National Guard is federalized, the command relationship 
between the CNGB and the Army Chief of Staff and the Air Force Chief of 
Staff mirrors the Navy and Marine Corps' unified command relationship 
for their Reserve components. Marine Forces Reserve, for example, as 
the Reserve component for the Marine Corps, is organized, trained, and 
equipped under the Commandant of the Marine Corps. This Service 
identification and matriculation enhances unity of command and the 
cohesion of combat units. In my interactions with Marine reservists, 
I've noted their pride and motivation in simply continuing their 
service to the Nation as marines. I applaud the lack of cultural 
distinction between Active Duty and Reserve marines, and I am confident 
that this same motivation also drives reservists in other Services to 
step forward. The proposed elevation of the CNGB risks fracturing the 
successful dynamic that our forces have achieved by diluting the 
understanding of the supporting and supported command relationships, 
and unbalancing the appropriate preparation of our Active and Reserve 
Forces.
    Lastly, I believe that CNGB membership on the JCS could create an 
unhealthy ambiguity in the responsibility for leading the men and women 
of the National Guard. As a Service Chief, I fully subscribe to the 
notion that I am singularly accountable for the welfare of all marines 
and their families, Active and Reserve. As Commandant of the Marine 
Corps, I have the same responsibility to the Marine Forces Reserve as I 
do to the regular forces.
    The missions for which all marines are trained and equipped is 
unified with the command structure that leads them. The families that 
decide to stay with the Corps know whose job it is to ensure their best 
care: it is mine. Bifurcating leadership, however, might lead to 
critical leadership gaps recognizable only after some future failure 
occurs. Most concerning, these gaps could affect the responsibility of 
caring for these troops and their families. For the sake of our 
reservists and their families, we cannot afford such a risk.

    Chairman Levin. Thank you, General Amos.
    General Schwartz.

 STATEMENT OF GEN. NORTON A. SCHWARTZ, USAF, CHIEF OF STAFF OF 
                         THE AIR FORCE

    General Schwartz. Mr. Chairman, Senator Inhofe, and members 
of the committee, I am grateful for the opportunity to offer my 
views today.
    On behalf of the men and women of the U.S. Air Force, I 
thank you for your ongoing support of our servicemembers and, 
importantly, their families.
    I join my colleagues in definitively stating that the CNGB 
is a very important senior leader under our total force 
construct. Through his role in advising the Secretary of the 
Air Force directly and the Secretary of Defense through the 
Chairman of the JCS, the National Guard Bureau Chief is a daily 
contributor to many of the consequential decisions that are 
made by the total force leadership.
    Title 10 of the U.S. Code provides the Bureau Chief's 
advisory role and preserves unified service leadership. This 
advisory role and the Bureau Chief's relationship to each 
Service continues to be important and is currently appropriate 
in the performance of organizing, training, and equipping 
functions for which the Service Secretaries and the Service 
Chiefs are singularly responsible.
    But because the National Guard Bureau Chief does not 
represent a single or separate branch of Service, making him or 
her a statutory member of the Joint Chiefs would reach beyond 
the appropriate role for the Bureau Chief. Because the Bureau 
Chief's advisory role to the Service Secretaries and Chiefs is 
for all National Guard matters, including notably those that 
are related to the Federal service of the National Guard, 
providing statutory Joint Chiefs membership to the National 
Guard Bureau Chief would disrupt the lines of authority and 
representation that are already in place for the Chiefs of the 
Army and the Air Force. Therefore, the current arrangement 
should not be altered.
    The Joint Chiefs exist in large part to provide military 
advice on the employment of Federal forces. Total force 
employment considerations are best served by those who possess 
supervisory and moral authority over fielded forces; who 
organize, train, and equip personnel of all components of each 
Service; and who are responsible as force providers to the 
combatant commanders.
    Consequently, the National Guard Bureau Chief's membership 
on the Joint Chiefs presents issues concerning his or her 
appropriate role in offering advice on the employment of the 
Armed Forces in a designated title 10 role. Moreover, beyond 
the established relationships among the military services, 
interactions with the interagency and international partners 
also could be confused.
    Existing law and policy provide appropriate roles and 
requirements for the CNGB. His or her authorities, augmented by 
the JCS Chairman's standing invitation to the Bureau Chief to 
attend meetings of the Joint Chiefs, ensure that the Chief of 
the Bureau will continue to have a strong voice and will remain 
an essential and a highly valued partner for any Air Force 
Chief of Staff or Joint Chiefs team.
    But for the foregoing reasons, the CNGB should not be 
included as a statutory full voting member of the JCS 
independent of service leadership.
    Mr. Chairman, Senator Inhofe, and members of the committee, 
I thank you for your time. We look forward to your questions.
    If I may, sir, I would like to publicly recognize and state 
our admiration and respect for our teammates from the U.S. 
Marine Corps, who celebrate their 236th birthday today.
    Thank you, sir.
    [The prepared statement of General Schwartz follows:]
          Prepared Statement by Gen. Norton A. Schwartz, USAF
    The Chief of the National Guard Bureau (CNGB) is a very important 
senior leader in our Total Force construct, and through his role in 
advising the secretaries of the Air Force and the Army directly, and 
the Secretary of Defense (SECDEF) through the Chairman of the Joint 
Chiefs of Staff (CJCS). CNGB is a daily contributor to many of the 
consequential decisions that are made by the Total Force leadership.
    Title 10 of the U.S. Code (10 U.S.C. Sec.  10502(c)) provides for 
CNGB's principal advisory role, through CJCS, to SECDEF for matters 
involving non-federalized National Guard forces. By contrast, his 
advisory role to the Service Secretaries and Chiefs is for all National 
Guard matters--notably, including those that are related to the Federal 
service of the National Guard. Providing statutory JCS membership to 
CNGB will blur this crucial distinction.
    The CNGB relationship to each service is important and currently 
sufficient in the performance of the organizing, training, and 
equipping functions for which the Service Secretaries and Chiefs are 
singularly responsible. But because CNGB does not represent a single or 
separate branch of Service, making CNGB a statutory member of the Joint 
Chiefs of Staff (JCS) would reach beyond the appropriate CNGB role and 
disrupt the lines of authority and representation that are already in 
place for the Chiefs of Staff of the U.S. Army and Air Force. This 
current effective arrangement should not be altered.
    The Joint Chiefs of Staff exists, in large part, to provide 
military advice on employment of Federal forces. Total Force employment 
considerations are best served by those who possess supervisory and 
moral authority over field units; who organize, train, and equip 
personnel of all components of each Service; and who are responsible as 
force providers to the combatant commands. Consequently, CNGB 
membership on the JCS presents issues concerning his or her appropriate 
role in offering advice on employment of the Armed Forces in a 
designated title 10 role. Moreover, beyond the established 
relationships among the Military Services, interactions with 
interagency and international partners also could be confused.
    Existing law and policy provide appropriate roles and requirements 
of CNGB and the National Guard Bureau. The authorities of CNGB, 
augmented by CJCS's standing invitation for CNGB to attend all JCS 
meetings, ensure that CNGB will continue to have a strong voice, and 
will remain an essential and highly valued partner for any Air Force 
Chief of Staff and the Joint Chiefs. But, for the reasons above, CNGB 
should not be included as a statutory member of the Joint Chiefs of 
Staff, independent of service leadership.

    Chairman Levin. Happy birthday, General Amos. [Laughter.]
    General Amos. Thank you, sir. I appreciate it.
    Chairman Levin. Didn't know you were that old, but----
[Laughter.]
    General Amos. Thank you.
    Chairman Levin. Yes. We congratulate you and all the 
marines.
    Thank you, General Schwartz.
    General McKinley?

  STATEMENT OF GEN. CRAIG R. McKINLEY, USAF, CHIEF, NATIONAL 
                          GUARD BUREAU

    General McKinley. Good morning, Mr. Chairman.
    Let me take a point of personal pride in thanking you for 
co-hosting a Public Broadcasting Service special that will be 
seen tonight, ``Where Soldiers Come From,'' honoring eight of 
your soldiers from the upper peninsula of Michigan.
    Senator Inhofe, thanks for your support of the 45th. Your 
relationship with your Oklahoma National Guard is one to be 
emulated, as all the other members of this great committee.
    All the distinguished members of this committee, it is an 
honor to be sitting before you today to provide my opening 
comments on the matter at hand.
    I admire all the Service Chiefs, the Vice Chairman, and the 
Chairman very, very much. I can tell you that our relationship 
will not be broken by the testimony given here today, and I 
thank them for the honor of letting me be part of this dais 
today.
    Mr. Chairman, for me to be here today to provide my 
personal views on whether the CNGB should be a member of the 
JCS, I am sitting here believing now in the 21st century, after 
3 years in the job as CNGB and 11 total years serving in the 
Pentagon, that it is now in the best interests of the American 
people for the CNGB to be made a full member of the JCS.
    While the 2008 National Defense Authorization Act (NDAA) 
and resulting DOD initiatives made important fundamental 
changes in the role of the CNGB and the Bureau, only full JCS 
membership for the CNGB will ensure that the responsibilities 
and capabilities of the non-federalized National Guard are 
considered in a planned and deliberate manner that is not based 
upon ad hoc or personal relationships but is, instead, firmly 
rooted in the law and the national strategy.
    The domestic mission of the National Guard must be taken 
into account when making military contingency plans, when 
allocating scarce readiness resources, and when advising the 
President, the Secretary of Defense, the National Security 
Council, and the Homeland Security Council on strategies and 
contingency response options. Homeland defense and civil 
support must be at the core of our National strategy due to the 
changing threat environment, one that is asymmetrical and more 
dangerous within our homeland than at any time in our history.
    It is for those reasons now that I now believe that the 
CNGB should be a member of the JCS. Our Nation's military 
planning and resourcing would be vastly improved, in my 
opinion, more comprehensive, more effective, and more 
efficient.
    I do not personally support a change in the Title 10 
relationships among the Services and the Army and the Air 
Guard, nor do I support the National Guard becoming a separate 
service. We in the National Guard are all very proud members of 
the U.S. Army and the U.S. Air Force.
    The issue at hand, in my opinion, does not in any way 
impact unity of command, which will remain unchanged; or 
fragment the Reserve component, as only the National Guard has 
a dual Federal/State mission; or create uncertainty, in my 
opinion, with respect to National Guard leadership, which 
clearly resides in our Governors and adjutants general when the 
Guard is non-federalized and with the Federal commanders when 
it is.
    Nor does it increase the risk, in my opinion, of over-
representation of any Service at the highest levels of our 
military. Rather, this would add to the JCS in an enduring 
manner the expertise and knowledge of the CNGB as it pertains 
to the National Guard in its non-federalized role in the 
defense and safety of the homeland.
    Indeed, the CNGB, who is a Title 10 officer under the law, 
and the DOD directive pertaining to the National Guard should 
be counted on as the Federal officer best postured to advise 
the JCS and their clients on the capabilities of the non-
Federal National Guard.
    I have read the letters of the Service Chiefs submitted to 
your committee, and I provided the Chairman of the JCS a copy 
of this DOD directive on Monday. These letters and other 
comments focus, whether directly or indirectly, primarily on 
five discrete themes: budget authority; the CNGB's statutory 
advisory role as it currently exists, that it is sufficient; 
that the National Guard could become a separate service or will 
be somehow advantaged over the other Reserve components; 
maintaining Title 10 command authority; and, finally, civilian 
oversight.
    In the area of budget authority, the CNGB plans, programs, 
and administers the budgets of the Army and Air National Guard, 
and I am directly responsible for nearly $28 billion annually. 
I am the appropriation sponsor for the Army National Guard 
Military Personnel Account, Operation and Maintenance (O&M), 
Military Construction (MILCON), and the Air National Guard 
Military Personnel Account, O&M, and MILCON.
    By law, the CNGB is responsible for the entire planning, 
budgeting execution, and accounting of these appropriations. 
The CNGB competes for, defends, and validates the requirements 
for the above appropriation and submits budget materials 
through the Services to DOD.
    The CNGB is required to provide an annual financial report 
to Congress that states how the specific National Guard 
appropriations funding was spent.
    In my regard as a statutory adviser, there is sufficient 
and significant difference between the CNGB's principal adviser 
authorities and the JCS members' military adviser authorities. 
The JCS members advise the President, National Security Council 
(NSC), Homeland Security Council, and the Secretary of Defense. 
The JCS members may also submit advice or an opinion, in 
addition to the advice presented by the Chairman.
    Additionally, the President, NSC, Homeland Security 
Council, and Secretary of Defense may request advice directly 
from the JCS members, and JCS members may make recommendations 
to Congress after first informing the Secretary of Defense. In 
contrast, the CNGB advises the Secretary of Defense through the 
CJCS on matters involving non-federalized National Guard 
forces.
    The CNGB must declare an interest in order to have a voice 
on these limited matters. Without statutory JCS membership, the 
CNGB's role in the JCS is ad hoc, as determined by each 
successive Chairman.
    In regards to separate service or advantage over other 
Reserve components, the National Guard is unique, thanks to 
Article 1, section 8, clauses 15 and 16 of the U.S. 
Constitution and title 32 of the U.S. Code. It is unlike the 
other Reserve components, which can perform title 10 duties 
under title 10 command authority.
    The National Guard performs the same title 10 duties when 
federalized, plus diverse non-Federal duties and State duties 
under State command authority. The command chains are 
unambiguous. The other Reserve components have no analogy to 
the National Guard's non-federalized duties and command 
authorities.
    The non-Federal National Guard's missions include, but are 
not limited to, air defense, ballistic missile defense, weapons 
of mass destruction response, disaster response, counterdrug 
support, border security, airport security, and national 
special security events.
    In regard to unclear title 10 command authority, the issue 
discussed today, in my opinion, would not alter title 10 
command authorities or accountability over federalized National 
Guard forces. There would be no change to the title 10 
authorities of the Service Secretaries or the Service Chiefs. 
Conversely, they would take on no new title 32 
responsibilities.
    The CNGB is not, nor would he be, within the title 10 chain 
of command for Title 10 National Guard forces. When 
federalized, National Guard forces are and will remain under 
the command of Federal commanders.
    Total force integration would not be compromised. If 
anything, it would be enhanced by greater situational awareness 
of Title 32 National Guard missions, capabilities, and 
leadership on which the CNGB is uniquely qualified to advise. 
Total force integration would also benefit from enhanced 
understanding of the homeland defense and civil support 
missions that are performed by non-federalized National Guard 
forces.
    In regards to civilian oversight, since 2008, under the 
provisions of the DOD directive, the CNGB is under the 
authority, the direction, and control of the Secretary of 
Defense. The Secretary normally exercises authority, direction, 
and control through the Secretaries of the Army and of the Air 
Force for matters pertaining to their responsibilities in law 
or DOD policy.
    To conclude, much has changed since 2008. The National 
Guard Bureau is now a joint activity of DOD, and the CNGB has 
enhanced authorities short of JCS membership, and for those, we 
are very appreciative.
    Yet the CNGB still does not have an institutional position 
from which I can advise the President, the NSC, the Homeland 
Security Council, and Congress on non-federalized National 
Guard forces that are critical to homeland defense and civil 
support missions.
    Adding the CNGB to the JCS, in my opinion, would ensure 
that in the post-September 11 security environment the National 
Guard's non-federalized role in homeland defense and civil 
support missions will be fully represented in all JCS 
deliberations. This would not detract, in my opinion, in any 
way from its other critical JCS functions.
    Without statutory membership on the JCS, the CNGB's ability 
to participate in deliberations is determined solely by the 
discretion of the Chairman. I believe this role should be 
established in law. This view is also fully shared by former 
assistant Secretary of Defense for Homeland Security Paul 
McHale, who has consented to let me inform you that he, like 
me, did not have this opinion several years ago, but now agrees 
that the CNGB should be made a full member of the JCS.
    In my role as the channel of communication for the States, 
the territories of Guam, Virgin Islands, and Puerto Rico, and 
the District of Columbia, I would be remiss without speaking on 
behalf of the 54 adjutants general. In a letter I would like to 
submit for the record, Mr. Chairman, the adjutants general have 
provided their unqualified support for placing the CNGB on the 
JCS.
    I appreciate very much again sitting with these 
distinguished gentlemen on this dais and the opportunity to 
discuss this issue with you today, and I look forward to your 
questions.
    [The prepared statement of General McKinley follows:]
           Prepared Statement by Gen. Craig R. McKinley, USAF
                            opening remarks
    Chairman Levin, Ranking Member McCain, distinguished members of the 
committee; I am honored to appear before you today, representing 
465,000 citizen-soldiers and airmen in the Army and Air National Guard, 
an organization that is historically part of the foundation of our 
great democracy. America's National Guard remains ready, reliable, and 
accessible. As members of an operational force, regularly used by the 
President and State Governors, the soldiers and airmen of the National 
Guard contribute daily to our Nation's overseas and domestic security 
objectives. I thank you for the opportunity to discuss the possibility 
of making the Chief, National Guard Bureau (CNGB) a statutory member of 
the Joint Chiefs of Staff (JCS). I would like to address some of the 
issues surrounding this debate.
               the national guard as a reserve component
    The National Guard of the United States is by statute a Reserve 
component of the U.S. Army and Air Force, and representation on the JCS 
would not degrade that relationship. We are very proud of our history 
with and lineage to the U.S. Army and Air Force. Never have we 
contemplated abandoning our historical ties, and suggestions that 
adding the CNGB as a JCS member would create a separate military 
service are divisive and unfounded. Pride in our Service affiliations 
is a core competency of the National Guard. The Secretaries of the Army 
and the Air Force would continue to prescribe the training of the 
National Guard, procure its equipment, and validate its requirements. 
The Directors of the Army and Air National Guard would continue to 
participate in planning and budgeting meetings as representatives of 
the Reserve components of those Services.
            the national guard and the secretary of defense
    Statutorily, the CNGB is a principal advisor to the Secretary of 
Defense through the Chairman of the JCS on matters involving non-
federalized National Guard matters that are not under the authority and 
direction of the Secretaries or the Chiefs of Staff of the Army and the 
Air Force. As the ``channel of communications,'' the CNGB is the most 
current and knowledgeable source of information within the Federal 
Government about the National Guard in its non Title 10 roles, and is 
thus the best single source of advice for leaders about unique Guard-
related matters, particularly those which are critical to homeland 
defense.
                   unique role of the national guard
    Two unique roles that stand out are the CNGB's expertise in the 
National Guard's employment and deployment for domestic purposes, and 
experience in the vitally important interagency collaboration needed 
for domestic response in the homeland. Indeed, roughly 70 percent of 
the Department of Defense's (DOD) response to Weapons of Mass 
Destruction is comprised of National Guard forces. Threats faced by the 
United States have significantly grown since the 1990s, especially in 
the decade since September 11 when America herself became a 
battleground. Domestic response in the homeland is a matter of national 
security with international ramifications. In light of these changes, 
the duties of the JCS were adjusted; in 2006, providing military advice 
to the Homeland Security Council was added to the JCS statutory 
responsibilities. The CNGB is uniquely positioned to both provide 
situational awareness of State and Federal military forces operating in 
unity of effort in the homeland and to ensure that resourcing decisions 
fully consider the domestic mission. Adding CNGB as a full member of 
the JCS would be the next logical step to improve the Joint Chiefs' 
ability to provide the best possible military advice to civilian 
leaders.
    The CNGB's advice and opinion are also uniquely relevant because 
DOD policy charges CNGB with responsibility to ``facilitate and 
deconflict the use of National Guard forces among the States to ensure 
that adequate and balance forces are available and responsive for 
domestic and foreign military operations, consistent with national 
security objectives and priorities.'' Whereas the Service Chiefs 
provide definitive advice as to the capabilities of their Federal 
Reserve component to perform foreign military operations and domestic 
title 10 missions, only the CNGB can speak with authority on the 
strategic balancing required to ensure that the National Guard forces 
of 54 States and territories have the capability to perform their 
Federal missions and their domestic title 32 and State missions.
                         national guard budget
    Under U.S. Code, title 10, chapter 1011, which establishes the 
National Guard Bureau, the Secretary of Defense-approved charter (DOD 
Directive 5105.77) specifies CNGB's functions and responsibilities, 
both as identified in the statute and others. Relative to National 
Guard budgets and capabilities, the DOD Directive indicates the CNGB 
shall:

    (a)  Plan, program, and administer the budget of the Army National 
Guard of the United States and the Air National Guard of the United 
States. The CNGB is directly responsible for nearly $25 billion 
annually, and is the appropriation sponsor for National Guard Military 
Personnel, Operations and Maintenance, Military Construction, and 
Procurement (via National Guard and Reserve Equipment Appropriation), 
and thus responsible for producing a President's budget submission to 
Congress for these appropriations.
    (b)  Supervise the acquisition and supply of Federal property 
through the U.S. Property and Fiscal Officers (USPFO) appointed under 
section 708 of title 32, U.S. Code. The USPFO's work directly for the 
CNGB and provide the Federal oversight and accountability of Federal 
funds and property issued to the States, Territories, and District of 
Columbia, to ensure compliance with the Purpose and Anti-Deficiency 
Acts as well as with diverse DOD directives and regulations.

    Although the CNGB has clearly delineated budgetary authority, this 
authority and responsibility are not necessary to perform JCS members' 
statutory duties, which include providing military advice to the 
President, the National Security Council, the Homeland Security 
Counsel, and the Secretary of Defense. This advisory role is separate 
and distinct from the role they fulfill in leading and administering 
their respective Services, whose budgets are ultimately the 
responsibility of the Service Secretaries. Duty as a Joint Chief is 
additive to, and not a function of, Service responsibilities.
                            similar examples
    Considering the example of the Navy and Marine Corps Chiefs both 
being members of JCS contradict any contention as to a separate Service 
being divisive, or a Service having authority without accountability. 
The Marine Corps is part of the Department of the Navy and their budget 
request to Congress is included inside the Navy request. Yet no one 
would argue that the marines are hindered by this construct in being 
able to articulate their requirements or deliver their unique 
capabilities. The CNGB has a similar departmental-level role, and, as 
outlined above, also possesses significant budget authorities and 
responsibilities.
                            closing remarks
    Thank you for the opportunity to be here today, I look forward to 
your questions.

    Chairman Levin. Thank you very much, General McKinley.
    That letter will be made part of the record, as will a 
statement of Senator Rockefeller, who has also asked that his 
statement be made part of the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    [The prepared statement of Senator Rockefeller follows:]
          Prepared Statement by Senator John D. Rockefeller IV
    Chairman Levin, Senator McCain, members of the committee, thank you 
for holding this hearing on whether the Chief of the National Guard 
Bureau should be a member of the Joint Chiefs of Staff. Thanks to all 
of the Chiefs of our Armed Forces--both Active Duty and Reserve--for 
being here today. There is no question--as a matter of both principle 
and of national security--that the Chief of the National Guard Bureau 
should be elevated to the Joint Chiefs of Staff. The Guardians of 
Freedom Act, which passed overwhelmingly in the House of 
Representatives on May 25, would accomplish this goal. I hope that 
today's hearing will lead to swift action on this important 
legislation, and I look forward to the testimony of each of the 
witnesses.
    It is important to acknowledge that the role of the National Guard 
has evolved over the last 10 years. Since September 11, National 
Guardsmen have mobilized more than 700,000 times to support overseas 
and domestic missions. They have played an essential role in the 
conflicts in both Afghanistan and Iraq and are a critical Operational 
Reserve for our Armed Forces. Today's National Guard accounts for more 
than 460,000 servicemembers from every State in the Union--roughly 25 
percent of all of our 1.9 million-member force.
    The Guard has also become an essential part of our Nation's 
response to both man-made and natural disasters. This August, when 
Hurricane Irene slammed the East Coast, the National Guard responded by 
calling up over 11,000 soldiers and airmen from 24 States to coordinate 
the relief efforts. Our Guard is being trained to respond to chemical, 
biological, nuclear and radiological attacks. It is being trained to 
deal with pandemics. It is asked to be the first on the scene after 
major earthquakes, snowstorms, and hurricanes. These Homeland defense 
responsibilities will continue to increase, as well.
    The National Guard also brings capabilities and efficiencies to the 
table that we need in these tough economic times. For example, the Air 
National Guard provides 35 percent of the total Air Force capability 
for 7 percent of the cost. The Army National Guard provides 40 percent 
of the Army's capability for just 11 percent of the Army budget. 
Together, 464,900 members of the National Guard provide a capable, 
operational and affordable military force--at just 6 percent of the 
Pentagon's annual budget.
    The absence of the National Guard from the Joint Chiefs of Staff 
has very real consequences. Full membership of the National Guard in 
the Joint Chiefs could have better prepared the marines' response to 
the 1992 riots in Los Angeles, our Nation's initial response to the 
September 11 attacks, or our response to Hurricane Katrina.
    In October 2005, the Government Accountability Office called into 
question the Army National Guard's ability to carry out its domestic 
mission. Then, just like now, there is no permanent system in place to 
replenish necessary equipment once it is removed from Guard units in 
individual States. The Pentagon has required National Guard units to 
leave behind critical equipment in Iraq and Afghanistan. A drastic 
shortfall in equipment levels has led to a drop in mission readiness. 
As a result, the Guard's ability to respond to domestic emergencies has 
been severely inhibited. I find it hard to believe this would be the 
case if the Guard had a seat at the Joint Chiefs of Staff.
    With no seat at the table, the National Guard Chief must rely 
solely on active duty military leaders to make funding decisions. Under 
the circumstances, General McKinley can do nothing to stop the Joint 
Chiefs if they put recommend cutting a key program or ignore an 
opportunity to maintain critical operational capability.
    In many ways, the Guard has earned the right to be in the room. 
Today, the Chief of the National Guard Bureau wears four stars. He 
attends regular Joint Chiefs meetings. While I understand that General 
McKinley enjoys a good relationship with Chairman Dempsey, 
personalities can't be everything. Now, it's time to give the National 
Guard a seat at the table. We need to make sure the National Guard has 
the voice it needs--not just to protect its capability, but because of 
its increasingly active role in overseas operations, because of its 
role in homeland security initiatives, and because of the cost 
efficiencies it can offer in these turbulent economic times.
    Ultimately, I understand that change is hard. Some may argue that 
these changes are not necessary. Some may argue that the National Guard 
does not deserve a seat at the table, that the National Guard is well-
represented on the Joint Chiefs of Staff, or that the National Guard 
has the resources it needs.
    Critics may say that elevating the National Guard would provide a 
``second voice'' to the Army and Air Force. That is wrong. The National 
Guard's participation would be no different than that of the Marine 
Corps, which is both part of the Navy and has its own seat on the Joint 
Chiefs of Staff. Today, as we all know, the Commandant is a valued 
member of the Joint Chiefs of Staff, and no one would argue that his 
advice over the last 30 years has not been valuable.
    Some may counter that elevating the National Guard could muddy the 
Guard's dual commitments to member States and the Federal Government. 
In reality, it would not alter lines of authority, but better enable 
the Guard to provide unfiltered advice on its capabilities and 
resources. The Guard wouldn't just have its domestic responsibilities--
it would have the capabilities, clout, and access to do them better.
    Critics may also say that the Chief of the National Guard Bureau 
has no budgetary authority, but that argument is misleading. The role 
of the Joint Chiefs is to provide sound, useful advice to the 
President. In fact, the perspective of the Chief of the National Guard 
Bureau could save our country billions of dollars. Earlier this year, 
for example, the Air National Guard Bureau offered a proposal that 
would have saved up to $42 billion. Unfortunately, the Air Force 
dismissed it almost immediately--likely, I've been told, for turf 
reasons. That would not have happened had the Chief of the National 
Guard Bureau been able to make his case, offer his perspective, and 
share his expertise with our planners at the Pentagon. The National 
Guard can help the Pentagon cut costs without cutting capabilities--but 
only if it is an equal partner in the decision-making process.
    Some may argue that a seat on the Joint Chiefs of Staff would give 
the National Guard too much influence at the Active-Duty components' 
expense. But we know better than that. Look at the size of the 
Services' congressional liaison staff, the military fellows in our 
offices and the attaches in the halls--or even the number of Senators, 
including many on this Committee, who are former Active-Duty 
servicemembers. An enhanced role for the National Guard would not 
diminish the Active-Duty Services' clout among lawmakers.
    Now is the time to give the National Guard the voice it needs on 
the Joint Chiefs of Staff and to give the President a broader 
perspective of the capabilities and resources at his disposal. Now is 
the time to use all of the tools in our arsenal to create a more secure 
Homeland.
    Mr. Chairman, Senator McCain, members of the committee--thank you 
for holding this hearing. I look forward to swift passage of the 
Guardians of Freedom Act. Thank you to my good friend, Senator Leahy, 
for his leadership on this important issue.
    We have given the National Guard the right to be in the room. Now, 
let's give them a seat at the table.
    Thank you.

    Chairman Levin. Let us have a 6-minute first round for 
questioning here so we can perhaps all get a round in--there 
are a lot of us here--before the votes, and then if we need a 
second round, we can take that.
    Mr. Johnson, let me ask you first about a statement in your 
prepared statement where you say that the proposed legislation 
would alter some of the Goldwater-Nichols careful balances by 
altering the fact that each Service is statutorily represented 
by one Service Chief in the Joint Chiefs and providing only two 
of DOD's six statutory Reserve components with additional Joint 
Chiefs' representation.
    Now, you also said that elevating the CNGB to represent 
National Guard equities to the JCS, in your words, could create 
legal confusion as to whether the Army and Air Force Chiefs of 
Staff continue to represent their total force. Now, can you 
tell us what potential legal confusion could result that you 
are referring to?
    Mr. Johnson. 10 U.S.C. 10502 spells out the role of the 
National Guard Bureau and the CNGB. The CNGB, in his advisory 
capacity, has principally two functions. One is to advise the 
Secretary of Defense through the Chairman on matters involving 
non-federalized Guard. The second component of that is to be 
the adviser to the Service leadership of the Army and the Air 
Force on matters concerning the Federal Guard.
    The way this statute breaks it out, 10 U.S.C. 10502, when 
we are talking about the Guard in Federal status, the law 
contemplates that the CNGB will represent those interests to 
the Service leadership and to the Chiefs of Staff of the Army 
and the Air Force. But when we are talking about the State 
Guard and the State Guard role, the CNGB advises the Secretary 
of Defense.
    This legislation that you have before you will not change 
any of that. So, if the CNGB is now also a member of the Joint 
Chiefs, he is, on the one hand, an adviser to General Schwartz 
and General Odierno on matters concerning the Federal Guard, 
but he also now has an independent seat on the Joint Chiefs as 
an adviser to the President and the Secretary and the National 
Security Council on the very same matters. So it creates an 
issue of dual representation.
    Second, as I think the Chairman alluded to, when the CNGB 
is advising with respect to the non-federalized National Guard, 
he is representing the interest of the State National Guard, 
who are commanded by the Governor of each of those States. So 
it creates a dynamic--which I am not saying is necessarily 
wrong or right--but it creates a dynamic where the interest of 
the State Guard, the Governors, has a seat at the Joint Chiefs 
advising the President, the National Security Council, and the 
Secretary of Defense.
    Chairman Levin. This perhaps is a related question to you, 
General McKinley. Under title 10, the CNGB is the principal 
adviser, among others, to the Chief of Staff of the Army and 
the Chief of Staff of the Air Force on matters relating to the 
National Guard, the Army National Guard of the United States, 
and the Air National Guard of the United States.
    My question is this. Is there not an inconsistency with an 
adviser participating as an equal with the principals whom he 
is advising, as you would be as a member of the JCS, along with 
the Chief of Staff of the Army and the Chief of Staff of the 
Air Force?
    General McKinley. Thank you, Mr. Chairman.
    I think the best way to answer that is to look at the 
Empowerment Act and the NDAA of 2008, which established the DOD 
directive that Secretary Gates signed in 2008 directing the 
conduct of my job. If I could read from the organization and 
management piece which you refer to, it says that the CNGB is 
under the authority, direction, and control of the Secretary of 
Defense. The Secretary normally exercises his authority and 
direction and control through the Secretaries of the Army and 
the Air Force for matters pertaining to their responsibility in 
law.
    The second section I would like to just refer to is that as 
the principal adviser to the Secretary of Defense through the 
Chairman of the JCS, it allows me and directs me to advise on 
matters involving non-federalized National Guard forces.
    So I think the answer to your question is, in my opinion, 
my personal opinion, it doesn't raise inconsistencies wearing 
that hat and that this DOD directive following the NDAA Act of 
2008 gave me the authorities to do just what I addressed in my 
opening statement.
    Chairman Levin. General Dempsey, in your opening statement 
you made reference to the fact that the Services have never 
been closer to their Reserve components, and separating them by 
title risks creating unnecessary friction in the ranks. Can you 
tell us why it is and what you meant when you said that 
separating the Reserve components from the Services create 
unnecessary friction in the ranks?
    General Dempsey. Thank you, Senator.
    The issue for me is let us call it one of branding. Does a 
soldier see himself as a soldier? Does a guardsman see himself 
as a soldier first or a guardsman first?
    It seems to me that where we are today as a force, we are 
where we are because we have all seen ourselves as branded by a 
single Service Chief and his subordinate leaders into soldier, 
sailor, airman, marine, and, for that matter, coast guardsman, 
as the Vice mentioned.
    I am just not sure that establishing, Craig's cautions 
notwithstanding, I think that the way this will resonate 
through the force--forget about the leadership you see before 
you--but the way this could resonate through the force is that 
we have kind of separated ourselves, and our brand is no longer 
as clear and defined as we would like it and need it to be.
    Chairman Levin. Okay. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I recall, General McKinley, back when we were working on 
the 2009 NDAA, the issue at that time was the three-star versus 
four-star. I was trying to remember and talking to my staff 
just a minute ago about what the arguments were.
    I do recall the perception argument, that those in the 
field--and I heard that firsthand. But I also recall that--I 
got the impression that if we made that change, and that was in 
the 2009 NDAA, that that would resolve a lot of these problems. 
I didn't hear that we would want to come along with another 
change in the relationship.
    Do you remember that, or would you like to comment as to 
what benefits came with changing that from a three- to four-
star?
    General McKinley. Thank you, Senator Inhofe.
    I obviously took this position in November of 2008. I was a 
beneficiary of the legislation that passed before I became the 
CNGB. Much has improved and much has been given to me in terms 
of my access to the Chairman and to participate in major 
meetings affecting the Services, the National Guard, the Army 
and the Air Guard.
    I do remember the discussion of the grade, and I do work 
very closely with the other Reserve component chiefs--Jack 
Stultz in the Army Reserve, Dirk Debbink in the Navy Reserve, 
Steve Hummer in the Marine Corps Reserve, and Charlie Stenner 
in the Air Force Reserve. It is important not to get 
imbalanced.
    I would just suggest that the 468,000 members of the 
National Guard who reside in the States and the territories 
look to me as their representative and their channel of 
communications to DOD. But the willingness of the men sitting 
before you to allow me to communicate and to conduct discourse 
with them and to interact with them has significantly improved 
since I became the Chief of the Bureau in 2008.
    Senator Inhofe. All right.
    General Odierno, tomorrow I am going back to your old 
place, Fort Sill, where you started, I think, in the middle 
1970s and have had several tours there. I will be participating 
in their veterans celebration tomorrow morning. I know that 
they will be discussing this at that time.
    The question I would have of you because, after asking you, 
I want to ask General Schwartz the same thing. Have you seen, 
in terms of the Army, you have the Guard coming in, fighting 
side by side with you guys, with any difference in equipment or 
capability or resources between the Guard and the Active Duty 
Army?
    General Odierno. Senator, I would tell you that we have 
made great strides over the last 7 to 10 years in improving the 
capability, more importantly, the equipping of the National 
Guard. In our assessment, by October 2012, the National Guard 
will have achieved about 92 percent of their total equipping 
necessary, and in the Active component, we will be at 92.5 
percent.
    I think that sends a strong message about how we have been 
able to equip. I think I would just comment that understanding 
the total Army is incredibly important as we walk our way 
through this. We have to have all these different components.
    You have to have an Active component that is ready and 
prepared to respond immediately at a certain readiness level. 
We need our National Guard prepared and capable of responding, 
and they have to be able to work together at all times.
    We have been able to work that over the last several years, 
and I think we have gotten the right solution, as our Army has 
been taxed with many, many deployments. I worry that we will 
lose the one, single voice that has driven us here if we move 
forward.
    Senator Inhofe. Yes, I just wanted to ask the question. On 
the equipment, the quality of the resources used, are they the 
same?
    General Odierno. They are.
    Senator Inhofe. They are.
    General Schwartz, I would ask you the same thing, because I 
am active in aviation, I can remember back some time ago when 
we were going to the Block II and the F-16. You had the two 
engines, the 220 and the 229, I believe the 229 having greater 
thrust.
    When deployments were necessary, as I recall, it was my 
State of Oklahoma and the State of Ohio where they were not 
able to get for their deployment the 229 engines, which 
provided greater thrust. As a result of that, and I am going 
from memory now, I believe they deployed together as a unit and 
took only the 229s from Ohio and from Oklahoma, which was a 
disparity in how they are treated in terms of equipment.
    I would say, number one, is my memory correct? Number two, 
has that been corrected?
    General Schwartz. Senator Inhofe, generally speaking, the 
equipage of the Active Duty, the Guard, and the Reserve is 
common. There are some anomalies with regard to aircraft 
configuration based on their maturity, and so on and so forth.
    We have not corrected or normalized every single 
configuration in every one of our aircraft, but I think the 
point is, is that the Air Guard in the U.S. Air Force has 
always been an Operational Reserve. It has always shared the 
same readiness with their Active Duty and Air Force Reserve 
counterparts. That is still the case, and that certainly is our 
conviction going forward.
    Senator Inhofe. But there was a disparity at that time in 
that particular aircraft.
    General Schwartz. Sir, there was a difference in the 
engines. There is a difference in the configuration of 
airplanes as they are produced. Certainly, it is the intent of 
the Air Force to equip the National Guard so that they remain 
an Operational Reserve.
    Senator Inhofe. Are we in better shape on that issue now 
than we were back then?
    General Schwartz. Absolutely.
    Senator Inhofe. I think that is right. Do you agree with 
that, General McKinley?
    General McKinley. Sir, we have worked closely with General 
Wyatt, as the director of the Air Guard, in trying to achieve 
the proper balance in equipage of our National Guard. I can 
attest over my 38 years in the Air Force that the Air Guard 
today has the oldest legacy fleet in its history.
    I am concerned, as I am sure the Chief of Staff of the Air 
Force is, over future modernization plans that we can have the 
balanced force that has made the Air Force and the Air National 
Guard so close throughout its history. I am concerned about the 
future capitalization of the Air National Guard.
    Senator Inhofe. Thank you.
    My time is up. But I would like for the record, in writing 
for a later time, if you would respond to the--three of the 
witnesses talked about the confusion--the word ``confusion.'' I 
would like to have you respond for the record on that 
particular issue.
    [The information referred to follows:]

    In earlier testimony, the word ``confusion'' was used to describe a 
potential ``confusion as to whether the Army and the Air Force Chiefs 
of Staff [would] continue to represent their total force.''
    Placing the Chief of the National Guard Bureau of the Joint Chiefs 
of Staff would not confuse whether the Army and Air Force Chiefs of 
Staff represent their total force. It would not alter title 10 command 
authorities over federalized National Guard forces. There would be no 
change to the title 10 authorities of the Service Secretaries or 
Service Chiefs; conversely, they would take on no new title 32 
responsibilities. The Chief of the National Guard Bureau is not, nor 
would he be, within the title 10 chain of command for title 10 National 
Guard forces. When federalized, National Guard forces are, and will 
remain, under the command of Federal commanders. Total Force 
integration would not be compromised; if anything, it would be enhanced 
by greater situational awareness of title 32 National Guard missions, 
capabilities, and leadership on which the Chief of the National Guard 
Bureau is uniquely qualified to advise. Total Force integration would 
also benefit from enhanced understanding of the Homeland Defense and 
Civil Support missions that are performed by non-federalized National 
Guard forces.

    General McKinley. Thank you, Senator.
    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks to all of you for being here.
    I guess I would say that on this interesting and important 
question, I am a member of the Jim Inhofe open-minded caucus 
because I am undecided. So this discussion has really been very 
helpful.
    I wanted to get on the record just some basic facts. I will 
start with you, General McKinley. What is the number of 
personnel in the Army and Air Guard?
    General McKinley. We have approximately 468,000 combined, 
between Army and Air.
    Senator Lieberman. Right. I don't know that you would know 
it. I would ask General Dempsey, how about in the other Reserve 
components? What is the number there?
    General Dempsey. The only one I have committed to memory is 
the Army Reserve, and that is about 208,000.
    General Schwartz. Sir, for the Air Force, 71,000 on the Air 
Force Reserve, 106,000 and change on the Air National Guard.
    Senator Lieberman. Okay. Admiral, how about the Navy 
Reserve?
    Admiral Winnefeld. Sixty-five thousand, Senator.
    Senator Lieberman. Right. General Amos?
    General Amos. Sir, 39,600 Marine Reserves.
    Senator Lieberman. Pretty definitive answer right there. 
Thank you.
    Okay. Clearly, there is a larger number in the Army Guard 
and Air, but there is not inconsequential numbers in the other 
Reserve components as well. Obviously, some of us think about 
the Coast Guard Reserve, which is another part of the Reserve 
component.
    Let me ask this question, and I think I am probably focused 
on it here because of the other hat I wear on the Homeland 
Security and Governmental Affairs Committee. I wanted to begin 
this discussion with you, General McKinley.
    I take it that we start with the understanding that the 
other Reserve components don't have non-Federal 
responsibilities. Correct?
    General McKinley. Yes, sir.
    Senator Lieberman. This is an interesting issue, as I am 
sure you all know, because there is, of course, from our home 
States, we are getting tremendous support for putting the 
National Guard Bureau commander in chief on the JCS. There is a 
lot of support here in Congress, but obviously, there is a lot 
of opposition in the military.
    One of the unique functions here, and I want to ask you to 
talk a little more about it than you did in your opening 
statement, is these what I would call ``homeland defense 
missions'' that are part of the Guard's responsibility--
disaster response, border security, et cetera.
    In some of the discussions I have had with folks at home 
about this I think involve a concern that those homeland 
defense missions, which are obviously critical to our national 
security, are not receiving sufficient attention from the Joint 
Chiefs now, and that if you were on the Joint Chiefs, they 
would receive more attention. So I wanted you to respond to 
that or say anything you want about that unique function. Then 
ask General Dempsey if you would speak from the perspective of 
the JCS.
    General McKinley?
    General McKinley. I think that I am not critical of the 
other Service components, Army or Air Force, in representing 
homeland security. I just think it is the unique capability of 
the CNGB, with its relationship to the 54 adjutants general who 
work for the Governors, that intricate and delicate 
relationship, that allows me to provide the best, and that I 
should be a focal point.
    Our intergovernment relationships with the Federal 
Emergency Management Agency, Department of Homeland Security 
(DHS), Customs and Border Protection, Immigration and Customs 
Enforcement, those types of relationships that are built at the 
community level are significant. I wouldn't expect but wouldn't 
be surprised if the Chiefs of the Services know a lot about it. 
I just think we are uniquely qualified with our role in title 
32 in State Active Duty to operate in the statuses in the 
several States that we represent.
    Senator Lieberman. Would you say that that is one of the 
major reasons why you support putting the CNGB on the Joint 
Chiefs?
    General McKinley. As I said in my opening statement, 
Senator Lieberman, that is really where I am zeroing in on, is 
to institutionalize the role of the National Guard Bureau Chief 
in becoming that spokesperson through the JCS, through the 
Chairman to the Secretary of Defense to give my best military 
advice when asked so that we don't miss a beat in this very new 
age of asymmetric--I got it right this time--asymmetric 
challenges that face our Nation.
    Senator Lieberman. General Dempsey?
    General Dempsey. Yes, sir.
    Remember, the Joint Chiefs are statutorily responsible for 
the federalized portion of our defense, and the JCS would 
normally get its advice on Homeland security matters through 
NORTHCOM. So you may want to ask Admiral Winnefeld.
    Senator Lieberman. That is a good point.
    General Dempsey. But--and the point there is that NORTHCOM 
would then--the impact statement, if you will, that Craig is 
talking about right now would come to us through the Service 
Chiefs. The Joint Chiefs would compare the impact on the 
Services with the demand that would be articulated by NORTHCOM, 
and we would figure out what to do. This adds another voice 
into that mix that, frankly, I don't believe we need.
    Senator Lieberman. Admiral, I would invite you into this, 
both on the direct point and also just to pose a second kind of 
question for you.
    It is true that as General Dempsey just said, that the JCS, 
obviously, have focused I would say the overseas responsibility 
to protect our national security. On the other hand, the very 
reconstitution of NORTHCOM involves, post-September 11, an 
assumption of some responsibility for Homeland defense in the 
Pentagon that was a bit different than before.
    Would you agree, and how does that reflect on this matter 
that we are discussing this morning?
    Admiral Winnefeld. Well, Senator, I think September 11 
certainly was a wake-up call that was the genesis of NORTHCOM. 
Of course, NORAD existed all along.
    He does represent, as do the other combatant commands from 
the other various regions of the world, represent his theater 
in terms of what the title 10 needs are, whether it is 
intelligence or action on the ground or readiness or what have 
you. He does a good job of that, the current commander.
    I can't speak for the last commander.
    Senator Lieberman. We can. [Laughter.]
    Admiral Winnefeld. In partnership with DHS, there is an 
essential partnership there that does have the ability to 
respond in the event of a disaster or a security issue, sir, 
from your position as the chairman of that committee.
    We also have a number of other robust relationships. I 
would point out the wisdom of Congress in encouraging the 
department to establish--to work with the Governors and the 
Council of Governors. We get very good advice and guidance, 
frankly, from the Council of Governors. I also would tell you 
we get great advice from Craig on matters that have to do with 
title 32 State Active Duty and the like and how the Guard, like 
other Reserve components and other components of the military, 
can contribute to a Homeland security issue.
    So I think we have a pretty good situation where we are 
getting the advice we need. We have a good commander in the 
field for this who works closely with his civilian counterparts 
at DHS.
    As I pointed out in my remarks, I am not sure what is 
broken that we need to fix. We have a good system going now.
    Senator Lieberman. Thank you.
    My time is up, Mr. Chairman. Thank you.
    Chairman Levin. Thank you very much, Senator Lieberman.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    Will we be able to submit questions for the record as a 
follow-up?
    Chairman Levin. Yes.
    Senator Brown. Because 6 minutes really isn't----
    Chairman Levin. We will also have a second round for 
questioning if we need it.
    Senator Brown. Great.
    Chairman Levin. As you suggest, questions for the record 
will be welcomed.
    Senator Brown. Thank you.
    I am looking at a letter from General Amos and Admiral 
Greenert. Paragraph three of the letter says that CNGB does not 
represent a branch of Service nor is CNGB responsible for 
organizing, manning, training, and equipping the National Guard 
to the extent of the Service Chiefs.
    I have to respectfully disagree. Pursuant to, obviously, 
the DOD directive as to the responsibilities of what the Guard, 
in fact, does, they are responsible for entire cradle-to-grave 
planning program, budgeting, and execution of these budgets; 
provides the President's budget submission for each of the 
appropriations, which goes to Congress; validates those 
requirements; provides the annual financial reports to 
Congress. It is, in fact, the Service Chiefs that don't have 
any of that budget responsibility.
    Was there a misstatement in your letter there?
    Admiral Greenert. Well, Senator, the point that I was 
making in the letter, we, the Service Chiefs, testify to or are 
held accountable to Congress for the execution of those budgets 
as well. We have budget submitting offices--pardon me--in the 
Navy who do similarly that you just listed there, that----
    Senator Brown. Yes, but you said specifically they are not 
responsible at all, and in fact, that is not correct. That 
being said, I would like to just shift gears a little bit.
    Mr. Johnson, you indicated that you felt that maybe it 
would create confusion as to who represents the Army and Air 
Force. I have reference letters and General Odierno's 
``confusion'' and ``imbalance;'' obviously, General Schwartz, 
``confusing lines of authority;'' and you, sir, Admiral 
Greenert, ``complicated unity of command.''
    I mean, is there really any question as to what the chain 
of command is with the Joint Chiefs? Obviously, General 
McKinley will go through General Odierno, and General Schwartz 
to General Dempsey. There is no chain of command breach at all. 
I think it is very clear.
    In addition to that, I don't think there is any question 
that the title 10 command authority wants to change. I don't 
believe the Guard or General McKinley in his capacity as 
seeking a seat wants to change that at all. He wants, and I 
believe--I don't want to speak for him. But I guess I will just 
ask you, sir. You don't want to change the title 10 command 
authority at all, do you?
    General McKinley. No, sir. As I said in my opening remarks, 
that is working well for us.
    Senator Brown. There is no confusion as to who, you have to 
go through the chain of command, is there?
    General McKinley. I have no confusion.
    Senator Brown. With regard to the total force integration, 
do you feel that that would be benefited by you having a seat 
at the table?
    General McKinley. It is improved greatly, as the Service 
Chiefs have testified. It can only get better.
    Senator Brown. Is there any question that you in your 
capacity of having a seat at the table would be the person that 
could best advise not only--in any capacity through any of the 
Service Chiefs or the President or anybody on the domestic 
mission and what the non-federalized units would be able to do, 
especially in light of the homeland security issues that we are 
facing?
    Is there anyone else better qualified than you in your 
capacity to do that?
    General McKinley. These are all talented gentlemen in front 
of you, sir. I think it is my role and responsibility to be 
that person.
    Senator Brown. I would agree with you. Just to follow up on 
what Senator Inhofe said, General Schwartz. On the fighter 
aircraft issue, is it a fair statement that due to the effort 
to save money with the Air Force, the Guard units are going to 
be eviscerated when it comes to aircraft. Especially I have 
heard and others have commented that The Adjutant Generals 
(TAG) can't gain access to the plans as to what wings will be 
affected, how many aircraft are going to be lost.
    Isn't that another reason to have somebody like General 
McKinley at the table that can advise those TAGs and others as 
to what the plan is for the Air Force in the Guard units?
    General Schwartz. Senator Brown, that is not a role of the 
Joint Chiefs. But beyond that--the reality is that if the Air 
National Guard is going to be eviscerated, so will the Active 
Duty and the Reserve. We are getting smaller together. That is 
what is underway here.
    I would emphasize the point that we are now the smallest 
Air Force we have ever been. Because of that, those reductions 
that occur because of diminishing resources, which we all face, 
will be shared by all the components.
    Senator Brown. Well, it is interesting. That is another 
reason why we need to get back to the table and get the Select 
Committee to work so sequestration doesn't come in and 
dramatically affect that more.
    What this reminds me of, in doing history and, obviously, 
being in the military and just understanding the relationship 
between the Marines and the Navy, this is very similar. The 
Marines, you have General Amos here, who we all have tremendous 
respect for. He is at the table, and yet he does all his 
budgeting through the Navy and everything basically flows 
through the Navy to him in some respect.
    I am trying to----
    General Amos. Sir, that is not correct. We do our budgeting 
through the Department of the Navy. I am an equal Service 
Chief, along with the Chief of Naval Operations. The Secretary 
of the Navy controls the budget.
    Senator Brown. Right. So how would that be different than 
General McKinley wanting that same type of opportunity that you 
have, actually, in working through the Guard? How would that be 
any different?
    General Amos. Well, I can't speak to the budgeting of the 
Guard aspect, but we are a Service. We have been one for 236 
years.
    When the Marine Corps got its seat at the table in 1978, we 
had been fighting our Nation's battles as a Service for over 
200 years. That is different. The Guard is not a Service.
    Senator Brown. My time is up. I have other questions. I 
have to get to another meeting and come back. I am looking 
forward to Senator Graham's as well.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Brown.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    General McKinley, your reputation for professionalism and 
skill and dedication precede you. So thank you for your 
service.
    Having just 2 weeks ago visited the 43rd Military Police 
Brigade in Afghanistan and the 143rd Airlift Wing in 
Afghanistan, the service of the National Guard, Army and Air, 
is not only commendable, but essential to the Nation's 
security.
    But as I look at title 10, U.S.C. 10502, the first step in 
getting your job is getting recommended by a Governor. Is that 
correct?
    General McKinley. The process by which they select the 
Chiefs does require the Governor's nomination. That is correct.
    Senator Reed. So looking ahead, effectively, some Governor 
is going to have to be either the nominator or vetoer of a 
member of the JCS. Is that correct?
    General McKinley. I think the initial submission of the 
name goes to the Departments of the Army and the Air Force for 
vetting, and they submit a name each to the Secretary of 
Defense so that they can recommend to the President. That is my 
understanding of the process, sir.
    Senator Reed. But as the law goes, the Governor will 
essentially recommend the National Guard Bureau Chief, who 
will, if this statute passed, be by law a member of the JCS. So 
some to-be-announced Governor will be selecting a member of the 
JCS, in effect.
    General McKinley. It is correct, sir, that we hold dual 
statuses in the National Guard and that we must be confirmed as 
a Federal officer and a member of the State. You are right.
    Senator Reed. So would you be adverse to eliminating the 
gubernatorial recommendation, since this statute would create a 
position on the JCS, which I don't see a gubernatorial--
particularly since it is kind of a random process of which 
Governor would be doing it. Would you object to those changes?
    General McKinley. Senator, I think the Chairman can 
establish the process to pick my successor. I will finish my 4-
year statutory term in 2012. So we are on the verge of doing 
that. I have no objections to doing that.
    Senator Reed. So you would not object to eliminating a 
gubernatorial recommendation for the CNGB?
    General McKinley. I personally would not. No, sir.
    Senator Reed. Okay. Now, let me ask you, to what extent do 
you have authority over the actual budgets of the non-Federal 
units and the actual policies of the non-Federal units that you 
would be advising the Joint Chiefs on?
    General McKinley. As we work within the Service lines, with 
our staffs here in Washington, through the Army National Guard 
Readiness Center and the Air National Guard Readiness Center, 
which work with the Army and the Air Force as we prepare the 
budget, once those budgets are approved, we are given the funds 
and push those out to the States.
    Senator Reed. You are talking about Federal funds, which we 
appropriate. I am talking about the non-Federal activities of 
the Guard. Can you direct a TAG or a Governor to increase their 
spending or to change the configuration of their forces?
    General McKinley. No, sir. That is their responsibility.
    Senator Reed. You are going to be advising the JCS on non-
Federal functions which you have no authority to affect on the 
ground.
    General McKinley. The constitutionality of my role would be 
that the Governors and their TAGs decide what small percentage 
of the budgets are given through the State. It is the large 
preponderance of funds, 98-plus percent, which are Federal 
funds given to the Guard.
    Senator Reed. But they are Federal funds that we provide in 
anticipation of units being federalized to perform Federal 
missions that fall clearly--and I don't think you dispute 
this--within the chain of command of the Service Chiefs and, 
ultimately, General Dempsey and the Secretary of Defense.
    General McKinley. The Federal missions certainly are as you 
stated, but the State missions are under the command and 
control of the Governor.
    Senator Reed. Right. But as I understand this whole 
procedure is to give you access to talk about those State 
missions, which you effectively don't have any control of 
because you can't force them to change their budgets. You can't 
force them to take particular people and make them--you have no 
say in who is running the show.
    In fact, there is one State in which the TAG is elected by 
popular vote, one State in which he is elected by the assembly. 
Just raises serious questions, I think, about what you are 
going to do on the Joint Chiefs that you cannot do effectively 
and perhaps more effectively now.
    But let me conclude just simply by saying once again, you 
have done a superb job and your colleagues in the Guard and 
Reserve. I must tell one story. I was out with General McBride, 
the TAG in Rhode Island, and I was asking what units he was 
commanding, the 43rd Military Police Brigade. When he mentioned 
my old battalion of the 82nd Airborne Division, I knew this was 
one Army and one Air Force.
    We want to get this right, and I think there are some 
serious questions here.
    Thank you very much.
    General McKinley. Thanks, Senator Reed.
    Chairman Levin. Thank you, Senator Reed.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I just wanted to follow up, General Amos, on what Senator 
Brown had asked you about. Isn't it true that in 1978 the 
Chairman of the JCS opposed having the Commandant of the 
Marines be a member of the JCS?
    General Amos. Senator, I don't know whether he did or not. 
I just know that it became law in 1978.
    Senator Ayotte. Well, if I would represent to you, 
certainly, Admiral Greenert, that your predecessors, Admiral 
Holloway and Admiral Hayward, at the time opposed having the 
Commandant of the Marines before the Chairman and JCS, I assume 
you would disagree with that position now?
    Admiral Greenert. I certainly would, Senator.
    Senator Ayotte. I assume that having the Commandant is 
incredibly valuable on the Chairman of the JCS and that it has 
not resulted in any confusion on the role of the Navy with 
respect to the Marine Corps and advising the Chairman?
    Admiral Greenert. No, ma'am, it has not.
    Senator Ayotte. Do you have any reason to believe that 
General McKinley or his successors would not be able to draw 
any distinctions clearly as to what the appropriate role he 
would have if a member of the JCS?
    Admiral Greenert. General McKinley may not. Most of my 
concern, as stated, is really what is in the force. How do the 
forces see it? Is there a clarity of, again, the unity of 
command? Who is ultimately accountable for the budgeting, the 
source of the budget to Congress, to the Secretary of Defense?
    It is really a lot of what Chairman Dempsey stated before, 
not what we can work out, because we work fine in the tank. It 
is very clear how we can work together. It is what is the 
perception out there and perhaps confusion.
    Senator Ayotte. I certainly have great confidence in all of 
you and the tremendous service that you have that whatever 
decision Congress makes, that it will be very clear to our 
service men and women as to the chain of command. I know that 
all of you will work very well together, as you do now, on 
behalf of our country, and we deeply appreciate it.
    General Dempsey, I wanted to follow up on something that 
Admiral Winnefeld had stated. Do you also support the potential 
of making the next commander of NORTHCOM a Guard officer?
    General Dempsey. I do. But I also would add that I would 
rather that none of that be legislated because it is my job to 
find the best athlete available. It is also my job to grow the 
athletes who are competitive to do those jobs.
    Senator Ayotte. But certainly it would be an appropriate 
athlete to have a Guard officer as a candidate for that 
position?
    General Dempsey. Yes.
    Senator Ayotte. Thank you.
    General Dempsey, do you think it would be right not to 
bring forward the NDAA for the first time in 50 years in the 
history of our country this year?
    General Dempsey. No, Senator. I think we should have a NDAA 
as soon as possible.
    Senator Ayotte. Is that very important to our military and 
to what you need to accomplish?
    General Dempsey. It is, Senator.
    Senator Ayotte. Thank you, sir.
    General Schwartz, on a different topic, and I just feel the 
need to ask about this. I am deeply troubled by the reports 
about what has happened at the mortuary at the Dover Air Force 
Base. I am sure you would agree with me, this is outrageous 
that remains of our soldiers would be put in a landfill and not 
treated with the appropriate dignity and honor which they 
deserve.
    Can you tell me where we are with this and how we are going 
to ensure that this never happens again? Most importantly, 
those who have participated in this outrage are going to be 
held accountable?
    General Schwartz. Senator Ayotte, first of all, let me 
clarify the allegation about putting remains in a landfill. 
These were portions prior to 2008 which were sent away from the 
Dover mortuary to a funeral home for cremation, which is an 
authorized method of dealing with remains, particularly those 
that are separated from the larger portion of remains returned 
to the family.
    After that, the results of the cremation came back to the 
mortuary, were sent to a medical support company for 
incineration. So you had cremation, then incineration, and it 
was at that point that this medical support organization placed 
the residuals from that effort to a landfill.
    In 2008, the Air Force came to the conclusion that that was 
not the best way to deal with those remains, and so it is now 
done in the traditional fashion of burial at sea. It has been 
that way since 2008. It will continue to be that way in the 
future.
    Let me just conclude by saying the Secretary of the Air 
Force, Mike Donley, and I take personal responsibility for 
this. Our obligation is to treat our fallen with reverence and 
dignity and respect and to provide the best possible support 
and care for their families. That is our mission. The people 
who did not fulfill our expectations were disciplined, and 
there is no doubt what our expectations are today.
    Senator Ayotte. General Schwartz, I appreciate your 
updating on that. When I think about the fact that we have 
Veterans Day tomorrow, this is so important that we obviously 
treat the remains of our fallen with dignity and respect. I 
know that you share that concern as well.
    Please know that members of this committee will be there to 
support you in any way, to make sure that the families know 
that we certainly won't allow this to happen again.
    Thank you.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I would like to add my welcome to our very distinguished 
panel of witnesses that we have today, on the eve of Veterans 
Day. I thank you and the men and women you lead in serving our 
country and defending our freedoms.
    I have read that most of you are opposed to elevating the 
Guard Bureau Chief to the JCS. I want you to know that while I 
might disagree on this issue, I have the complete respect for 
you and the opinions that all of you hold.
    Let me take a moment to say that, understandably, change is 
not always a welcome concept. In the evolution of the JCS, 
there has been significant opposition to structural changes. 
However, there is precedent in changing the composition of the 
JCS to account for readiness, policy, and budgetary issues.
    For example, in 1953, President Truman signed the law to 
add the Commandant of the Marine Corps to the JCS to discuss 
issues related to the Marines. It was controversial at that 
time, but several years later, the Commandant was elevated to 
full voting member status. Today, I think we would all agree 
that making the Commandant a voting member was the correct 
decision.
    While the National Guard is not a separate Service, it does 
have a complex set of needs based on the dual missions it must 
be prepared to execute. Guard members are in every State and 
for the last decade have been heavily involved in the wars in 
Iraq and Afghanistan.
    No one better understands their requirements than the CNGB. 
Future force structure adjustments will have a direct impact on 
the task and missions the Guard will be asked to perform. I am 
sure they will be asked to do more, and not less, in the 
future.
    Now making the CNGB a full-fledged member will update the 
structure of the JCS to reflect the operational reality in wars 
overseas, as well as in homeland defense and security missions. 
It would also enhance the effectiveness of the total force.
    No one knows exactly what the next conflict will entail, 
but we can be confident that we will again call upon the 
460,000 men and women of the National Guard to do their part. I 
believe that elevating the CNGB to the JCS is something that is 
overdue and will show our guardsmen and their families that 
they are a true partner. It will also let them know that their 
voices and views will be represented at the highest levels of 
Government.
    General Dempsey, you have stated that the CNGB will be 
invited to attend JCS meetings as long as you are Chairman. I 
think this is great for cooperation and transparency and 
overall effectiveness of the group.
    However, I am concerned that if a future Chairman is not as 
inclusive as you are, the CNGB would be left out in a Pentagon 
hallway while relevant discussions take place in the tank. Do 
you think, General Dempsey, that an CNGB advice to the 
Secretary of Defense would be different if he were a full-
fledged member versus an invited nonmember? If so, how 
different is it?
    General Dempsey. First, Senator, thanks for remembering 
that it is the day before Veterans Day, and I was hopeful to 
get a chance to mention that at the end, but thanks very much 
for that.
    I don't know whether his advice would change. I also want 
to make it clear that I am not the first Chairman to include 
the CNGB. My predecessor certainly did that as well.
    It seems to me to be a reasonable assumption that we would 
continue to do that no matter who the Chairman was, and I don't 
know whether his advice would change. I don't know what 
additional influences might be brought to bear. I just can't 
answer that question hypothetically.
    Senator Akaka. Thank you, General.
    General McKinley, the Guard has carried a tremendous load 
for this country to include their efforts in Iraq and 
Afghanistan. In the future, I am certain the National Guard 
will again be called to serve abroad while continuing its 
required domestic missions.
    Can you say something about how things would improve for 
both the Guard and the total force should the CNGB be given a 
seat at the table?
    General McKinley. I can assure you, Senator Akaka--and 
congratulations to you also for being the recipient of the 
Harry S. Truman Award recently. I can assure you that we have 
made significant progress over the last 8 years in terms of the 
transparency and integration.
    I will not dispute the fact that this Chairman and the 
former Chairman have opened their doors willingly. I am 
concerned that that continue, and I believe it needs to be 
institutionalized to ensure that that service continues.
    I also believe, like what is going on in your home State 
right now, in Hawaii, the Asia-Pacific Economic Cooperation 
(APEC) summit is going on. Your National Guard is being heavily 
used in security and administrative duties. I need to be able 
to service that issue unfettered to the top, and I think the 
seat will give me the advantage, as my fellow Service Chiefs, 
the Service Chiefs who sit before you have, to go in an 
unfettered fashion and give those types of homeland security 
issues to the Chairman and, if requested, by the Secretary of 
Defense. Those are very important things.
    We have about seven more NSSEs in the upcoming 8 months 
that I feel the CNGB should be fully integrated with, so that 
we can dedicate the forces--as you have 5,000 members of the 
National Guard in Hawaii--to the task. I think elevating and 
institutionalizing the position will give me a better 
opportunity to fulfill my responsibilities.
    Senator Akaka. Thank you very much, General McKinley.
    Thank you very much.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman. Thank you for 
having the hearing.
    This has been very informative. I appreciate all of you. I 
respect you greatly, appreciate the comments you have made and 
the advice you are giving. This is ultimately up to Congress 
and the President to decide what to do.
    General Amos, pound for pound, do you agree the Marine 
Corps is the best fighting force in the world? [Laughter.]
    General Amos. Yes, sir. We celebrate that today on our 
birthday.
    Senator Graham. Okay, good. I agree with you. Do you agree 
with me the only thing older than the Marine Corps when it 
comes to defending America is the citizen soldier?
    General Amos. Sir, I believe that is true.
    Senator Graham. Okay. So I am here to tell everybody, I 
appreciate it, but the citizen soldier's time has come. You are 
going to get a seat at the table, General McKinley, if I have 
anything to say about it.
    We are long into this fight as a Nation. The first shot was 
fired by the citizen soldier. It is time for the citizen 
soldier to be sitting at the table, not just for political 
reasons, but for substantive reasons. So let us talk a little 
bit about substance.
    General Dempsey, do you agree that one of the great threats 
America faces is not just attack from a foreign enemy, but from 
nature and natural disasters?
    General Dempsey. Yes, Senator.
    Senator Graham. Okay. When it comes to front-line service 
against natural disasters and the havoc it can reap on the 
American people, do you agree the National Guard is the front-
line force?
    General Dempsey. Generally law enforcement, then National 
Guard, then Active----
    Senator Graham. When it comes to uniformed personnel?
    General Dempsey. Yes, I do.
    Senator Graham. Okay. General McKinley, Hurricane Irene, is 
that right? Is that the name of the last big hurricane?
    General McKinley. That was our latest event, yes, sir.
    Senator Graham. Okay. Tell me, who talked to you about 
Hurricane Irene?
    General McKinley. I was consulted by the assistant 
Secretary of Defense for Homeland Defense, Paul Stockton, and 
that was the extent of my discussions.
    Senator Graham. Did anybody from the Chairman of the Joint 
Chiefs call you and ask, ``Hey, what is going on?''
    General McKinley. No, it was incumbent upon me to pass that 
information up, but nobody made that call.
    Senator Graham. Okay. So did anybody from the White House 
call you?
    General McKinley. No, sir.
    Senator Graham. All right. So if you believe that the 
Nation is threatened by natural disasters and the front-line 
uniformed force is the National Guard, I would like to have you 
sitting there--not by invitation, by the way. General Dempsey, 
you are a very fine man, but if you got ticked off at him, 
could you tell him to get out of the room?
    General Dempsey. Yes, I could.
    Senator Graham. Okay. Good. Well, at the end of the day, I 
think you need to be in the room with some weight behind you, 
not just an invitation.
    Now let us talk about the structure of the State-Federal 
responsibility. Who talks more to the adjutant generals of each 
State, you or General McKinley, General Dempsey? Who has more 
contact?
    General Dempsey. I don't have any contact with the adjutant 
generals.
    Senator Graham. Okay. Well, if you believe that the 
adjutant generals who have responsibilities over the National 
Guard, if you don't have any contact with them, how much 
contact do you have, General McKinley?
    General McKinley. Daily.
    Senator Graham. All right. If you can't tell them how to 
spend their money, you can at least tell the Chairman of the 
Joint Chiefs, if you are in the room, what is going on. Don't 
you think it would be important institutionally, beyond the 
life of you and General Dempsey, to have somebody in that room 
advising the Chairman of the Joint Chiefs exactly what is going 
on in the States?
    General McKinley. I think in a post-9/11 world, it is 
essential.
    Senator Graham. I couldn't agree with you more.
    Now let us talk about the history of the Joint Chiefs, the 
Chairman of the Joint Chiefs, when it comes to supporting 
legislation that we now all agree is important. Do you agree 
that the Marine Corps, being a voting member of the Chairman of 
the Joint Chiefs, hasn't give the Navy two votes? Do you agree 
with that, General Amos?
    General Amos. It has not given the Navy two votes.
    Senator Graham. Well, that was the big concern. Senator 
Webb was your biggest advocate. That was a real fight back in 
1978, that if you put the Commandant on, all hell's going to 
break loose. The Navy is going to run the world.
    Well, that did work. I don't think the National Guard being 
in the room is going to change the world as we know it--only 
for the better.
    Now, Mr. Johnson, headlines are made at every hearing. Is 
the headline from this hearing, ``Obama administration opposes 
putting the National Guard Bureau Chief on the Joint Chiefs?''
    Mr. Johnson. Senator, you have heard the best military 
advice from----
    Senator Graham. Well, I am going tell you what Vice 
President Biden said in 2008 when he spoke to the National 
Guard conference in Baltimore. ``It is time for change. Change 
begins with giving the Guard a seat at the table, that table in 
the Pentagon where the Joint Chiefs sit.''
    President Obama's campaign document, ``Blueprint for 
Change,'' page 55, if you want to read it. I haven't read it, 
and I will be the first one to admit to it. But this part I do 
like.
    ``Obama will restore the readiness of the National Guard 
and Reserves. He will permit them adequate time to train and 
rest between deployments, provide the National Guard with 
equipment they need for foreign and domestic emergencies. He 
will also give the Guard a seat at the table by making the 
Chief of the National Guard a member of the JCS.''
    Has he changed his mind?
    Mr. Johnson. Not to my knowledge----
    Senator Graham. Well, don't you think when he said that, he 
thought long and hard about this, and he came to conclude, as a 
prospective commander in chief, this would be a good idea? You 
are not here to tell us he is wrong, are you?
    Mr. Johnson. The President and the Vice President are above 
my pay grade.
    Senator Graham. Well, I think they are wrong a lot, but I 
think they are right on this.
    Now let us talk about Goldwater-Nichols. How many of you 
believe it works? Who believes it doesn't work? Speak up. 
Nobody. All right. Let me give you a little history.
    There is an article that I read called ``The Campaign for 
Goldwater-Nichols'' by John T. Correll. I will read a brief 
excerpt.
    ``The bill was being prepared and had been written in final 
draft, and Senators Nunn and Goldwater go to have a meeting 
with the Joint Chiefs. Admiral Crowe was the new chairman. He 
supported it. But during that meeting, everyone else opposed 
and said in no uncertain language. The hot-tempered Goldwater 
took their criticism as attack on his efforts to make 
improvements and roared, 'If you think you can bully Sam and 
me, you are mistaken.'
    ``The next day, he got eight letters from the Pentagon 
talking about how bad of an idea this would be. Senator 
Goldwater said, `I will not be deflected or sidetracked in this 
effort, even if I get a letter a day from everyone in the 
Pentagon.' ''
    The only reason I mention that is that the institution 
resisted Goldwater-Nichols, the institution resisted having the 
Commandant of the Marine Corps on the Chairman of the Joint 
Chiefs. I think we should consider the time has come, given 
post-September 11 duties of the National Guard, to have a seat 
at the table. It doesn't change command authority, doesn't turn 
the world upside down.
    But if any group ever deserved recognition now, it is the 
members of the National Guard. Their voice needs to be heard, 
not through invitation, but by us saying, ``You have a seat.''
    Thank you very much.
    Chairman Levin. Thank you, Senator Graham.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    You can all relax. I am not going to try to top Senator 
Graham. But as a former Governor--and I know there are two 
other former Governors seated here--we have had that special, 
unique relationship with the Guard. Now we have a relationship 
with the entire military, the total force.
    I suppose having called out the Guard on occasions, that it 
gives me a special feeling of a relationship with the Guard, 
going back to my adjutant general, the late Stanley Heng, who 
was an outstanding military officer and an outstanding TAG. In 
addition, since I have been in the U.S. Senate, I have had a 
relationship with former TAG Gene Lempke and the current 
Adjutant General, General Lyons.
    The relationship is clearly a unique one from the 
standpoint that has been described by everyone so far of having 
a Federal and a State component to the relationship. It isn't 
like any other branch of the Service or any branch of the 
Service in particular. It is unique to the Guard.
    It would be unique if it applied to one of the other 
branches, not just the Air Guard or the Army Guard, but if 
there was another Guard, it would be the same situation. 
General McKinley, you said in your letter, ``The CNGB is 
uniquely positioned to both provide situational awareness of 
State and Federal military forces operating in unity of effort 
in the Homeland and ensure that resourcing decisions fully 
consider the domestic mission.''
    I think you are right about that, and I think, as we have 
looked back, we have seen at times that the Guard has not been 
adequately resourced. I am not going to suggest that that will 
go on indefinitely in the future because we are seeing the 
change to an Operational Reserve that will have to be 
adequately resourced.
    But I can tell you that as Governor, I would feel much 
better that that resourcing would occur if I knew that the head 
of the Guard was seated at the table. It doesn't take anything 
away from any of you, distinguished as you are and committed to 
the total force and to the total security of our country, both 
at the Homeland and nationally, internationally, as well.
    I understand that change is difficult. It is not easy to 
come by. Whether or not something occurred 20 years ago or not 
probably doesn't necessarily mean that we can't look at it 
today in light of the changes that the Guard has gone through 
as we have seen it throughout these last 10 to 12 years.
    General Schwartz, I do have a question--because I know that 
part of the requirement for adding CNGB is at least a 
recognition that his advice would be more critical than ever 
heading into a period of budget austerity. I know as you are 
looking toward your future requirements for the Air Force, how 
are you going to work with General McKinley to have a total 
force approach in terms of your resources and your readiness?
    General Schwartz. Senator Nelson, I think it is important 
to say at the outset that the Joint Chiefs is not a resource 
forum. It is a strategic forum for, again, employment of the 
Armed Forces and for providing best military advice in that 
context. There are other resource fora in the department where 
the CNGB clearly has a seat at the table.
    But with regard to the Air Force specifically, Craig 
McKinley's Deputy, Lieutenant General Bud Wyatt from the great 
State of Oklahoma, is our principal staff officer regarding 
National Guard matters. He and his people have complete access 
to all of our internal activities with regard to the 
headquarters, whether it is resourcing, whether it is making 
decisions on equipment, and so on and so forth.
    Additionally, we have offered--and the adjutants general 
will take us up on this--to have a presence on what we call our 
Air Force council, which is the senior-most resourcing activity 
within our headquarters. The bottom line is that the Air 
National Guard has a consistent seat at the table for internal 
deliberations.
    We certainly interact with Craig, as I think he will 
verify, on all matters, including management of senior 
officers. This is a partnership between us. But I would go back 
to first principles in that the Joint Chiefs is not a 
resourcing fora.
    Senator Nelson. No, I understand. But the recommendations 
that you make are based on what you think the resources that 
you would require and are necessary for carrying out your 
mission. So whether it is establishing the resources or making 
the recommendations, you still have to discuss what resources 
are necessary, in your opinion, for you to be able to carry out 
your message--or your mission. General McKinley obviously has a 
role there.
    I would assume that would be true, General Odierno, with 
the Army Guard as well?
    General Odierno. Senator, as we develop the Army budget 
every year, there is complete transparency. The Guard plays a 
critical role in developing our budget. So that happens today, 
and this change does not impact that at all. That will happen 
today and will always happen, no matter whether he becomes a 
member of the JCS or not.
    Senator Nelson. I commend you all on your ability to sit at 
a table and disagree, but not be disagreeable, and appreciate 
very much your input. Obviously, it is a challenge to try to 
decide how to best take care of our national defense. You do it 
every day, and we appreciate and thank you for your service, 
particularly as we, on this eve of Veterans Day, go home and 
speak to our veterans at home.
    Thank you all.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Thank you for holding this hearing. I think it has been 
very healthy for this discussion.
    General Dempsey, has any former Chairman of the JCS 
supported this legislation?
    General Dempsey. Not to my knowledge, Senator, no.
    Senator Webb. Mr. Johnson, has any current or former 
Secretary of Defense supported this legislation?
    Mr. Johnson. I have no knowledge of that, Senator.
    Senator Webb. Do you have any knowledge of anyone 
supporting it?
    Mr. Johnson. I don't have knowledge of the contrary either. 
Correct.
    Senator Webb. All right. I would like to start by saying I 
think that anyone who is saying that citizen soldiers are not 
at the table right now is being unnecessarily divisive and, I 
think, unfair to the stewardship and leadership of the Army and 
the Air Force. Citizen soldiers are at the table.
    They have been respected throughout the entire history of 
this country. When we talk about the operational changes since 
September 11, and we all have great appreciation for that, but 
at the same time we need to recognize that throughout history 
the National Guard has frequently answered the call.
    If you looked at the number of the forces that came from 
the National Guard in World War I, World War II--100,000 
National Guardsmen went to Korea--this has always been the 
case. I think particularly since the total force concept was 
announced--and I had the privilege of being the Assistant 
Secretary of Defense for Reserve Affairs at a time that we were 
really working these matters out--the National Guard has really 
been able to have an input in a very measurable way.
    I believe this legislation is unnecessary. I would like to 
respond to some of the comments that have been made about the 
Marine Corps and my role, which I am very proud of, by the way, 
in terms of articulating the legitimacy of the Marine Corps 
role in Joint Chiefs.
    I wrote an article in 1972--hard to believe this. This 
article has been circulated by the proponents of this 
legislation. I wrote it for the Marine Corps Gazette. I was a 
25-year-old captain of the Marine Corps. I am flattered, by the 
way, that somebody remembered this article from 39 years ago.
    But at the same time, the most important aspect of that 
article was that the Marine Corps is a separate Service. To 
state the obvious, take a look at General Amos and Admiral 
Greenert. They are wearing different uniforms.
    The Army National Guard has a history of being trained and 
equipped as a part of the U.S. Army. The Air National Guard has 
a history of being trained and equipped as a part of the U.S. 
Air Force. That is conceptually an entirely different matter.
    I don't believe that the JCS have been failing to represent 
the interests of the Army Guard in the Army or the Air Guard in 
the Air Force. General Dempsey, would you say there has been 
any indication of that?
    General Dempsey. Absolutely no indication. Not only is 
there no indication, it just isn't accurate. They are 
represented by the two Service Chiefs.
    Senator Webb. Would you also agree that the Guard is as 
well represented as the Air Force Reserve and the Army Reserve?
    General Dempsey. I do, Senator.
    Senator Webb. Would there be any justification for adding 
the Reserve Chiefs as members of the JCS?
    General Dempsey. I would recommend against it for the same 
reason I recommend against adding the Guard.
    Senator Webb. With respect to non-Title 10 obligations, I 
have an observation from having spent 3 years being Secretary 
Weinberger's principal adviser on Guard and Reserve matters. 
There are a number of other jurisdictions in which non-Title 10 
obligations of the National Guard are considered, and some of 
them, to be quite frank, are jealously guarded by the political 
processes of the Governors. I certainly don't think they are in 
any way disregarded.
    To make a further point on this, we do have an Assistant 
Secretary of Defense who is responsible for Homeland security 
matters and is a direct adviser to the Secretary of Defense.
    Mr. Chairman, I would just have to say that I am opposed to 
this legislation. I believe it is unnecessary. I don't see a 
value, and I do understand the complications.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Webb.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    I have more respect than I can ever describe for the guy 
that is sitting to my immediate left here for a myriad of 
reasons, including his incredible service to our country as a 
member of our armed services and as a Marine. I also 
appreciated the incredibly effective cross-examination that 
Lindsay Graham did. You can tell he has spent some time in the 
courtroom.
    I do think that this is a difficult question, and the only 
thing I want to point out with Mr. Johnson is I have looked at 
your testimony very carefully, Mr. Johnson, and it appears to 
me that you have not said whether or not you support or oppose 
this legislation but have rather asked to make sure that it is 
not legally ambiguous. Is that a correct characterization of 
your testimony?
    Mr. Johnson. Yes. I am not here to state a policy position 
one way or the other. I was asked to attend to point out the 
legal implications and potential ambiguities of this becoming 
law. I think that, as you have noted, I have laid that out in 
my prepared remarks.
    Senator McCaskill. I just wanted to put that on the record 
because I was a little surprised that we were going to campaign 
materials as part of this hearing. It seems like we have enough 
politics around this building. It doesn't seem like we have to 
bring it into this hearing also.
    I want to specifically for a minute, General Schwartz, go 
to the situation at Dover. I don't want to dwell on how hard 
this has to be for you and the leadership at the Air Force. No 
one needs to convince me that you want to get this right at 
Dover.
    I will tell you what I do want to bring to your attention, 
and I have done so with a letter today, and that is the finding 
of the Office of Special Counsel. So people understand what the 
Office of Special Counsel is, it is an investigatory and 
prosecution-oriented agency whose primary responsibility under 
our law is to be independent of all of the agencies and protect 
whistleblowers.
    What I am concerned about is their investigation into what 
the Air Force did in response to the whistleblowers. 
Specifically, the fact that the IG of the Air Force, failed to 
admit wrongdoing in their report. While I understand people 
have been moved around as a result of the problems that have 
occurred because of the mishandling of the sacred remains of 
the fallen, I am not sure that they have been held as 
accountable, for example, as what we saw happen at Arlington 
Cemetery in connection with that heart-breaking incompetence.
    What I want to make sure is that there is an independent 
investigation as to whether or not the IG shaded it a little 
bit because everyone was feeling protective of the institution, 
for all the right reasons. The vast majority of people who 
serve at Dover and who do this work I am sure do it with a 
heavy heart, but with a passion for getting it right.
    But when we have a circumstance like this arise, I want to 
make sure that the inspector generals are not so busy looking 
after the institution that they fail to point out wrongdoing, 
which was not ever acknowledged, and that there is 
accountability for the people involved. So, I want you to 
address the special counsel's report as it relates to the Air 
Force investigation.
    General Schwartz. Senator McCaskill, there clearly were 
unacceptable mistakes made. Whether they constitute wrongdoing 
is another matter entirely.
    When you look at a situation like this, you look at the 
facts of the case, as an attorney might say. You look at the 
context in which the event or the mistakes occurred, and you 
also consider the demands that are placed on individuals and 
organizations.
    With respect to accountability, we also had an obligation 
to ensure that the statutory requirements for due process were 
followed. We did that precisely.
    I can only speak for the case of the uniformed officer, but 
the uniformed officer received a letter of reprimand. We 
established an unfavorable information file. We removed him 
from the command list and his anticipated job as a group 
commander at Shaw Air Force Base was redlined. This is not a 
trivial sanction.
    Senator McCaskill. I understand that is not a trivial 
sanction. I am worried that there was a conclusion that there 
was not an obligation to notify the families in these 
instances. Obviously, this deals with more than uniformed 
personnel, and obviously, the Secretary of the Air Force is 
also copied on the letter that I sent today calling for this 
independent investigation.
    What happened at Arlington, nobody was intentionally 
mismarking graves. They were mistakes, too. I just want to make 
sure that we have really clear eyes while we have full hearts 
about the right, aggressive need for investigations by 
inspector generals in circumstances like this.
    Thank you very much, and thank all of you for being here 
today.
    Chairman Levin. Thank you, Senator McCaskill.
    Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    Let me, first of all, thank each and every one of you. It 
is very impressive to have the leaders of the Services of the 
greatest defense of a country one could ever hope to live in, 
and I appreciate it. The respect you all have for each other is 
evident, and I appreciate that also.
    I must say that my experience as a Governor, which I think 
is the greatest honor that I could ever have bestowed upon me 
as a citizen of the great State of West Virginia is to be 
Governor of my great State, and also with that having a close 
relationship with my Guard. That close relationship, you get a 
title as Governor, which is commander in chief, which is a 
little bit much, if you will. But I can assure you that 
watching the performance of my Guard and the guardsmen that I 
have met all over this country is unparalleled to anything I 
have been witness to.
    I had the chance also to travel with other Governors, and 
we would go, and you all would be so kind to take us over to 
visit in Afghanistan and Iraq. We would go in and be able to 
say thank you to our troops for the Services they gave. To a 
``T'' I will say this. Every one of the commanders of every 
base that we attended and visited, they would make a point to 
come up to me and say, ``I want to tell you of the expertise, 
the professionalism, the commitment that your guardsmen have 
and what an asset they are to our command.''
    With that, I would say that I didn't see the difference. I 
really didn't. I never really thought about why it hadn't been 
looked upon equally at the Pentagon or the Joint Chiefs.
    I have thought about this quite a bit since then. I know 
change is hard. Being in the positions, I have had to make a 
lot of decisions, and I know it comes very, very hard. The 
thing I would ask, and whoever would want to answer this--and 
General Dempsey, you might want to start with yourself. Do any 
of you believe--and I think you can tell there has been some 
wonderful questions here and some wonderful testimonies. 
Senator Graham does such an expert job of holding his emotions 
back and his feelings.
    But with that being said, do any of you believe that this 
legislation--and I believe it will be passed--that you would 
have a hard time cycling and being able to do the job that you 
are charged with doing at the level that needs to be done for 
the defense of our country?
    General Dempsey. I will start, Senator. Thanks for the 
opportunity.
    Also, you are the second Senator to sort of imply that we 
are averse to change. We are, I promise you, one of the most 
change-oriented organizations you are going to see appear 
before you at any time. That change will be clear to you, as 
you see the effect of some of the budget decisions that are 
being made.
    So we are not averse to change, nor are we resistant. In 
fact, this body charges us to give you our personal best 
military advice. That is what you are getting today. You are 
getting it because we have a system in place right now that 
actually works remarkably well. We have one Army. We have one 
Air Force.
    I don't know what impact this will have. Therefore, you are 
sensing some reluctance on our part to embrace something. It 
could be that nothing changes. That would be the best possible 
outcome. But then one might say, well, if nothing is going to 
change, why are we changing?
    I would say the decision before you is one of context, the 
context of adding Craig McKinley to the Joint Chiefs, which, in 
some ways, would be a powerful symbol to our citizen soldiers. 
I got that.
    But the other context is the, for me, more compelling 
argument about turning to Ray Odierno and saying, ``I want 
soldiers from you,'' and I don't care if they are Active, 
Guard, or Reserve.
    So I don't know the answer to your question, Senator. But I 
am concerned about it.
    Senator Manchin. Well, let me just say this. I have the 
utmost confidence in all of you. I know that you wouldn't be in 
the position you were if the orders that were evaluated and 
then accepted and then fulfilled. I don't anticipate anything 
different from that.
    The thing that I observe is that truly the Guard is the 
only visible part of our Defense Department right now that the 
citizens of this great country can connect to. If it wasn't for 
the Guard, we wouldn't even know there was a conflict.
    But it is the moms and the pops and uncles and aunts and 
brothers and sisters that get redeployed, and that we are all 
there, sending them off. Our towns come out, and our States 
come out. They come home, and we welcome them home. We will cry 
with them. We mourn with them when we have a loss of one of our 
loved ones.
    So they are the fabric of our whole defense system. I think 
that is why some of us are so passionate about this piece of 
legislation to have an equal footing.
    I will finally say this, that there is not--I think you 
have to be as frustrated as maybe myself and other people 
around this country as they look at the functions of Congress 
right now. We can't come to agreement on anything. This is one 
thing I think we are agreeing on. Please don't deny us this 
moment. [Laughter.]
    Please don't deny us the chance to come together as 
Democrats and Republicans for the sake of this great country 
and put America first. That is what we are asking.
    So, with that, we might respectfully disagree, but we sure 
do respect--and hopefully that we respect you at the highest 
levels. I want to thank you, and we hope you would consider 
this legislation.
    I want to encourage the chairman to make sure that our 
leader, majority leader, knows how important it is for the 
NDAA--I am sure this will be an amendment to that legislation--
but for this bill to move forward. I know you have been working 
diligently, sir, and I support you 100 percent. We have to get 
this bill, and I support the Guard being a full standing 
member.
    Thank you so much.
    Chairman Levin. Thank you, Senator Manchin.
    This has been a very important hearing. We obviously have 
very divided views on this committee. I hope we get the bill to 
the floor. I hope we get it to the floor before we get to 
Thanksgiving.
    In any event, we have commitments that our bill will be 
coming to the floor. I am sure there will be an amendment, and 
I am sure there will be a very vigorous debate on an amendment 
on this particular issue.
    I think the fact that you have all appeared here today with 
such dignity, such character, and such directness, which we 
welcome--and it is important that we hear the views 
unvarnished. We got them from all of you.
    We got the legal opinion, which is what we sought, which 
was a legal opinion from you, Mr. Johnson. We did not seek 
policy from you, nor do you give policy when you are asked as a 
lawyer to appear before the committee.
    We are very grateful to you for your service. We thank our 
vets on the eve of Veterans Day, and we will stand adjourned.
    [Questions for the record with answers supplied follow:]
                Question Submitted by Senator Carl Levin
                            hurricane irene
    1. Senator Levin. Admiral Winnefeld, during the hearing there was a 
reference to preparations for Hurricane Irene, including the actions of 
the Joint Chiefs of Staff (JCS). Can you describe the role of the JCS, 
including The Joint Staff, related to preparations for Hurricane Irene, 
and provide a description of the role and actions of U.S. Northern 
Command (NORTHCOM)--the combatant command responsible for Homeland 
defense and defense support to civil authorities--to prepare for 
natural disasters such as Hurricane Irene?
    Admiral Winnefeld. As a former Commander of NORTHCOM, I have a 
great appreciation for the synergy and coordination between the 
Department of Defense (DOD), including the National Guard, and other 
Federal agencies in response to a natural disaster. Hurricane Irene was 
no exception and indeed showcased a key initiative with--and extensive 
coordination with--the National Guard and the Chief of the National 
Guard Bureau (CNGB). The DOD as a whole was proactive in establishing 
communications early and offering its collective support to the overall 
response effort. To facilitate enhanced coordination at the senior 
echelon, the Joint Staff stood up a Crisis Management Team responsible 
for synchronizing efforts of the JCS, the Office of the Secretary of 
Defense (OSD), NORTHCOM and the NGB on requests for assistance from the 
Federal Emergency Management Agency (FEMA), the primary coordinating 
agency for Federal disaster response.
    During Hurricane Irene, the Commander, NORTHCOM exercised his 
authority under the Secretary of Defense-approved Defense Support of 
Civilian Authority execution order by providing resources requested by 
Federal FEMA. DOD also appointed four National Guard officers as dual-
status commanders in support of relief efforts for Hurricane Irene, 
marking the first time the dual status commander concept has been 
implemented in support of a natural disaster. The dual-status commander 
concept, developed to foster effective and efficient cooperation among 
Federal and State assets during a domestic incident like Hurricane 
Irene, allows the appointed commander to direct both Federal Active-
Duty Forces and State National Guard Forces.
    Extensive formal and informal DOD coordination also occurred 
throughout the response effort. For example, the NGB Director of 
Operations (J-3) had daily two-star level communications with the Joint 
Staff, J-34, who serves as the Joint Staff lead for homeland issues. 
OSD, Joint Staff, and NGB also participated in daily NORTHCOM 
coordination meetings (three daily) during the response. Lastly, all 
DOD agencies participated in daily FEMA senior leader update meetings.
    NORTHCOM continuously prepares for and exercises its civil support 
mission through policy and product refinement, engagement, conferences, 
tabletop exercises, interagency rehearsal of concept drills, and large-
scale exercises.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                      joint chiefs of staff duties
    2. Senator Chambliss. Mr. Johnson, General Dempsey, Admiral 
Winnefeld, General Odierno, Admiral Greenert, General Amos, and General 
Schwartz, could you explain what the official duties of the JCS are, as 
reflected in the statutes that prescribe those duties?
    Mr. Johnson. Section 151 of title 10, U.S.C., establishes the 
duties of the JCS. Section 151 provides that the Chairman of the JCS is 
the principal military advisor, and that the other members of the JCS 
are military advisors, to the President, the National Security Council, 
the Homeland Security Council, and the Secretary of Defense. In 
addition, after first informing the Secretary of Defense, a member of 
the JCS may make such recommendations to Congress relating to DOD as he 
considers appropriate.
    General Dempsey and Admiral Winnefeld. The Chairman of the JCS is 
the principal military adviser to the President, the National Security 
Council, the Homeland Security Council, and the Secretary of Defense. 
The members of the JCS are also military advisers to the President, the 
National Security Council, the Homeland Security Council, and the 
Secretary of Defense.
    Subject to the authority, direction, and control of the President 
and the Secretary of Defense, the Chairman of the JCS is responsible 
for advising and assisting the President and the Secretary of Defense 
with: providing for the strategic direction of the Armed Forces; 
strategic planning; contingency planning; combatant command 
preparedness; requirements, military programs and budgets; and joint 
doctrine, training and education. The members of the Joint Chiefs may 
be required to consult with and provide advice to the Chairman, as he 
considers appropriate, in carrying out the Chairman's functions, duties 
and responsibilities.
    A member of the JCS (other than the Chairman) may submit to the 
Chairman advice or an opinion in disagreement with, or advice or an 
opinion in addition to, the advice presented by the Chairman to the 
President, the National Security Council, the Homeland Security 
Council, or the Secretary of Defense. If a member submits such advice 
or opinion, the Chairman must present the advice or opinion of such 
member at the same time he presents his own advice to the President, 
the National Security Council, the Homeland Security Council, or the 
Secretary of Defense, as the case may be.
    The members of the JCS, individually or collectively, in their 
capacity as military advisers, provide advice to the President, the 
National Security Council, the Homeland Security Council, or the 
Secretary of Defense on a particular matter when the President, the 
National Security Council, the Homeland Security Council, or the 
Secretary requests such advice.
    Additionally, after first informing the Secretary of Defense, a 
member of the JCS may make such recommendations to Congress relating to 
DOD as they consider appropriate.
    General Odierno. Under 10 U.S.C. section 151(b), the Chairman of 
the Joint Chiefs of Staff (CJCS) is the principal military advisor to 
the President, the National Security Council, the Homeland Security 
Council, and the Secretary of Defense. Under 10 U.S.C. section 151(c), 
the members of the JCS are also military advisors to the President, the 
National Security Council, the Homeland Security Council, and the 
Secretary of Defense.
    Under 10 U.S.C. section 153, subject to the authority, direction, 
and control of the President and the Secretary of Defense, the CJCS is 
responsible for advising and assisting the President and the Secretary 
of Defense with: providing for the strategic direction of the Armed 
Forces; strategic planning; contingency planning; combatant command 
preparedness; requirements, military programs and budgets; and joint 
doctrine, training and education. The members of the Joint Chiefs may 
be required to consult with and provide advice to the Chairman, as he 
considers appropriate, in carrying out the Chairman's functions, duties 
and responsibilities.
    Under 10 U.S.C. section 151(d), a member of the JCS (other than the 
Chairman) may submit to the Chairman advice or an opinion in 
disagreement with, or advice or an opinion in addition to, the advice 
presented by the Chairman to the President, the National Security 
Council, the Homeland Security Council, or the Secretary of Defense. If 
a member submits such advice or opinion, the Chairman must present the 
advice or opinion of such member at the same time he presents his own 
advice to the President, the National Security Council, the Homeland 
Security Council, or the Secretary of Defense, as the case may be.
    Under 10 U.S.C. section 151(e), the members of the JCS, 
individually or collectively, in their capacity as military advisors, 
provide advice to the President, the National Security Council, the 
Homeland Security Council, or the Secretary of Defense on a particular 
matter when the President, the National Security Council, the Homeland 
Security Council, or the Secretary requests such advice.
    Additionally, under 10 U.S.C. section 151(f), after first informing 
the Secretary of Defense, a member of the JCS may make such 
recommendations to Congress relating to DOD as they consider.
    Admiral Greenert. The Chairman of the JCS is the principal military 
adviser to the President, the National Security Council, the Homeland 
Security Council, and the Secretary of Defense. The members of the JCS 
are also military advisers to the President, the National Security 
Council, the Homeland Security Council, and the Secretary of Defense.
    Subject to the authority, direction, and control of the President 
and the Secretary of Defense, the Chairman of the JCS is responsible 
for advising and assisting the President and the Secretary of Defense 
with: providing for the strategic direction of the Armed Forces; 
strategic planning; contingency planning; combatant command 
preparedness; requirements, military programs and budgets; and joint 
doctrine, training and education. The members of the Joint Chiefs may 
be required to consult with and provide advice to the Chairman, as he 
considers appropriate, in carrying out the Chairman's functions, duties 
and responsibilities.
    A member of the JCS (other than the Chairman) may submit to the 
Chairman advice or an opinion in disagreement with, or advice or an 
opinion in addition to, the advice presented by the Chairman to the 
President, the National Security Council, the Homeland Security 
Council, or the Secretary of Defense. If a member submits such advice 
or opinion, the Chairman must present the advice or opinion of such 
member at the same time he presents his own advice to the President, 
the National Security Council, the Homeland Security Council, or the 
Secretary of Defense, as the case may be.
    The members of the JCS, individually or collectively, in their 
capacity as military advisers, provide advice to the President, the 
National Security Council, the Homeland Security Council, or the 
Secretary of Defense on a particular matter when the President, the 
National Security Council, the Homeland Security Council, or the 
Secretary requests such advice.
    Additionally, after first informing the Secretary of Defense, a 
member of the JCS may make such recommendations to Congress relating to 
DOD as they consider appropriate.
    General Amos. Under 10 U.S.C. section 155, the Joint Staff assists 
the CJCS, and subject to the Chairman's control, other members of the 
JCS in carrying out their responsibilities. The Joint Staff is 
independently organized and operated to support the CJCS in providing 
for the unified strategic direction of combatant forces, unified 
command of combatant forces, and to their integration into an efficient 
team of land, naval, and air forces.
    General Schwartz. The Joint Staff assists the Chairman of the JCS 
in accomplishing his responsibilities for: the unified strategic 
direction of the combatant forces; their operation under unified 
command; and for their integration into an efficient team of land, 
naval, and air forces.

    3. Senator Chambliss. Mr. Johnson, General Dempsey, Admiral 
Winnefeld, General Odierno, Admiral Greenert, General Amos, and General 
Schwartz, what is it that the law really requires the JCS to do?
    Mr. Johnson. Section 151 of title 10, U.S.C., establishes the 
duties of the JCS. Section 151 provides that the Chairman of the JCS is 
the principal military advisor, and that the other members of the JCS 
are military advisors, to the President, the National Security Council, 
the Homeland Security Council, and the Secretary of Defense. In 
addition, after first informing the Secretary of Defense, a member of 
the JCS may make such recommendations to Congress relating to DOD as he 
considers appropriate.
    General Dempsey and Admiral Winnefeld. The CJCS is the principal 
military adviser to the President, the National Security Council, the 
Homeland Security Council, and the Secretary of Defense. The members of 
the JCS are also military advisers to the President, the National 
Security Council, the Homeland Security Council, and the Secretary of 
Defense.
    Subject to the authority, direction, and control of the President 
and the Secretary of Defense, the CJCS is responsible for advising and 
assisting the President and the Secretary of Defense with: providing 
for the strategic direction of the Armed Forces; strategic planning; 
contingency planning; combatant command preparedness; requirements, 
military programs and budgets; and joint doctrine, training and 
education. The members of the Joint Chiefs may be required to consult 
with and provide advice to the Chairman, as he considers appropriate, 
in carrying out the Chairman's functions, duties and responsibilities.
    A member of the JCS (other than the Chairman) may submit to the 
Chairman advice or an opinion in disagreement with, or advice or an 
opinion in addition to, the advice presented by the Chairman to the 
President, the National Security Council, the Homeland Security 
Council, or the Secretary of Defense. If a member submits such advice 
or opinion, the Chairman must present the advice or opinion of such 
member at the same time he presents his own advice to the President, 
the National Security Council, the Homeland Security Council, or the 
Secretary of Defense, as the case may be.
    The members of the JCS, individually or collectively, in their 
capacity as military advisers, provide advice to the President, the 
National Security Council, the Homeland Security Council, or the 
Secretary of Defense on a particular matter when the President, the 
National Security Council, the Homeland Security Council, or the 
Secretary requests such advice.
    Additionally, after first informing the Secretary of Defense, a 
member of the JCS may make such recommendations to Congress relating to 
DOD as they consider appropriate.
    General Odierno. The CJCS is the principal military advisor to the 
President, the National Security Council, the Homeland Security 
Council, and the Secretary of Defense. The members of the JCS are also 
military advisers to the President, the National Security Council, the 
Homeland Security Council, and the Secretary of Defense.
    Subject to the authority, direction, and control of the President 
and the Secretary of Defense, the CJCS is responsible for advising and 
assisting the President and the Secretary of Defense with: providing 
for the strategic direction of the Armed Forces; strategic planning; 
contingency planning; combatant command preparedness; requirements, 
military programs and budgets; and joint doctrine, training and 
education. The members of the Joint Chiefs may be required to consult 
with and provide advice to the Chairman, as he considers appropriate, 
in carrying out the Chairman's functions, duties and responsibilities.
    A member of the JCS (other than the Chairman) may submit to the 
Chairman advice or an opinion in disagreement with, or advice or an 
opinion in addition to, the advice presented by the Chairman to the 
President, the National Security Council, the Homeland Security 
Council, or the Secretary of Defense. If a member submits such advice 
or opinion, the Chairman must present the advice or opinion of such 
member at the same time he presents his own advice to the President, 
the National Security Council, the Homeland Security Council, or the 
Secretary of Defense, as the case may be.
    The members of the JCS, individually or collectively, in their 
capacity as military advisors, provide advice to the President, the 
National Security Council, the Homeland Security Council, or the 
Secretary of Defense on a particular matter when the President, the 
National Security Council, the Homeland Security Council, or the 
Secretary requests such advice.
    Additionally, after first informing the Secretary of Defense, a 
member of the JCS may make such recommendations to Congress relating to 
DOD as they consider appropriate.
    Admiral Greenert. The Chairman of the JCS is the principal military 
adviser to the President, the National Security Council, the Homeland 
Security Council, and the Secretary of Defense. The members of the JCS 
are also military advisers to the President, the National Security 
Council, the Homeland Security Council, and the Secretary of Defense.
    Subject to the authority, direction, and control of the President 
and the Secretary of Defense, the Chairman of the JCS is responsible 
for advising and assisting the President and the Secretary of Defense 
with: providing for the strategic direction of the Armed Forces; 
strategic planning; contingency planning; combatant command 
preparedness; requirements, military programs and budgets; and joint 
doctrine, training and education. The members of the Joint Chiefs may 
be required to consult with and provide advice to the Chairman, as he 
considers appropriate, in carrying out the Chairman's functions, duties 
and responsibilities.
    A member of the JCS (other than the Chairman) may submit to the 
Chairman advice or an opinion in disagreement with, or advice or an 
opinion in addition to, the advice presented by the Chairman to the 
President, the National Security Council, the Homeland Security 
Council, or the Secretary of Defense. If a member submits such advice 
or opinion, the Chairman must present the advice or opinion of such 
member at the same time he presents his own advice to the President, 
the National Security Council, the Homeland Security Council, or the 
Secretary of Defense, as the case may be.
    The members of the JCS, individually or collectively, in their 
capacity as military advisers, provide advice to the President, the 
National Security Council, the Homeland Security Council, or the 
Secretary of Defense on a particular matter when the President, the 
National Security Council, the Homeland Security Council, or the 
Secretary requests such advice.
    Additionally, after first informing the Secretary of Defense, a 
member of the JCS may make such recommendations to Congress relating to 
DOD as they consider appropriate.
    General Amos. The CJCS is the principal military adviser to the 
President, the National Security Council, the Homeland Security 
Council, and the Secretary of Defense. The members of the JCS are also 
military advisers to the President, the National Security Council, the 
Homeland Security Council, and the Secretary of Defense.
    Subject to the authority, direction, and control of the President 
and the Secretary of Defense, the CJCS is responsible for advising and 
assisting the President and the Secretary of Defense with: providing 
for the strategic direction of the Armed Forces; strategic planning; 
contingency planning; combatant command preparedness; requirements, 
military programs, and budgets; and joint doctrine, training, and 
education. The members of the Joint Chiefs may be required to consult 
with and provide advice to the Chairman, as he considers appropriate, 
in carrying out the Chairman's functions, duties, and responsibilities.
    A member of the JCS (other than the Chairman) may submit to the 
Chairman advice or an opinion in disagreement with, or advice or an 
opinion in addition to, the advice presented by the Chairman to the 
President, the National Security Council, the Homeland Security 
Council, or the Secretary of Defense. If a member submits such advice 
or opinion, the Chairman must present the advice or opinion of such 
member at the same time he presents his own advice to the President, 
the National Security Council, the Homeland Security Council, or the 
Secretary of Defense, as the case may be.
    The members of the JCS, individually or collectively, in their 
capacity as military advisers, provide advice to the President, the 
National Security Council, the Homeland Security Council, or the 
Secretary of Defense on a particular matter when the President, the 
National Security Council, the Homeland Security Council, or the 
Secretary requests such advice.
    Additionally, after first informing the Secretary of Defense, a 
member of the JCS may make such recommendations to Congress relating to 
DOD as they consider appropriate.
    General Schwartz. The JCS are military advisers to the President, 
the National Security Council, the Homeland Security Council, and the 
Secretary of Defense as specified in title 10, U.S.C., subsections 151 
(d) and (e).
    Subsection 151(d) provides that a member of the JCS (other than the 
Chairman) may submit to the Chairman advice or an opinion in 
disagreement with, or advice or an opinion in addition to, the advice 
presented by the Chairman to the President, the National Security 
Council, the Homeland Security Council, or the Secretary of Defense. If 
a member submits such advice or opinion, the Chairman shall present the 
advice or opinion of such member at the same time he presents his own 
advice to the President, the National Security Council, the Homeland 
Security Council, or the Secretary of Defense, as the case may be.
    Subsection 151(e) provides that the members of the JCS, 
individually or collectively, in their capacity as military advisers, 
shall provide advice to the President, the National Security Council, 
the Homeland Security Council, or the Secretary of Defense on a 
particular matter when the President, the National Security Council, 
the Homeland Security Council, or the Secretary requests such advice.

    4. Senator Chambliss. Mr. Johnson, General Dempsey, Admiral 
Winnefeld, General Odierno, Admiral Greenert, General Amos, and General 
Schwartz, in light of the statutory requirements of the JCS, can you 
provide your views on how adding the CNGB to the JCS would be either 
consistent or inconsistent, help or not help, the JCS's ability to 
carry out their statutory responsibilities?
    Mr. Johnson. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 struck many carefully crafted balances of 
both intra- and inter-service equities. The CNGB represents only the 
Army and Air National Guards, and the proposed legislation would thus 
alter some of Goldwater-Nichols's careful balances by, for example: (a) 
altering the fact that each Service is statutorily represented by one 
Service Chief in the Joint Chiefs; and (b) providing only two of DOD's 
six statutory Reserve components with additional Joint Chiefs 
representation.
    In addition, elevating the CNGB to represent National Guard 
equities to the Joint Chiefs could create legal confusion as to whether 
the Army and Air Force Chiefs of Staff continue to represent their 
total force. Current law already requires the CNGB to advise the Army 
and Air Force Chiefs of Staff on all National Guard matters.
    Finally, any legislation should not add ambiguities with respect to 
authorities in the place where we can tolerate such ambiguity the 
least: at the top of the Service hierarchies, especially in time of 
war.
    General Dempsey and Admiral Winnefeld. If I believed that not 
having the CNGB sitting as a member of the JCS would expose the United 
States to otherwise avoidable risk, no matter how small, I would not 
hesitate to offer my full and unreserved endorsement for his full 
membership. This should be the litmus test: Would the CNGB add 
something that currently is missing from the JCS' present organization? 
As I've previously stated before the Committee, the CNGB already 
participates in all JCS meetings and I look to him as a trusted 
advisor. But my statutory responsibility to the President and Secretary 
of Defense is to act as the Nation's principal military advisor, and I 
personally do not believe that the CNGB's formal membership on the JCS 
would materially improve the quality or timeliness of my advice. I am 
ably supported by the Service Chiefs and the Vice Chairman, and can 
already count on the expert and frank advice of the CNGB, to aid my 
deliberations and understanding of the National Guard's key non-
Federalized roles.
    To the extent that the JCS is charged with providing advice on the 
Federal military capability of the United States, I believe including 
the CNGB on the JCS with a mandate to advise on the National Guard in 
its non-Federal capacity is inconsistent with the purpose of the JCS. 
Similarly, were the CNGB to offer his advice on the National Guard's 
Federal role, this would conflict with his statutory obligation to 
provide such advice through the Chiefs of Staff and Secretaries of the 
Army and Air Force. At the very least, I see the potential for a very 
confusing and inefficient arrangement being established.
    General Odierno. Adding the CNGB to the JCS would complicate title 
10 relationships for the Army, confuse the lines of authority and 
responsibility over the Army National Guard, and potentially interfere 
with the Secretary of the Army's (SecArmy) ability to support the Joint 
Force.
    Under 10 U.S.C. section 151(e), the members of the JCS, 
individually or collectively, in their capacity as military advisors, 
provide advice to the President, the National Security Council, the 
Homeland Security Council, or the Secretary of Defense on a particular 
matter when the President, the National Security Council, the Homeland 
Security Council, or the Secretary requests such advice. Under 10 
U.S.C. section 151(e), the CSA is the principal advisor to the 
President, the National Security Council, the Homeland Security 
Council, or the Secretary of Defense on matters pertaining to the Army. 
Addition of the CNGB as a standing member of the JCS, creates the 
potential to skew JCS decision making and advice in favor of (or 
against) the employment of Guard units, adversely affecting the ability 
of the Army to execute its mission.
    Under 10 U.S.C. section 10502, the CNGB is responsible for the 
organization and operations of the National Guard Bureau; is a 
principal advisor to the Secretary of Defense, through the CJCS, on 
matters involving non-Federalized National Guard forces and on other 
matters as determined by the Secretary of Defense; and is the principal 
advisor to the Secretary of the Army and the Chief of Staff of the Army 
(CSA), and to the Secretary of the Air Force and the Chief of Staff of 
the Air Force, on matters relating to the National Guard, the Army 
National Guard of the United States, and the Air National Guard of the 
United States.
    Addition of the CNGB as a standing member of the JCS, may place the 
CNGB in direct conflict with his duties under 10 U.S.C. section 10502 
to serve as the principal advisor to the Secretaries of the Army and 
Air Force and their Chiefs of Staff. The ``Total Army'' concept is well 
grounded in statute. The ARNGUS and Army National Guard are, by 
definition, part of the Army while ``in service of the United States.'' 
The SecArmy has responsibility for organizing and preparing the Army 
for combatant command missions and the CSA is his agent in this respect 
and is the Army's representative on the JCS. There should only be one 
voice representing the Army's interests on the JCS. Elevating the CNGB 
to the JCS creates the possibility of friction and differing opinions 
with respect to the organization, training, and deployment of National 
Guard forces. To the extent that the CNGB's advice differs from the 
CSA's, it may interfere with the SecArmy's authority to administer the 
Army in the manner he deems best to achieve its mission pursuant to his 
statutory mandate.
    Admiral Greenert. Making the CNGB a member of the JCS adds 
unnecessary complexity to the principle of ``unity of command'', and 
could confuse the intended clear and unambiguous source of best 
military advice to the Secretary of Defense and President. In my 
opinion, the Service Chiefs (Army, Air Force, Navy, and Marine Corps) 
should continue to be held singularly accountable to the executive and 
legislative branches of Government for the readiness and combat 
effectiveness of all personnel in their respective Services, and for 
the welfare of all their respective servicemembers and families. I 
believe the Service Chiefs are best positioned to report to the 
President and Congress on their Services' readiness and preparation for 
military missions that support our national interests.
    General Amos. I cannot overstate the dedication and bravery of our 
National Guard and Reserve Forces in the current fight. Because of 
their contributions and sacrifices, there is an understandable desire 
to extend an appropriate level of recognition to our Reserve Forces. 
However, I do not think that changing the national command structure is 
a necessary measure.
    Although the National Guard is undoubtedly instrumental in waging 
today's conflicts, I believe the CNGB lacks the requisite insight into 
all levels of strategic planning by virtue of his limited role in DOD, 
and more specifically, Army affairs. The JCS provides direct military 
advice to the President, the National Security Council, the Homeland 
Security Council, and the Secretary of Defense. In order for the JCS to 
carry out this duty, its members must be able to address the strategic 
direction of the Armed Forces. They must be capable of preparing 
strategic plans (to include plans that conform with resource levels); 
preparing joint logistic and mobility plans to support those strategic 
plans; performing net assessments to determine the capabilities of the 
Armed Forces; preparing contingency plans conforming to the guidance of 
the President and the Secretary of Defense; advising the Secretary of 
Defense on critical deficiencies and strengths in force capabilities 
(including manpower, logistic, and mobility support); establishing and 
maintaining a uniform system of evaluating the preparedness of each 
such command to carry out missions; and providing advice concerning the 
extent to which the program recommendations and budget proposals of DOD 
conform with the priorities established in strategic plans and with the 
priorities established for the requirements of the unified and 
specified combatant commands. Additionally, JCS members provide advice 
concerning the doctrine, training, and education of the Armed Forces. 
The JCS' responsibilities therefore require a leadership structure that 
is wholly dedicated to the national defense, and thoroughly 
knowledgeable of the processes that resource and develop our defense 
strategies and the programs and resources necessary to develop and 
maintain responsive capabilities. The staffs of each Service Chief gain 
this detailed understanding through multi-layered integration with the 
Joint Staff and key DOD staffs. The integration of the staffs is a key 
enabler of success. The preparation of strategic and other plans 
outlined above, therefore, requires much more than the ability to cast 
a vote. It requires participation at every level and an undivided 
focus. With its dual mission, supporting role, and State focus, the 
CNGB is not structured for full participation in the roles set for the 
Chiefs in title 10. Accordingly, I do not believe the CNGB has the 
currency or capability to assume the necessary level of engagement 
requisite for JCS membership.
    Additionally, including the CNGB into the JCS would create 
unnecessary duplication within JCS because the federalized National 
Guard, as the Army's Reserve component, serves in a supporting role. 
This duplication could result in an unfairly amplified representation 
of Army and Air Force concerns. It will also create a representational 
imbalance with regard to Reserve affairs in favor of the federalized 
National Guard. The Army and Air Force Chiefs of Staff are best suited 
to equitably advise on the most effective employment of their 
supporting elements.
    Moreover, providing full membership to the National Guard Bureau--
an organization not primarily responsible for the planning and 
execution of national strategy--would not only be unprecedented; it 
would be an extraordinary solution to an unclear problem. When Congress 
established DOD, it codified a policy calling for the elimination of 
unnecessary duplication in DOD. This policy exists in title 10 today, 
in an effort to seek more effective, efficient, and economical 
administration not only in DOD but in the national command structure. 
The role of the National Guard, when executing a Federal mission, is to 
integrate with and execute missions in support of the Army and Air 
Force Chiefs of Staff. In preparation for these missions, and in 
recognition of its supporting role, the Guard trains with these 
Services and at their schools.
    For title 32, non-federalized National Guard matters, the CNGB 
serves as the principal adviser to the Secretary of Defense through the 
CJCS. In this title 32 capacity, no unnecessary duplication exists 
because the CNGB is uniquely situated to channel communications between 
the several States and the Secretary of Defense. Where Congress 
federalizes the National Guard, however, the CNGB serves as the 
principle adviser to the Secretary of the Army, the Army Chief of 
Staff, the Secretary of the Air Force, and the Air Force Chief of 
Staff. Due to the importance of this supporting role, the CNGB 
appropriately maintains an advisory voice within the JCS. Not only is 
this structure intuitive, it reflects the intent behind current policy 
to use the federalized National Guard and Air National Guard as the 
Army's and Air Force's Reserve component.
    General Schwartz. Adding the CNGB to the JCS would be inconsistent 
with the statutory requirements of the JCS and would not help the JCS's 
ability to carry out their statutory responsibilities. The JCS exists, 
in large part, to provide military advice on employment of Federal 
forces. Under existing law, for matters concerning National Guard 
forces operating in a non-Federal capacity, the Chief of the Guard 
Bureau provides the Secretary of Defense with input through the 
Chairman of the JCS. Because the Chief of the Guard Bureau does not 
represent a single or separate branch of Service, making the Chief of 
the Guard Bureau a statutory member of the (JCS) would reach beyond the 
appropriate authorities of the Chief of the Guard Bureau and disrupt 
the lines of authority and representation that are already in place for 
the Chiefs of Staff of the U.S. Army and Air Force. Also, Total Force 
employment considerations are best served by those who organize, train, 
and equip personnel of all components of each Service, and are 
responsible as force providers to the combatant commands. Consequently, 
Chief of the Guard Bureau membership on the JCS presents issues 
concerning his or her appropriate role in offering advice on employment 
of the Armed Forces in a designated title 10 role. Beyond the 
established relationships among the military Services, interactions 
with interagency and international partners could also be confused.

                           guard and reserve
    5. Senator Chambliss. General Dempsey, Admiral Winnefeld, General 
Odierno, Admiral Greenert, General Amos, and General Schwartz, please 
elaborate on how including the Chief of the Guard Bureau on the JCS 
would affect the role, status, and relative influence of the other 
Reserve components, the Army, Air Force, Navy, and Marine Corps 
Reserve.
    General Dempsey and Admiral Winnefeld. The disproportionate 
influence of any Service component, real or imagined, has the potential 
for causing some significant negative second and third order effects. I 
am concerned with the perception of inequity among the Reserve 
component that could stem from the CNGB membership on the JCS, and how 
this might then degrade the balance and unity of effort so deliberately 
and painstakingly built into our very effective Total Joint Force. For 
any of the Federal Reserves to become (or feel) disenfranchised by what 
they view as the fundamental elevation of the National Guard--in terms 
of importance and influence--would erode this balance. This would be 
occurring at a critical juncture in our history, when fiscal realities 
are compelling DOD to seek even greater efficiencies from the Total 
Force and increased reliance on the Reserve component.
    With respect to the role and status of the Federal Reserves, I do 
not believe these would be affected by membership of the CNGB as they 
are largely the object of law and policy. Whereas the actual or 
perceived influence of a component might impact organizational 
efficiencies, component roles and status are relatively fixed. The 
Service Chiefs and Service Secretaries bear sole responsibility for the 
resource decisions necessary to produce an organized, trained and 
equipped force, and this includes their Federal Reserves and the 
National Guard. Each Service determines the resourcing, readiness, and 
projected roles for its Reserve component--this fact would not be 
affected by CNGB's JCS membership.
    General Odierno. It is absolutely vital in today's uncertain and 
complex strategic environment that we maintain One Army. The Secretary 
of the Army is responsible for generating Total Army readiness under a 
fully integrated set of title 10 processes. There is no benefit to 
dividing up Army components.
    The JCS serve a vital role to the national leadership, as well as 
exercising collective judgment regarding future capabilities and 
requirements. Separating the Army interests may lead to improper 
representation since the CNGB represents only two of the seven Reserve 
components.
    Admiral Greenert. Making the CNGB a member of the JCS may add 
ambiguity to the status of the Army and Air National Guard as Reserve 
components of the Army and Air Force. The creation of this additional 
member of the JCS can create the appearance that the National Guard is 
a separate service and potentially create inequity between the National 
Guard and the Navy Reserve component.
    General Amos. As noted in the JCS letters to this committee (see 
letters following this answer), elevating the role of the CNGB would 
further segment one community of reservists--a community that is 
already challenged with executing its dual mission. When the National 
Guard is federalized, the command relationship between the CNGB and the 
Army Chief of Staff mirrors the Navy and Marine Corps' unified command 
relationship for their Reserve components. The Marine Forces Reserve, 
for example, as the Reserve component for the Marine Corps, is 
organized, trained, and equipped under the Commandant of the Marine 
Corps. This Service identification and matriculation enhances unity of 
command and the cohesion of combat units. In my interactions with 
Marine reservists, I have noted their pride and motivation in simply 
continuing their service to the Nation as marines. I applaud the lack 
of cultural distinction between Active Duty and Reserve marines, and I 
am confident that this same motivation also drives reservists in other 
Services to step forward. The proposed elevation of the CNGB risks 
fracturing the successful dynamic that our forces have achieved by 
diluting the understanding of the supporting and supported command 
relationships, and unbalancing the appropriate preparation of our 
Active and Reserve Forces.
    Including the CNGB into the JCS would create unnecessary 
duplication within the JCS contrary to current policy because the 
federalized National Guard, as the Army's Reserve component, serves in 
a supporting role. This duplication could result in an unfairly 
amplified representation of Army and Air Force concerns. It will also 
create a representational imbalance with regard to Reserve affairs in 
favor of the federalized National Guard. The Army and Air Force Chiefs 
of Staff are best suited to equitably advise on the most effective 
employment of their supporting elements.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    General Schwartz. Consistent with the unity of effort embodied in 
our Total Force approach, military advice in all matters concerning the 
U.S. Air Force should come from the Chief of Staff. It is not a matter 
of whether the Chief of the Guard Bureau is the most knowledgeable 
source of information regarding the National Guard Bureau, it is 
whether the Chief of the Guard Bureau is in a position to balance and 
speak for all the components of the Air Force, of which the National 
Guard Bureau is only one part. In addition, resource decisions that 
implicate the National Guard also implicate all other components of the 
Services and cannot be addressed in a vacuum. They must take into 
account the simultaneous requirements of all combatant commanders (not 
just NORTHCOM). Indeed, only a holistic service voice within the JCS 
can provide the JCS the integrated representation of the Air Force that 
is needed to capture Total Force capabilities.

    6. Senator Chambliss. General Dempsey, Admiral Winnefeld, General 
Odierno, Admiral Greenert, General Amos, and General Schwartz, much has 
changed over the past decade with respect to the role the Guard and 
Reserve have played in DOD's daily activities and deployments. We will 
probably never go back to the pre-September 11 days of the Strategic 
Reserve. How does this influence the way you view this issue?
    General Dempsey and Admiral Winnefeld. While I devote considerable 
energy on Reserve component aspects of our Joint Total Force, I don't 
see how the increased employment of the Reserve component fundamentally 
is germane to the issue of adding the CNGB to the JCS. It does not 
matter whether the Reserve component is assigned a minimal role and 
cast as a ``Strategic Reserve'' or is assigned to execute key missions 
and is postured as an ``operational force''--Reserve component 
utilization ultimately is a Service function.
    The organization of our Armed Forces is defined in law. The Army 
consists of the Regular Army, the Army National Guard of the United 
States, and the Army Reserve, the whole of which is overseen by the 
Chief of Staff of the Army. Likewise, the Air Force is comprised of the 
Regular Air Force, the Air National Guard of the United States, and the 
Air Force Reserve (AFR), the whole of which is managed by the Chief of 
Staff of the Air Force. While all the Reserve component chiefs, to 
include the CNGB, possess significant Service-directed responsibilities 
related to maintaining their components' readiness, they nevertheless 
remain but parts of the larger whole. The Service Chiefs bear ultimate 
responsibility for preparing their Total Force. Rising OPTEMPO and 
increasing interdependence among all components has not altered this 
fact.
    General Odierno. The Army's intent is to develop and sustain an 
enduring operational Reserve component. Reserve component forces, both 
Guard and Reserve, are crucial elements of the Army's overall 
deployable strength and warfighting team. They provide essential 
operational capabilities and serve specific functions to the Total 
Army. The Reserve component provides necessary capacity to address 
global operational requirements, maximize readiness, and provide 
rotational availability while preserving Homeland Defense and Homeland 
Security capabilities. The Total Army cannot function as it has over 
the past decade without tightly integrated Active and Reserve Forces.
    Both Active and Reserve components will contribute to Army force 
requirements. The Reserve component will contribute mission trained 
steady state, Homeland Defense and surge forces. As an Operational 
Reserve, Reserve component forces maintain readiness levels that enable 
them to serve as part of an enduring commitment to the Total Army 
operations.
    Admiral Greenert. I agree that much has changed with respect to the 
role the Guard and Reserve plays in the DOD's daily activities and 
deployments. After more than a decade of conflict, the Navy Reserve is 
more fully integrated with our Active component than ever before and is 
no longer strictly a Strategic Reserve, but an integrated part of 
Navy's Total Force. The past 10 years have proven that the Navy Reserve 
can operate anywhere along the spectrum of military operations. As long 
as the Navy has assured access to their Reserve component sailors, 
naval commanders can confidently assign missions to members of the Navy 
Reserve where it makes operational and fiscal sense. This subordination 
of the Reserve component to the Service Chief enables the CNO to be 
held singularly accountable to the executive and legislative branches 
of government for the combined readiness and combat effectiveness of 
their service for military missions that support our national 
interests. Adding the CNGB to the JCS could erode this unity of command 
for the Army and Air Force.
    General Amos. I believe these facts enhance my position. As noted 
in the recent JCS letter to this committee (see response to question 
#5), CNGB membership in the JCS would complicate unity of command for 
both the Army and the Air Force and contribute to Service 
balkanization. The current organizational structure ensures that the 
Chiefs of Staff of the U.S. Army and the U.S. Air Force are held 
singularly accountable to the executive and legislative branches of 
Government for the readiness and combat effectiveness of their 
respective Services, including their Reserves. This is as it should be, 
and is the intent behind current policy. Unity of purpose and of 
command is crucial in both the preparation and employment phases of the 
Armed Forces. As it relates to making decisions for the defense of the 
Nation and the preparations necessary for the achievement of its 
national objectives, success requires single-mindedness.
    CNGB membership on the JCS also could create an unhealthy ambiguity 
in the responsibility for leading the men and women of the National 
Guard. As a Service Chief, I fully subscribe to the notion that I am 
singularly accountable for the welfare of all marines and their 
families, Active and Reserve. As Commandant of the Marine Corps, I have 
the same responsibility to Marine Forces Reserve as I do to regular 
Active-Duty Forces. The missions for which all marines are trained and 
equipped are unified with the command structure that leads them. 
Bifurcating leadership, however, might lead to critical leadership gaps 
recognizable only after some future failure occurs. Most concerning, 
these gaps could affect the responsibility of caring for these troops 
and their families. For the sake of our reservists and their families, 
we cannot afford such a risk.
    General Schwartz. Senator Chambliss, your comments resonate with 
the experience we have gained over the past decade. Much has changed 
with respect to the role of the Guard and Reserve in our National 
defense and I would say for the betterment of the Department and the 
Nation. The Air Force has learned that the operations we have conducted 
would not have been possible without the superlative teamwork of the 
Total Force. I have walked the flightlines at Balad Air Base in Iraq, 
Bagram Air Base in Afghanistan, Dover AFB, and Hickam, and I have met 
outstanding Airmen from across the Nation. I cannot tell the difference 
between a guardsman, a reservist, or an Active Duty airman. All are 
doing exceptional work for this country.
    Our challenge now is to develop and maintain the operational 
training and capacity we need with a smaller force and fewer dollars 
while maintaining the edge as the world's greatest air force. The Air 
Force will stay focused on strategic priorities and continue to build a 
Total Force that improves key capabilities and supports strategic 
priorities while reducing other capabilities we can no longer offer to 
the joint team. Even though it is likely that substantial reductions 
will be required to meet budget projections--including force structure 
and infrastructure--we will continue to rely on the capabilities of the 
Total Force Enterprise to meet our mission.

    7. Senator Chambliss. General Dempsey, Admiral Winnefeld, General 
Odierno, Admiral Greenert, General Amos, and General Schwartz, does the 
larger role the Guard and Reserve are playing now make a difference 
when you are considering this issue of whether to add the Chief of the 
Guard Bureau to the JCS?
    General Dempsey and Admiral Winnefeld. I believe that the overall 
role of the National Guard and Reserve--regardless of how big that role 
is--really is a separate issue from that of the CNGB's membership on 
the JCS. The Services are responsible to organize, equip and train 
their Reserve components, and the Reserve components' ability to 
accomplish their assigned missions largely is a function of this 
Service preparation. We unquestionably have depended on our Citizen 
soldiers, airmen, sailors, and marines to help defend the United States 
as well as our allies and national interests to a greater degree than 
prior to September 11. This dependence is unlikely to fundamentally 
change in the future. The security threats we face at home and abroad, 
as well as the expectations levied on our military to respond to these 
threats, have increased significantly over the past two decades, and 
largely have driven our increased utilization of the Reserve component 
for overseas and domestic requirements. But this increased utilization 
was accommodated within the Service Chiefs' existing authorities. JCS 
membership clearly was not necessary for the CNGB to exercise his 
statutory duties related to leveraging the National Guard in support of 
DOD's operational objectives, and I do not believe it will be necessary 
in the future.
    General Odierno. The Guard and Reserve are part of the Total Army; 
Active and Reserve component. The number of deployments and the size of 
their role are not central to this issue. The Guard and Reserve have 
assumed an expanded role over the past decade because the Nation needed 
increased resources from the Total Army. As we go forward, their active 
involvement in contingencies will continue and is a vital component of 
land power within the Joint Force. The efforts of all three components 
of the Total Army need to be integrated. This integration requires one 
civilian and one military leader supported by the Department of the 
Army staff. Any dilution of command unity runs counter to professional 
military principals and is not in the best interest of our Army and the 
Nation.
    Admiral Greenert. In my statement to the committee and my testimony 
on this issue, I have thought about and considered the larger role the 
National Guard and Reserve component assumed over the past 10 years and 
will continue to hold in the future. However, I still believe the 
Service Chiefs (Army, Air Force, Navy and Marine Corps) should continue 
to be held singularly accountable to the executive and legislative 
branches of Government for the readiness and combat effectiveness of 
all personnel in their respective Services, and for the welfare of 
their respective servicemembers and families. The Service Chiefs are 
best positioned to report to the President and Congress on their 
Services' readiness and preparation for military missions that support 
our national interests.
    General Amos. As noted in the recent JCS letter to this committee 
(see response to question #5), CNGB membership in the JCS would 
complicate unity of command for both the Army and the Air Force and 
contribute to Service balkanization. The current organizational 
structure ensures that the Chiefs of Staff of the U.S. Army and the 
U.S. Air Force are held singularly accountable to the executive and 
legislative branches of Government for the readiness and combat 
effectiveness of their respective Services, including their Reserves. 
This is as it should be, and is the intent of current policy. Unity of 
purpose and of command is crucial in both the preparation and 
employment phases of the Armed Forces. As it relates to making 
decisions for the defense of the Nation and the preparations necessary 
for the achievement of its national objectives, success requires 
single-mindedness.
    CNGB membership on the JCS could also create an unhealthy ambiguity 
in the responsibility for leading the men and women of the National 
Guard. As a Service Chief, I fully subscribe to the notion that I am 
singularly accountable for the welfare of all marines and their 
families, Active and Reserve. As Commandant of the Marine Corps, I have 
the same responsibility to Marine Forces Reserve as I do to regular 
Active-Duty Forces. The missions for which all marines are trained and 
equipped are unified with the command structure that leads them. 
Bifurcating leadership, however, might lead to critical leadership gaps 
recognizable only after some future failure occurs. Most concerning, 
these gaps could affect the responsibility of caring for these troops 
and their families. For the sake of our reservists and their families, 
we cannot afford such a risk.
    General Schwartz. No. Because the CNGB does not represent a single 
or separate branch of Service, making CNGB a statutory member of the 
JCS would reach beyond the appropriate authorities of the CNGB and 
disrupt the lines of authority and representation that are already in 
place for the Chief of Staff of the Air Force. Also, Total Force 
employment considerations are best served by those who organize, train, 
and equip personnel of all components of each Service, and are 
responsible as force providers to the combatant commands. Consequently, 
CNGB membership on the JCS presents issues concerning his or her 
appropriate role in offering advice on employment of the Armed Forces 
in a designated title 10 role. Beyond the established relationships 
among the Military Services, interactions with Interagency and 
international partners could also be confused.

    8. Senator Chambliss. General Dempsey, Admiral Winnefeld, General 
Odierno, Admiral Greenert, General Amos, and General Schwartz, can you 
explain what role the Guard and Reserve play in the Joint Requirements 
Oversight Council (JROC) process?
    General Dempsey and Admiral Winnefeld. The Total Force includes 
significant capability provided by the National Guard. Because the 
Guard and Reserve use the same equipment as the Active component, their 
requirements are an integral part of Service processes. Accordingly, 
the National Guard Bureau does not have a voting member on the JROC. 
Title 10 equities are advocated by the individual Service Chiefs. 
Additionally, as part of the Joint Capabilities Integration and 
Development System (JCIDS) process, the National Guard Bureau is given 
the opportunity to coordinate on every requirements proposal that comes 
before the Joint Staff.
    The Reserves are represented individually by each of their 
corresponding Services.
    General Odierno. The Total Force includes significant capability 
provided by the National Guard. The National Guard Bureau does not have 
a voting member on the JROC. Their requirements and budgets are planned 
and executed as an integral part of Service processes. Their title 10 
equities are advocated by the individual Service Chiefs. Additionally, 
as part of the JCIDS process, the National Guard Bureau is given the 
opportunity to coordinate on every requirements proposal that comes to 
the Joint Staff.
    The Reserves are represented individually by each of their 
corresponding Services.
    Admiral Greenert. The Total Force includes significant capability 
provided by the National Guard and the respective Service Reserve 
components. The National Guard Bureau does not have a voting member on 
the JROC. Their requirements and budgets are planned and executed as an 
integral part of service processes. Their title 10 equities are 
advocated by the individual Service Chiefs. Additionally, as part of 
the JCIDS process, the National Guard Bureau is given the opportunity 
to coordinate on every requirements proposal that comes to the Joint 
Staff.
    As the Navy principal to the JROC, the Vice Chief of Naval 
Operations (VCNO) represents Navy's Total Force (Active and Reserve) 
perspective for requirements and warfighting.
    General Amos. The Total Force includes significant capability 
provided by the National Guard. The National Guard Bureau does not have 
a voting member on the JROC. Their requirements and budgets are planned 
and executed as an integral part of Service processes. Their title 10 
equities are advocated by the individual Service Chiefs. Additionally, 
as part of the JCIDS process, the National Guard Bureau is given the 
opportunity to coordinate on every requirements proposal that comes to 
the Joint Staff.
    The Reserves are represented individually by each Service.
    General Schwartz. Under current guidance, the NGB does not have an 
official role in the JROC process. However, the NGB will have an 
advisory role to the JROC Chairman in the revised JROC Charter (CJCSI 
5123.01F). The Reserve does not have an advisory role in the JROC 
process.
    Both the Air National Guard and Air Force Reserve Command (AFRC) 
are permanent (voting) members of the Air Force Requirements Oversight 
Council (AFROC). The AFROC reviews, validates, and recommends approval 
of all Air Force operational capability requirements. The AFROC 
directly supports the JROC process.
    In addition, both the Air National Guard and AFRC have the 
authority to sponsor operational capability requirements for 
capabilities needed to accomplish their assigned missions.
    Finally, the Guard and Reserve have the opportunity to review all 
Air Force and Joint operational requirements documents through the 
formal staffing process associated with the JCIDS and the JROC.

    9. Senator Chambliss. General Dempsey, Admiral Winnefeld, General 
Odierno, Admiral Greenert, General Amos, and General Schwartz, how are 
Guard and Reserve inputs received and incorporated?
    General Dempsey and Admiral Winnefeld. As part of the Total Force, 
National Guard and Reserve requirements can be advocated by any 
combatant command (including and especially NORTHCOM or U.S. Pacific 
Command), by the individual Services, and by other DOD components and 
agencies.
    General Odierno. Reserve components actively participate in both 
Army and Joint requirements forums. They provide essential insights and 
advice to the Service Chiefs and Secretaries on matters that pertain to 
resourcing and producing an organized, trained and equipped force. The 
success of our Army is due to the integration of our Active and Reserve 
components to the point they are indistinguishable on the battlefield. 
The integration of the Regular Army, the Army National Guard, and the 
Army Reserves has proven over the last decade to be unbeatable on the 
battlefield and irreplaceable at home and abroad. We have built a 
strong relationship between all of our Army components, probably the 
strongest we have ever had. At the Joint level, the CNGB has a standing 
invitation to attend all meetings with the Joint Chiefs which will 
further strengthen our relationship and ensure their voice is heard.
    Admiral Greenert. Navy Active and Reserve warfighting requirements 
are received and integrated through the Navy's requirements management 
process. The Chief of Navy Reserve (CNR) and Navy Reserve personnel 
have the opportunity to submit requirements, and to review and comment 
on Navy requirements in development. The Deputy CNR is invited to all 
Navy Requirements and Resources Review Boards (R3B), the Navy 
equivalent of the JROC.
    After Navy review, Navy requirements are submitted for Joint Review 
and JROC validation. As the Navy principal to the JROC, the Vice Chief 
of Naval Operations (VCNO) represents the Navy's Total Force (Active 
and Reserve) perspective on requirements and warfighting.
    General Amos. Our Reserve component submits its requirements 
through the Marine Corps requirements management process. The 
Commander, Marine Forces Reserve (MARFORRES) and the MARFORRES staff 
may also review and comment on Marine requirements in development to 
ensure that the process addresses any criteria unique to the Reserve 
component. The Marine Corps provides a Total Force perspective to the 
JROC, including requirements arising from MARFORRES.
    General Schwartz. The Reserve components contribute to our national 
security in support of every combatant commander and Air Force core 
function, delivering the right capabilities to the right place at the 
right time. The Reserve components' contributions to the Joint and 
Coalition team are felt worldwide. Guard and Reserve members have 
inputs into Air Force decisions at all levels, through the Air Force 
Corporate Structure (AFCS) and throughout Air Force Strategic Planning 
System processes. This integration of effort allows for senior-level 
cross component discussions to refine our Total Force planning, 
requirements, programming, budgeting, execution, and acquisition 
efforts. Initiatives are vetted through the AFCS for approval and 
linked to resource allocation, ensuring the initiatives approved are 
appropriately funded. The Corporate Structure is the formal Air Force 
process to inform Air Force senior leaders so they can provide 
strategic direction on total force planning, programming, and 
execution. The AFR and Air National Guard have membership at each level 
of the AFCS, to include voting members on the Air Force Group, Board 
and Council. The AFCS increases overall management effectiveness by 
applying cross-functional judgment, experience, and analysis to program 
adjustments in a resource limited environment. The Air Force will 
continue to refine integration efforts of all three components to 
ensure the most efficient and effective capabilities are delivered to 
meet strategic requirements.

    10. Senator Chambliss. General Dempsey, Admiral Winnefeld, General 
Odierno, Admiral Greenert, General Amos, and General Schwartz, do you 
feel those inputs are adequately considered?
    General Dempsey and Admiral Winnefeld. The Services have never been 
closer to their Reserve components. Because they use the same equipment 
as the Active component, National Guard, and Reserve requirements are 
not normally broken out as distinct and separate from the Total Force 
requirements being considered during combined staffing during the JCIDS 
process, or by the JROC when validating those requirements.
    General Odierno. Absolutely. Now more than ever we are one Army and 
an integrated Joint Force that is indistinguishable as a fighting 
force. The integration of the Regular Army, the Army National Guard, 
and the Army Reserves has proven over the last decade to be unbeatable 
on the battlefield and irreplaceable at home and abroad. The Reserve 
component forces will continue to play a critical role in our National 
Security Strategy, and the advice of the CNGB will always be, as it has 
been, extremely valuable to our Army and Joint Forces. The relationship 
between all of components is the strongest it's ever been. The Reserve 
components will continue to have a voice in Army and Joint forums to 
keep the relationship strong. They actively participate and provide 
essential insights and advice to the Service Chiefs and Secretaries on 
matters that pertain to resourcing and producing an organized, trained 
and equipped force. At the joint level, the CNGB has a standing 
invitation to attend all meetings with the Joint Chiefs.
    Admiral Greenert. Yes, they are adequately considered. There is no 
distinction in consideration of Reserve and Active requirements input 
into the Navy requirements process or the joint requirements process.
    General Amos. Yes, they are adequately considered. There is no 
distinction in the consideration of Reserve component and Active 
component requirements input into the Marine Corps requirements process 
or the joint requirements process. We are one fighting force.
    General Schwartz. Yes. The AFR and Air National Guard (ANG) are an 
integral part of the Total Air Force and we would not be able to do 
what we do on a daily basis without soliciting and incorporating their 
inputs. The AFR and ANG are Total Force partners and are completely 
embedded in our staffing, planning, and execution of operations on a 
daily basis.

    11. Senator Chambliss. General Dempsey, Admiral Winnefeld, General 
Odierno, Admiral Greenert, General Amos, and General Schwartz, in your 
view do the Guard and Reserve have any separate and unique 
requirements, or are their requirements essentially the same as the 
Active Duty's requirements?
    General Dempsey and Admiral Winnefeld. As part of the Total Force, 
the National Guard and Reserve make critical contributions to the 
overall military capabilities of the United States. While the National 
Guard may have some unique requirements to meet their title 32 
missions, all their title 10 missions are met with the same equipment 
used by the other Title 10 forces, whose requirements are determined 
and addressed through coordination with the applicable combatant 
command (NORTHCOM or U.S. Pacific Command) and/or Service.
    General Odierno. As part of the Total Force, the National Guard and 
Reserve make critical contributions to the overall military 
capabilities of the United States. While the National Guard may have 
some unique requirements to meet their title 32 missions, all their 
Title 10 missions are met with the same equipment used by the other 
title 10 forces, whose requirements are determined and addressed 
through coordination with the applicable combatant command (NORTHCOM or 
U.S. Pacific Command) and/or Service.
    Admiral Greenert. Navy Reserve warfighting requirements are the 
same as Active Navy requirements. Reserve Forces have unique manning 
and training challenges to achieve those requirements, but the 
warfighting requirements and associated systems are the same.
    General Amos. Under title 10 U.S.C. section 10102, each Reserve 
component is to provide trained units and qualified persons available 
for Active Duty in the Armed Forces, in time of war or national 
emergency, and at such other times as the national security may 
require, to fill the needs of the Armed Forces whenever more units and 
persons are needed than are in the regular components. Reserve Forces 
have unique manning and training challenges to achieve these 
requirements, but the warfighting requirements and associated systems 
are the same.
    General Schwartz. The operational requirements of the AFRC are 
essentially the same as the requirements for the Active-Duty Force. 
AFRC addresses the same combatant commander concept of operations 
shortfalls as does the Active-Duty Force.
    The operational requirements associated with the title 10 mission 
of the Air National Guard are essentially the same as the requirements 
for the Active-Duty Force. However, the requirements associated with 
title 32 and State Active Duty are unique. These Guard missions focus 
on Homeland defense and civil support. They include direct support for 
Homeland security missions such as border patrol, counter drug, and law 
enforcement. These mission sets have the potential to drive separate 
operational capability requirements for the Air National Guard.

    12. Senator Chambliss. General McKinley, I am particularly 
interested in how you believe being a member of the JCS will help the 
DOD and the Nation. I understand it may help the Guard, particularly in 
terms of stature. However, I would like your views on how your 
inclusion on the JCS would help provide better advice to the President 
on issues under DOD's purview, and how it would help DOD better carry 
out their own responsibilities on behalf of the Nation.
    General McKinley. The National Guard Bureau is currently a joint 
activity of DOD, and the CNGB has gained enhanced authorities since 
2008. And yet, the CNGB still does not have an institutional position 
from which he can advise the President, National Security Council, 
Homeland Security Council, and Congress on non-Federalized National 
Guard forces that are critical to Homeland defense and civil support 
missions. In contrast, the CNGB advises the Secretary of Defense 
through the Chairman of the JCS on matters involving non-Federalized 
National Guard forces. The CNGB must declare an interest in order to 
have a voice on these limited matters; without statutory JCS 
membership, CNGB's JCS participation is ad hoc as determined by each 
successive Chairman.
    Adding the CNGB to the JCS would ensure that, in the post-September 
11 security environment, the National Guard's non-Federalized role in 
Homeland defense and civil support missions will be fully represented 
in all JCS deliberations. Only full JCS membership for the CNGB will 
ensure that the non-Federalized National Guard responsibilities and 
capabilities are considered in a planned and deliberate manner that is 
firmly rooted in the law and the National strategy.
    The domestic mission of the National Guard must be taken into 
account when making military contingency plans, when allocating scarce 
readiness resources, and when advising the President, the Secretary of 
Defense, the National Security Council and the Homeland Security 
Council on strategies and contingency response options. Homeland 
Defense and Civil Support must be at the core of our National strategy 
due to the changing threat environment, one that is asymmetric and more 
dangerous within our Homeland than at any time in our history.

    13. Senator Chambliss. General McKinley, do you believe the Reserve 
components are adequately represented on the JROC and, related to that, 
do you believe the Guard and Reserve have any truly unique requirements 
that necessitate specific representation by the Guard and Reserve on 
the JROC?
    General McKinley. The JROC consists of officers in the grade of 
general or admiral from the Army, Navy, Air Force, and Marine Corps. 
The JROC also includes advisors from the Under Secretary of Defense for 
Acquisition, Technology, and Logistics and the Under Secretary of 
Defense for Comptroller as well as the Director of Cost Assessment and 
Program Evaluation. Combatant commanders and members of the Functional 
Capabilities Board (FCB) have a standing invitation to participate in 
JROC events. The National Guard Bureau participates on the JROC as a 
member of the FCB. The FCB is a permanently established body that is 
responsible for supporting the Chairman of the JCS in his title 10 
responsibilities of providing independent military advice to the 
Secretary of Defense. FCBs provide the assessments and recommendations 
required for the JROC to validate and prioritize (if required) joint 
military capabilities needed to comply with the guidance provided by 
the Quadrennial Defense Review, National Defense Strategy, Guidance for 
Development of the Force, Guidance for Employment of the Force, and 
National Military Strategy.
    The National Guard has unique dual capabilities. The JROC has 
validated numerous unique National Guard capabilities for domestic 
operations including: State Joint Force Headquarters; CBRNE Enhanced 
Response Force Packages; Joint Interagency Training Capability; and 
Critical Infrastructure Protection--Mission Assurance Assessment Teams.

    14. Senator Chambliss. General McKinley, what are your views on how 
including the Chief of the Guard Bureau would affect the other Reserve 
components who would, presumably, not be members of the JCS? In your 
view, why would this not negatively affect joint-ness and the total 
force concept that we have worked so hard to achieve?
    General McKinley. The National Guard is unique, thanks to the 
Militia Clauses of the U.S. Constitution and title 32 of the U.S.C. It 
is unlike the other Reserve components which can only perform title 10 
duties under title 10 command authority. The National Guard performs 
the same title 10 duties when Federalized plus diverse non-Federal 
duties and State duties under state command authority. The command 
chains are unambiguous. The other Reserve components have no analogy to 
the National Guard's non-Federalized duties and command authorities. 
The non-Federal National Guard missions include but are not limited to: 
air defense, ballistic missile defense, weapons of mass destruction 
response, disaster response, counterdrug support, border security, 
airport security, and national event security.
    Placing the CNGB on the JCS would not alter current title 10 
relationships. There would be no change to the title 10 authorities of 
the Service Secretaries or Service Chiefs. Total Force integration 
would not be compromised; if anything, it would be enhanced by greater 
situational awareness of title 32 National Guard missions, 
capabilities, and leadership on which the CNGB is uniquely qualified to 
advise. Total Force integration would also benefit from enhanced 
understanding of the Homeland Defense and Civil Support missions that 
are performed by non-Federalized National Guard forces.

    15. Senator Chambliss. General McKinley, the JCS was established by 
the National Security Act of 1947 and at that time consisted of a 
Chairman and the Chiefs of Staff of the Army and Air Force and the 
Chief of Naval Operations. The Commandant of the Marine Corps was added 
in the late 1970s and the position of Vice Chairman was added in 1986 
as a result of the Goldwater-Nichols Act. It is clear that those who 
initially created the JCS did not see a need to include the Chief of 
the Guard Bureau. In your view, should the Chief of the Guard Bureau 
have been included in the first place, or what has changed since the 
creation of the JCS that necessitates inclusion of the Guard Bureau 
Chief at this point?
    General McKinley. The events of September 11, 2001 have changed the 
threats this nation faces. Homeland Defense and Civil Support must be 
at the core of our national strategy due to this changing threat 
environment, one that is asymmetric and more dangerous within our 
Homeland than at any time in our history. On average, 5,800 National 
Guard members are activated for Homeland missions at any given time. 
Therefore, domestic mission of the National Guard must be taken into 
account when making military contingency plans, when allocating scarce 
readiness resources, and when advising the President, the Secretary of 
Defense, the National Security Council and the Homeland Security 
Council on strategies and contingency response options.

    [Whereupon, at 12:25 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
